<html>
<title> - H.R. 135, H.R. 495, H.R. 901 and H.R. 1284</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
              H.R. 135, H.R. 495, H.R. 901 and H.R. 1284

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, April 1, 2003

                               __________

                           Serial No. 108-12

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
86-198 PS

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel

                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                   KEN CALVERT, California, Chairman
        GRACE F. NAPOLITANO, California, Ranking Democrat Member

George Radanovich, California        Calvin M. Dooley, California
Greg Walden, Oregon                  Jay Inslee, Washington
Thomas G. Tancredo, Colorado         Raul M. Grijalva, Arizona
J.D. Hayworth, Arizona               Dennis A. Cardoza, California
Tom Osborne, Nebraska                George Miller, California
Rick Renzi, Arizona                  Ciro D. Rodriguez, Texas
Stevan Pearce, New Mexico            Joe Baca, California
Devin Nunes, California              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio
                                 ------                                


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 1, 2003....................................     1

Statement of Members:
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     2
        Prepared statement on H.R. 135, H.R. 495, H.R. 901, and 
          H.R. 1284..............................................     2
    Doolittle, Hon. John, a Representative in Congress from the 
      State of California........................................     8
        Prepared statement on H.R. 901...........................     9
    Hayworth, Hon. J.D., a Representative in Congress from the 
      State of Arizona, Prepared statement on H.R. 495...........   108
    Linder, Hon. John, a Representative in Congress from the 
      State of Georgia...........................................     3
        Prepared statement on H.R. 135...........................     5
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................    13
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California..............................................     7
        Prepared statement on H.R. 901...........................     8
        Sacramento Bee letter submitted for the record...........    72
    Renzi, Hon. Rick, a Representative in Congress from the State 
      of Arizona.................................................    14
        Prepared statement on H.R. 495...........................    14
    Solis, Hon. Hilda L., a Representative in Congress from the 
      State of California........................................    11
        Prepared statement on H.R. 1284..........................    12

Statement of Witnesses:
    Eriacho, Wilfred, Sr., Chairperson, Zuni Indian Tribe Water 
      Rights Negotiation Team....................................    87
        Prepared statement on H.R. 495...........................    89
    Gleick, Dr. Peter H., President, Pacific Institute...........    76
        Prepared statement on H.R. 135...........................    78
    Keys, Hon. John W., III, Commissioner, Bureau of Reclamation, 
      U.S. Department of the Interior............................    21
        Prepared statement on H.R. 135...........................    27
        Prepared statement on H.R. 901...........................    22
        Prepared statement on H.R. 1284..........................    25
    Lujan, George, South El Monte, California....................    96
        Prepared statement on H.R. 1284..........................   101
    Lynch, Robert S., Attorney at Law, Robert S. Lynch & 
      Associates, Phoenix, Arizona...............................    84
        Prepared statement on H.R. 135...........................    85
    Niello, Roger, Sacramento County Supervisor..................    64
        Prepared statement on H.R. 901...........................    66
    Roder, Aileen, Program Director, Taxpayers for Common Sense..    58
        Prepared statement on H.R. 901...........................    59
    Rosier, Theresa, Counselor to the Assistant Secretary, Indian 
      Affairs, U.S. Department of the Interior...................    29
        Prepared statement on H.R. 495...........................    30
    Starsky, Jeffrey, Councilman, City of Folsom, California.....    52
        Prepared statement on H.R. 901...........................    54
    Whitehead, Michael, Director, San Gabriel Basin Water Quality 
      Authority..................................................    94
        Prepared statement on H.R. 1284..........................    95

Additional materials supplied:
    Association of California Water Agencies, Statement submitted 
      for the record on H.R. 135.................................   108
    Donnelly, Thomas F., Executive Vice President, National Water 
      Resources Association, Statement submitted for the record 
      on H.R. 135................................................     3
    Felix, Lawrence C., Vice President, Cardinal Industrial 
      Finishes, Letter submitted for the record on H.R. 1284.....    98
    Figueroa, Blanca, Mayor, City of South El Monte, California, 
      Letter submitted for the record on H.R. 1284...............    39
    Iriarte, Philip L., City Manager, City of Industry, 
      California, Letter submitted for the record on H.R. 1284...    35
    Miklos, Hon. Steve, Mayor, City of Folsom, California, 
      Statement submitted for the record on H.R. 901.............    50
    Wallach, Patricia A., Councilwoman, City of El Monte, 
      California, Letter submitted for the record on H.R. 1284...    37


   LEGISLATIVE HEARING ON H.R. 135, TO ESTABLISH THE ``TWENTY-FIRST 
 CENTURY WATER COMMISSION'' TO STUDY AND DEVELOP RECOMMENDATIONS FOR A 
 COMPREHENSIVE WATER STRATEGY TO ADDRESS FUTURE WATER NEEDS; H.R. 495, 
TO APPROVE THE SETTLEMENT OF THE WATER RIGHTS CLAIM OF THE ZUNI INDIAN 
 TRIBE IN APACHE COUNTY, ARIZONA, AND FOR OTHER PURPOSES; H.R. 901, TO 
   AUTHORIZE THE SECRETARY OF THE INTERIOR TO CONSTRUCT A BRIDGE ON 
  FEDERAL LAND WEST AND ADJACENT TO FOLSOM DAM IN CALIFORNIA, AND FOR 
   OTHER PURPOSES; AND H.R. 1284, TO AMEND THE RECLAMATION PROJECTS 
AUTHORIZATION AND ADJUSTMENT ACT OF 1992 TO INCREASE THE FEDERAL SHARE 
      OF THE COSTS OF THE SAN GABRIEL BASIN DEMONSTRATION PROJECT.

                              ----------                              


                         Tuesday, April 1, 2003

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 1324, Longworth House Office Building, Hon. Ken Calvert 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Calvert, Tancredo, Hayworth, 
Osborne, Renzi, Pearce, Nunes, Napolitano, Inslee, Grijalva, 
Rodriguez and Baca.
    Also Present: Representative Ose.
    Mr. Calvert. The Subcommittee on Water and Power will come 
to order.
    The Subcommittee is meeting today to hear testimony on H.R. 
135, H.R. 495, H.R. 901, and H.R. 1284. Under Committee Rule 
4(g), the Chairman and Ranking Minority Member can make opening 
statements.

STATEMENT OF THE HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Our Subcommittee continues to pursue balanced 
and integrated water management approaches for growing and 
competing water uses. Today, we will focus our attention on 
four bills that make existing water supplies go further, 
improve the dependability and security of the water 
infrastructure for long-term use, and promote cooperative 
efforts to implement best water management practices.
    H.R. 1284, introduced by the distinguished Ranking Member, 
Mrs. Napolitano, increases the Federal share of the cost of the 
San Gabriel Basin Demonstration Project in California. H.R. 
495, authored by our distinguished Arizona colleague, Mr. 
Renzi, approves the settlement of longstanding water rights 
claims of the Zuni Indian Tribe, the State of Arizona, and 
local water and power users.
    In response to a Federal decision to close a road over a 
Federal facility that has severely impacted local communities 
and thousands of commuters, H.R. 901 authorizes the Secretary 
of Interior to construct a bridge on Federal land near Folsom 
Dam in California to enhance the security of the dam and the 
reservoir. And H.R. 135 establishes a commission to develop 
recommendations for a comprehensive, long-term national water 
strategy.
    These bills attempt to find common sense solutions to the 
many problems facing our communities. I thank our witnesses for 
coming here today, and look forward to hearing from them on 
these important bills.
    [The prepared statement of Mr. Calvert follows:]

Statement of The Honorable Ken Calvert, Chairman, Subcommittee on Water 
       and Power, on H.R. 135, H.R. 495, H.R. 901, and H.R. 1284

    Our Subcommittee continues to pursue balanced and integrated water 
management approaches for growing and competing water uses. Today, we 
will focus our attention on four bills that make existing water 
supplies go further, improve the dependability and security of the 
water infrastructure for long-term use, and promote cooperative efforts 
to implement best water management practices.
    H.R. 1284, introduced by the distinguished Ranking Member, Mrs. 
Napolitano, increases the Federal share of the costs of the San Gabriel 
Basin demonstration project in California.
    H.R. 495, authored by our distinguished Arizona colleague, Mr. 
Renzi, approves the settlement of longstanding water rights claims of 
the Zuni Indian Tribe, the State of Arizona, and local water and power 
users.
    In response to a Federal decision to close a road over a Federal 
facility that has severely impacted local communities and thousands of 
commuters, H.R. 901 authorizes the Secretary of the Interior to 
construct a bridge on Federal land near Folsom Dam in California to 
enhance the security of the dam and the reservoir.
    And H.R. 135 establishes a commission to develop recommendations 
for a comprehensive, long term national water strategy.
    These bills attempt to find common sense solutions to the many 
problems facing our communities. I thank our witnesses for coming here 
today, and look forward to hearing from them on these important bills.
                                 ______
                                 
    Mr. Calvert. Mrs. Napolitano is going to be here shortly. 
In the meantime, are there other members who have an opening 
statement? With that, we will start the opening statements with 
the Members who are here today, and when Mrs. Napolitano 
arrives, we will take time for her opening statement.
    I will recognize Mr. Linder for your opening statement.

STATEMENT OF THE HON. JOHN LINDER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Linder. Thank you, Mr. Chairman. I would like to thank 
the Committee and the staff for putting H.R. 135, the ``21st 
Century Water Commission Act of 2003'' on the agenda of today's 
hearing. I appreciate the opportunity to testify before the 
Subcommittee about the value of creating a water commission to 
ensure the future of our Nation's water supply well into the 
21st century.
    Last May, I testified before this Subcommittee on behalf of 
my initial water commission bill, H.R. 3561 Since that time, my 
staff and I have worked with the Chairman, his staff, and other 
interested parties, to create a new and improved version of 
this water bill, H.R. 135.
    In particular, I would like to mention two individuals who 
worked closely with us on H.R. 135, Mr. Bob Lynch and Mr. Tom 
Donnelly. Mr. Lynch is an attorney with extensive expertise on 
water rights issues in Arizona, as well as Mr. Donnelly and the 
National Water Resources Council.
    [The prepared statement of Mr. Donnelly follows:]

      Statement of Thomas F. Donnelly, Executive Vice President, 
                  National Water Resources Association

    Mr. Chairman, members of the Committee, my name is Thomas F. 
Donnelly and I am the Executive Vice President of the National Water 
Resources Association. On behalf of the membership of the Association, 
it is my privilege to present testimony on H.R. 135, a bill to 
establish the Twenty-First Century Water Policy Commission.
    The National Water Resources Association (NWRA) is a nonprofit 
federation of associations and individuals dedicated to the 
conservation, enhancement, and efficient management of our Nation's 
most precious natural resource, WATER. The NWRA is the oldest and most 
active national association concerned with water resources policy and 
development. Its strength is a reflection of the tremendous 
``grassroots'' participation it has generated on virtually every 
national issue affecting western water conservation, management, and 
development.
    During the last Congress, the National Water Resources Association 
presented testimony in opposition to the legislation. Since that time, 
Mr. Lynch and I have had the privilege of working with Congressman 
Linder and his staff on the proposed mission of the Commission and its 
makeup. We have both been impressed with Congressman Linder's 
dedication to improving the manner in which we manage our nation's 
water resources and his flexibility in drafting H.R. 135. We applaud 
his dedication to improving the manner in which we manage our nation's 
water resources and improved Federal agency coordination.
    We are pleased to announce our support of H.R. 135 and look forward 
to working with Congressman Linder and the Committee on this 
legislation. We trust that the Commission will keep in mind the unique 
hydrologic characteristics and related needs of the arid and semi-arid 
West. We hope that the Commission will address water quality and 
quantity problems on a regional basis.
    In the West, water infrastructure is every bit as important as 
transportation infrastructure. It is essential to the continued 
economic growth and development.of the region. Water infrastructure 
needs continue to exist, particularly rural water supply. However, on 
the whole, the approach to meeting these needs will be quite different 
from those of the past. No one envisions a future infrastructure 
development program and financing arrangements like the original 
Reclamation program, which facilitated the development and 
unprecedented economic growth of the West during much of this century. 
Future projects are more likely to include non-structural features, 
environmental enhancement, proven best management practices, innovative 
approaches to water quality/quantity concerns and greater levels of 
non-Federal financing.
    Following are a few of the issues we would recommend that the 
Commission include in its mission:
    Today, many of our existing projects are beginning to show their 
age. It is essential that we rehabilitate these projects in a timely 
and cost effective manner. Currently, rehabilitation costs are handled 
like operation and maintenance expenses and are required to be repaid 
within one year. Major rehabilitation projects can run into the tens of 
millions of dollars, making them beyond the ability to repay in one 
year. Reclamation's customers are not looking for a Federal handout, 
simply repayment terms that allow these much needed rehabilitation 
projects to go forward.
    An essential element, which is currently missing from the Federal 
planning equation, is a basin-by-basin infrastructure and programmatic 
needs assessment. Such an assessment cannot be developed without the 
active involvement and, perhaps, leadership of the nation's governors, 
water resources professionals, and state and local officials. We would 
strongly recommend that this be a primary mission of the Commission.
    Several water development projects have been authorized by the 
Congress but remain unfunded. These projects should be reviewed to 
determine if they still meet the needs they were authorized to address. 
These projects should be prioritized on a state and regional 
(watershed) basis and Congress should determine what project benefits 
are in the Federal interest for funding purposes.
    In closing, I wish to express NWRA's appreciation for Congressman 
Linder's willingness to address the concerns raised by our members and 
I thank the Chairman and the Committee for this opportunity to present 
NWRA's thoughts and recommendations regarding this legislation.
                                 ______
                                 
    Mr. Linder. These two folks made huge constructive 
contributions in changes in our bill, and I understand they are 
testifying on behalf of the bill.
    With these revisions to the bill, H.R. 135 also has support 
from the Association of California Water Agencies and other 
water groups.
    Some of the more notable revisions included in H.R. 135 are 
as follows:
    A ``Findings Section'' listed in the beginning of the bill 
has been added to express the sense of the Congress that the 
Nation's water resources must be utilized to their fullest 
capacity. This section also states that the Congress finds a 
comprehensive strategy to increase our water supply vital to 
the economic and environmental future of our Nation.
    Another revision is that the commission will be composed of 
seven members named by the President, who are of recognized 
standing and distinction on water issues. The previous 
commission was composed of 17 members. This smaller number will 
allow for the commission to function more effectively, we 
think, thus increasing the likelihood that the commission's 
recommendations will be enacted.
    In addition, the powers and duties of the commission have 
been modified and clarified. It will now be required to submit 
an interim report within 6 months of when it starts its 
activities, ongoing reports after that for every 6 months while 
it is conducting its work, and a final report within 3 years of 
its inception. The commission will also be required to hold at 
least ten hearings, with one hearing being in Washington, D.C., 
to take testimony from Federal officials, and other hearings in 
distinct geographical regions of the U.S. seeking a diversity 
of views, comments and input.
    The future of our Nation's water supply is a serious and 
critical issue. Many states across the Nation are currently 
facing a water crisis, or have in the last several years. Once 
thought to be a problem only in the arid West, severe droughts 
last summer have caused water shortages up and down the East 
Coast. States once accustomed to an unlimited access to water 
are now experiencing problems the West has had for decades.
    I have read countless articles chronicling these crises, as 
no doubt has every member of the Subcommittee. Newspaper 
articles have described not only how rivers and wells are 
drying up all over the country,. but also that aquifers are 
being challenged by salt water intrusion, and now fish, 
wildlife and crops are being threatened, also. Meanwhile, 
projected population growth for the United States means that 
water demand will continue to increase in coming years. We must 
develop a water strategy to meet future demands now, before 
full-blown water shortages hit.
    Let me be clear. My bill does not give the Federal 
Government more control over water. Rather, this commission 
will coordinate water management efforts on all levels so that 
localities, states and the Federal Government can work together 
to enact a comprehensive water policy to avoid future water 
shortages, without encroaching on state and local governments' 
traditional authority over water policy.
    The 21st Century Water Commission will work to ensure an 
adequate supply of fresh water for U.S. citizens over the next 
50 years. It will not place increased mandates on state and 
local governments, and it will seek to eliminate conflict and 
duplication among governmental agencies. Most importantly, it 
will reduce the bureaucratic red tape many local communities 
face when trying to build water reservoirs and other 
infrastructure needs.
    The bill will also consider all available technologies for 
increasing water supply efficiently while safeguarding the 
environment, recommending means of capturing excess water for 
future droughts, suggesting financing options for public works 
projects, and will fully respect the primary role of states in 
adjudicating, administering, and regulating water rights and 
uses.
    The United States and its resources have changed 
dramatically over the past three decades. We simply cannot 
afford to maintain the status quo with something as critical as 
our Nation's fresh water supply. It is time to get ahead of 
this issue, rather than stay ``behind the curve'' as Congress 
does far too often.
    Providing all Americans with fresh water is a matter of 
life and death, and I hope that the Committee will support my 
objective of ensuring an adequate and dependable water supply 
of fresh water for all Americans throughout the 21st century.
    Thank you, Mr. Chairman. I will be happy to take any 
questions, should you have some.
    [The prepared statement of Mr. Linder follows:]

 Statement of The Honorable John Linder, a Representative in Congress 
                       from the State of Georgia

    I wish to thank Chairman Calvert, Ranking Member Napolitano, and 
the other distinguished members of the Subcommittee on Water and Power 
for putting H.R. 135, the ``21st Century Water Commission Act of 
2003,'' on the agenda of today's hearing. I appreciate having the 
opportunity to testify before the Subcommittee about the value of 
creating a water commission to ensure the future of our nation's water 
supply well into the 21st century.
    Last May, I testified before this Subcommittee on behalf of my 
initial water commission bill, H.R. 3561. Since that time, my staff and 
I have worked with Chairman Calvert, his staff, and other interested 
parties, to create a new and improved version of this water bill, H.R. 
135.
    In particular, two individuals I have worked closely with on H.R. 
135 are Mr. Bob Lynch and Mr. Tom Donnelly. Mr. Lynch, an attorney with 
extensive expertise on water rights issues in Arizona, as well as Mr. 
Donnelly and the National Water Resources Council, are two notable 
authorities on water issues who testified on H.R. 3561 last year, and 
offered constructive suggestions on ways to improve the bill. I 
understand that today they will testify in support of H.R. 135.
    With these revisions to the bill, H.R. 135, also has support from 
the Association of California Water Agencies (ACWA), and other water 
groups.
    Some of the more notable revisions included in H.R. 135 are as 
follows:
    <bullet> LA ``Findings Section'' listed in the beginning of the 
bill, has been added to express the sense of the Congress that the 
nation's water resources must be utilized to their fullest capacity. 
This section also states that the Congress finds a comprehensive 
strategy to increase our water supply vital to the economic and 
environmental future of our nation.
    <bullet> LAnother revision is that the commission will now be 
composed of seven members named by the President, who are of recognized 
standing and distinction on water issues. The previous commission was 
composed of 17 members. This smaller number will allow for the 
commission to function more effectively, thus increasing the likelihood 
that the commission's recommendations will be enacted.
    <bullet> LIn addition, the powers and duties of the commission have 
been modified and clarified. It will now be required to submit an 
interim report within six months of when it starts its activities, 
ongoing reports after that for every six months while it is conducting 
its work, and a final report within three years of its inception. The 
commission will also be required to hold at least 10 hearings, with one 
hearing in Washington, D.C., to take testimony from Federal officials, 
and other hearings in distinct geographical regions of the U.S. seeking 
a diversity of views, comments, and input.
    The future of our nation's water supply is a serious and critical 
issue. Many states across the nation are currently facing a water 
crisis, or have in the last few years. Once thought to be a problem 
only in the arid West, severe droughts last summer have caused water 
shortages up and down the East Coast. States once accustomed to an 
unlimited access to water are now experiencing problems the West has 
had for decades.
    I have read countless articles chronicling these crises, as, no 
doubt has every Member of the Subcommittee. Newspaper articles have 
described not only how rivers and wells are drying up all over the 
country, but also that aquifers are being challenged by salt water 
intrusion. And, now fish, wildlife, and crops are being threatened, 
too. Meanwhile, projected population growth for the United States means 
that water demand will continue to increase in coming years. We must 
develop a water strategy to meet future demands now, before full-blown 
water shortages hit.
    Let me be clear. My bill does not give the Federal Government more 
control over water. Rather, this commission will coordinate water 
management efforts on all levels so that localities, states and the 
Federal Government can work together to enact a comprehensive water 
policy to avoid future water shortages--without encroaching on state 
and local governments' traditional authority over water policy.
    The 21st Century Water Commission will work to ensure an adequate 
supply of fresh water for U.S. citizens over the next 50 years. It will 
not place increased mandates on state and local governments, and it 
will seek to eliminate conflict and duplication among governmental 
agencies. Most importantly, it will reduce the bureaucratic red tape 
many local communities face when trying to build water reservoirs and 
other infrastructure needs.
    The bill will also consider all available technologies for 
increasing water supply efficiently while safeguarding the environment, 
recommending means of capturing excess water for future droughts, 
suggesting financing options for public works projects, and will fully 
respect the primary role of States in adjudicating, administering, and 
regulating water rights and uses.
    The United States and its resources have changed dramatically over 
the past three decades. We simply cannot afford to maintain the status 
quo with something as critical as our nation's fresh water supply. It 
is time to get ahead of this issue, rather than stay ``behind the 
curve'' as Congress does far too often.
    Providing all Americans with fresh water is a matter of life and 
death, and I hope that the Committee will support my objective of 
ensuring an adequate and dependable water supply of fresh water for all 
Americans throughout the 21st Century.
    Thank you. I'll be happy to answer any questions Subcommittee 
Members may have.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman.
    Why don't we go ahead and get the opening statements of all 
the Members who are here present, and then we'll ask questions. 
That way we will be able to free all of you up to go about 
doing your business.
    With that, Mr. Doolittle, you're recognized.
    Mr. Doolittle. Mr. Chairman, could I request that the 
primary sponsor of this bill go first?
    Mr. Calvert. Without objection.

 STATEMENT OF THE HON. DOUG OSE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Ose. Thank you, Mr. Chairman. I thank the Member from 
the district next door.
    Mr. Chairman and distinguished members of the Subcommittee, 
thank you for providing this opportunity to testify today and 
provide the Committee another opportunity to consider a new 
American River crossing downstream from the Folsom Dam. Today I 
ask that you support H.R. 901, authorizing the Bureau of 
Reclamation to construct a new bridge on Federal land west of 
and adjacent to the Folsom Dam.
    It gives me little satisfaction to appear before you on 
this matter. As you may recall, Congressman Doolittle and I 
proposed in June, 2001, that the Bureau of Reclamation be 
authorized to commence with the construction of a replacement 
arterial carrying traffic from one side of Folsom Dam to the 
other. Since then, our concerns about the security of the dam 
itself have been recognized by various bodies. The most recent 
of which is the Defense Threat Reduction Agency and the Bureau 
of Reclamation, which has moved unilaterally to close the road. 
I share the concern that priority must be given to issues of 
homeland security.
    The consequence of the closure has been that up to 18,000 
cars per day that were using the road atop Folsom Dam are now 
impacting the streets and neighborhoods of the surrounding 
community. The city of Folsom is incurring significant 
unanticipated expenses in handling the traffic safety issues 
because of the actions of the Bureau in closing the Road. These 
added costs are directly related to the homeland security issue 
identified by the Defense Threat Reduction Agency and acted 
upon by the Bureau, to wit, the closure of the road.
    It is noteworthy to mention that in yesterday's Wall Street 
Journal, on page A-12, White House Office of Management and 
Budget Director Mitch Daniels is quoted as saying that 
relieving air carriers of their increased security costs 
``could have a certain logic to it.'' I think you will see that 
in the supplemental we're going to look at at the end of this 
week.
    You may hear today the same arguments that were put forth 
last time around that the Bureau doesn't build bridges. I have 
in my pocket a list of at least 17 bridges that the Bureau has 
built since 1970. Having come from a construction background, 
it would seem that if you estimate construction time for a 
bridge at about 2 years, start to finish, then the Bureau has, 
in fact, been in the bridge construction business since I 
entered high school.
    Mr. Chairman, this is an issue of homeland security that is 
adversely affecting a number of communities across multiple 
congressional districts. Given these facts and the history of 
the Bureau, I urge that the Committee favorably report H.R. 901 
to the full Committee.
    Thank you for allowing me the opportunity to testify today. 
I would be happy to answer any questions.
    [The prepared statement of Mr. Ose follows:]

Statement of The Honorable Doug Ose, a Representative in Congress from 
                  the State of California, on H.R. 901

    Mr. Chairman and distinguished members of the Subcommittee, thank 
you for providing this opportunity to testify today and provide the 
Committee another opportunity to consider a new American River crossing 
downstream from the Folsom Dam. Today, I ask that you support H.R. 901, 
authorizing the Bureau of Reclamation to construct a new bridge on 
Federal land west of and adjacent to the Folsom Dam.
    If gives me little satisfaction to appear before you on this 
matter. As you will recall, Congressman Doolittle and I proposed in 
June, 2001, that the Bureau of Reclamation be authorized to commence 
with the construction of a replacement arterial carrying traffic from 
one side of the Folsom Dam to the other. Since then, our concerns about 
the security of the dam itself have been recognized by various bodies. 
The most recent of which is the Defense Threat Reduction Agency and the 
Bureau of Reclamation has moved unilaterally to close the road. I share 
the concern that priority must be given to issues of homeland security.
    The consequence of the closure has been that up to 18,000 cars per 
day that were using the road atop Folsom Dam are now impacting the 
streets and neighborhoods of the surrounding community. The City of 
Folsom is incurring significant unanticipated expenses in handling the 
traffic safety issues because of the actions of the Bureau in closing 
the road. These added costs are directly related to the homeland 
security issue identified by the Defense Threat Reduction Agency and 
acted upon by the Bureau. It is noteworthy to mention that in 
yesterday's Wall Street Journal, on Page A-12, White House Office of 
Management and Budget Director Mitch Daniels is quoted as saying that 
relieving air carriers of their increases security costs ``could have a 
certain logic to it.''
    You may hear today the same arguments that were put forth last 
around that the Bureau doesn't build bridges. I have in my pocket a 
list of at least seventeen bridges that the Bureau has built since 
1970. Having come from a construction background, it would seem that if 
you estimate construction time for a bridge at about two years, start 
to finish, then the Bureau has in fact been in the bridge construction 
business since I entered high school.
    Mr. Chairman, this is an issue of homeland security that is 
adversely affecting a number of communities across multiple 
congressional districts. Given these facts and the history of the 
Bureau, I urge that the Committee favorably report H.R. 901 to the full 
Committee.
    Thank you for allowing me the opportunity to testify today.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman.
    Mr. Doolittle.

   STATEMENT OF HON. JOHN T. DOOLITTLE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Doolittle. Mr. Chairman and members, thank you very 
much. It's just about a year ago that we were here, as Mr. Ose 
pointed out, seeking essentially the same relief that we seek 
today. This Subcommittee at that time was gracious enough to 
grant it to us.
    All that has changed now, Mr. Chairman, since a year ago is 
that, in a rather precipitous decision, with basically 1 week's 
notice, the Bureau of Reclamation announced that it was closing 
permanently access across Folsom Dam, access which had been 
relied upon for nearly 50 years by the city of Folsom. The city 
of Folsom straddles both sides of the American River. Until 3 
years ago, there were only two bridge crossings that ran 
through there. One was, of course, the Folsom Dam, which we 
talked about, and the other was the Rainbow Bridge.
    Because of the concerns the city had for the amount of 
growth and making sure that, since occasionally the road over 
the dam could be closed for maintenance and so forth, they felt 
that in order to ensure appropriate access for emergency 
vehicles, et cetera, that serve both sides of the community, 
that a new bridge was needed. I think it's very significant 
that this community, which is not all that large--it's a city 
of about 50,000--funded entirely with no cost sharing of any 
kind the construction of a brand new bridge at a cost of $75 
million. So there were then three crossings over the American 
River that linked the two halves of the city of Folsom.
    Since the 1995 bombing in Oklahoma City, the Federal 
Government has been concerned about certain key structures, and 
Folsom Dam has been one of those. That is why Mr. Ose and I 
introduced legislation last year to address this problem. We 
knew that with the change in circumstances, circumstances that 
really didn't exist back in the 1950's when the dam was built, 
that it was now to be considered a terrorist target. And since 
this dam is the main source of flood protection for the city of 
Sacramento downstream, and since that dam and reservoir are a 
vital part of the California Central Valley project, which 
provides water for families, fish and farmers, which provides 
water to assist with the Sacramento San Joaquin Delta 
situation, and the power plant of the dam generates a huge 
amount of power for the local region, this has become a very, 
very sensitive area.
    The Bureau of Reclamation decided to close the road out of 
safety concerns for the dam as a target. We wish we would have 
had more notice over that because this has caused a real 
congestion nightmare for Folsom and for the people of this 
region. My district adjoins Mr. Ose's, and until the road was 
closed, there were 18,000 trips a day over this road. These 
people are now having to find other ways to cross the river. 
That means there is a tremendous amount of congestion on the 
two remaining bridges.
    For that reason, we seek passage of this bill and your 
approval for authorization of a new bridge and connecting 
structures to be borne at Federal expense over the American 
River.
    I thank you for your attention. You have the complete 
statement before you that I have submitted for the record.
    [The prepared statement of Mr. Doolittle follows:]

   Statement of The Honorable John T. Doolittle, a Representative in 
           Congress from the State of California, on H.R. 901

    Mr. Chairman and members of the Committee, today I ask for your 
support of H.R. 901. This bill would authorize the Bureau of 
Reclamation (Bureau) to construct a new bridge and related connecting 
structures on Federal land west of and adjacent to the Folsom Dam, 
which is located next to my district.
    You may remember that last year, I testified before this Committee 
regarding this same issue. At that time, I explained that the immediate 
construction of a new bridge to replace the current road that runs over 
the top of Folsom Dam was essential to the people of Northern 
California for two reasons: First, and foremost, it would greatly 
improve the safety and security of the entire region. Second, it would 
enhance the efficiency of the region's transportation system. I 
concluded my remarks last year by explaining that should the Bureau 
make the decision to close the existing Folsom Dam Road before a new, 
alternative bridge was built, the district I represented would suffer a 
significant economic, environmental and transportation impact.
    Today, nearly a year later, I come before you to report that the 
very situation I feared has occurred. On February 28, 2003, with almost 
no notice, the Bureau permanently closed Folsom Dam Road to both 
motorized and pedestrian traffic. As I sit before you, the communities 
that Congressman Ose and I currently represent are bearing the brunt of 
that decision and Congress' inability to act. As such, I come before 
you with one clear, simple message: Congress can wait no longer to 
build this bridge. We must act now.
    As way of background, let me briefly explain the history of this 
issue: Following its completion in 1956, the Folsom Dam included a two-
lane maintenance road on its top intended for the use of the Bureau. 
Over the years, as a service to local drivers, the Bureau has allowed 
restricted use of the Folsom Dam Road to the public. In the decades 
since its construction, however, the growing communities both north and 
south of the crossing have come to depend on the dam road as an 
important transportation route. Over the years, this has created 
numerous problems for both the Bureau and the public. As I mentioned, 
these problems came to a head on February 28, 2003, when the Bureau 
permanently closed the dam road to both motorized and pedestrian 
traffic.
THREAT TO SECURITY
    Recently, I received a security briefing that revealed that Folsom 
Dam could be a potential terrorist target and that the public's access 
to the road running on top of the dam was of particular concern. These 
concerns were not new, however. In fact, in the aftermath of the 1995 
Oklahoma City bombing, the Federal Government expressed increased 
concern for the security of important structures such as dams, bridges, 
and power plants. Since that time, the Bureau has been particularly 
wary of Folsom Dam's appeal as a potential terrorist target. As you may 
know, the dam is the Sacramento area's primary defense against the 
intense flooding that the American River has historically generated. 
Furthermore, the Folsom Dam and Reservoir serve as a vital part of the 
Central Valley Project. They control the flow of water that is critical 
to farmers, families, and fish not only in the Sacramento Region, but 
also in the Bay-Delta and Southern California. Finally, Folsom's 
hydroelectric plant provides a significant amount of the energy 
consumed in the area. Given how crucial this facility is to the safety 
and vitality of California's capital, it is critical that it remains 
secure from the efforts of those who seek to harm our well-being.
IMPACTS ON THE COMMUNITY
    Beyond the public safety factor, the current situation also causes 
numerous other problems. The eastern portion of the Sacramento suburban 
region, which I represent, is the fastest growing area in California. 
Traffic congestion is a growing concern for the City of Folsom and the 
neighboring communities that I represent. The demands placed on the 
Folsom Dam Road by the thriving commercial centers and neighborhoods 
that have developed nearby exceeded the structure's capacity. This 
road, which was originally designed to only accommodate maintenance 
crews, was handling 18,000 cars per day when it was recently closed. 
Now, most of those cars are traveling through already congested streets 
in the City of Folsom and other surrounding areas. Just a few years 
ago, the City of Folsom self-funded a $75 million bridge downstream 
from the dam to improve the flow of traffic. Nevertheless, a crossing 
at Folsom Dam remains one of the area's most important traffic needs 
and is the most convenient link between South Placer County, Folsom, 
and Western El Dorado County. Furthermore, it is a key route for 
workers commuting to and from the major job centers in the vicinity. 
Besides commuters, it also serves local shoppers, students, and 
visitors enjoying Folsom Lake's popular recreational opportunities.
THE SOLUTION
    The solution to these traffic problems, as well as the severe 
security concerns, is the same--to replace reliance on the Folsom Dam 
Road by building a new bridge. H.R. 901 would authorize the 
construction of a four-lane structure just downstream of the dam. It 
also calls for the construction of necessary linkages from the bridge 
to existing roadways. Upon completion, the Bureau would transfer 
ownership of the facilities to the City of Folsom.
    Many of this bill's opponents continue to ask the question, ``Why 
should the Federal Government be responsible for building this 
bridge?'' The answers are clear and compelling. First, Folsom Dam, the 
reservoir, and surrounding land are owned and operated by the Bureau. 
As such, the Bureau should take responsibility for closing a major 
transportation artery on its property by providing an alternative 
crossing. Second, the Federal Government has primary responsibility for 
the security of Federal facilities. Consequently, it should provide an 
alternative to the Folsom Dam Road that is going to protect Folsom Dam 
and downstream communities. Third, when the dam was first built, the 
reservoir inundated three existing two-lane river crossings. The Bureau 
compensated for that loss by allowing public access to Folsom Dam Road. 
Because the Bureau has now closed that road, proper mitigation should 
be expected for that action. Finally, the City of Folsom has already 
done its part to address both the security and transportation needs of 
the area. Since September 11th, its police department has cooperated 
with the Bureau to improve security measures at Folsom Dam and, as I 
stated earlier, the city recently built a $75 million bridge further 
downstream without any Federal assistance.
    H.R. 901 has the endorsement and support of local governments, the 
business community, and local transportation advocates. In fact, today 
you will hear favorable testimony from the City of Folsom and the 
County of Sacramento. They will explain in greater detail the 
precariousness of the current situation and the great need for this 
bill.
    I would like to remind my colleagues once again that one year ago I 
was seated before you with a similar piece of legislation, H.R. 2301, 
which the Committee reported out. Since that time, the need to protect 
Folsom Dam has increased, the local transportation needs of the region 
have grown, and the Federal Government has done nothing to resolve the 
problem. I therefore request your favorable support of H.R. 901 and ask 
that you allow for a markup of this needed legislation as soon as 
possible.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman.
    Mrs. Solis.

STATEMENT OF HON. HILDA L. SOLIS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Solis. Thank you, Chairman Calvert, and also Ranking 
Member Napolitano, for holding this important hearing today.
    I am here to testify in support of H.R. 1284, which amends 
the Reclamation Projects Authorization and Adjustment Act of 
1992. The bill would increase the Federal cost share for the 
San Gabriel Basin groundwater clean-up project.
    During the project's onset back in 1992, the Federal 
Government was authorized to pay 25 percent of the cost of 
projects to clean up local water supplies. In 1996, the funding 
level for the program was capped at $38 million, funding only a 
portion of the projects that had been designed. As a result of 
the cap, projects in the southern portion of the basin were not 
funded. Those included two of my cities that I currently 
represent, the El Monte operable unit and the South El Monte 
operable unit in my district.
    Since the cap was put in place, the southern operable units 
have been working with EPA to develop groundwater clean-up 
plans. Now we need money to make the clean up happen. Clean up 
literally means the difference between healthy and unhealthy 
families. This area is contaminated with perchlorate and other 
chlorinated solvents known as volatile organic compounds, or 
VOCs.
    Each of these contaminants can cause serious health 
complications. Perchlorate increases chances of cancer and can 
induce thyroid problems. We've had several of our wells, I 
know, in the basin that have already been closed because of the 
traces that we found there. VOCs are also harmful to the 
central nervous system, the kidneys and the liver, and can 
cause a higher risk of cancer, especially leukemia.
    The pollution that these communities have sustained has not 
only impacted their health and environment, but also their 
economy. Unemployment in the area is about 9.3 percent. 
According to the U.S. Census, 26 percent of the residents there 
are found to be below the poverty line. It has been difficult 
to attract businesses there because it's known as somewhat of a 
blighted area. One of the factors preventing those businesses 
and jobs from coming to the area is the pollution.
    When the cap was put in place, these areas lost the chance 
to access Federal funds to clean up the environment and protect 
the health and safety of our economy there. Now we have the 
opportunity to make a difference in this region by helping them 
accomplish these much-needed goals.
    Once again, I would like to thank the Chairman and the 
Ranking Member for holding this very important hearing. I know 
this is something that the members of our local delegation that 
represent that area are very much interested in seeing cleaned 
up.
    I know in the past Congressman David Drier has also lent 
his name and support for this effort. So I would like to thank 
the Committee for sponsoring this hearing today.
    Thank you. I yield back the balance of my time.
    [The prepared statement of Ms. Solis follows:]

Statement of The Honorable Hilda L. Solis, a Representative in Congress 
                      from the State of California

    Thank you, Chairman Calvert and Ranking Democrat Napolitano for 
holding this important hearing today. I am here to testify in support 
of H.R. 1284, which amends the Reclamation Projects Authorization and 
Adjustment Act of 1992. This bill will increase the Federal cost share 
for the San Gabriel Basin groundwater cleanup project.
    During the project's onset in 1992, the Federal Government was 
authorized to pay 25% of the cost of projects to cleanup local water 
supplies. In 1996 the funding level for the program was capped at $38 
million, funding only a portion of the projects that had been designed. 
As a result of the cap, projects in the southern portion of the basin 
were not funded, including the El Monte Operable Unit and the South El 
Monte Operable Unit in my district. Since the cap was put in place, the 
Southern Operable Units have been working with EPA to develop 
groundwater cleanup plans. Now, we need money to make the cleanup 
happen.
    Cleanup literally means the difference between healthy and 
unhealthy families. This area is contaminated with perchlorate, 
trichloroethene and other chlorinated solvents known as ``volatile 
organic compounds'' or VOCs. Each of these contaminants can cause 
serious health complications. Perchlorate increases chances of cancer 
and can induce thyroid problems. Trichloroethene has been shown to make 
people more susceptible to lung and liver tumors. VOCs are harmful to 
the central nervous system, the kidneys and the liver and can cause a 
higher risk of cancer, especially leukemia.
    The pollution that these communities have sustained has not only 
impacted the their health and environment, but also their economy. 
Unemployment in the area is 9.3%. According to the U.S. Census, 26% of 
the residents live in poverty. It has been difficult to attract 
businesses and jobs to the area. One of the factors preventing those 
businesses and jobs from coming to the area is the pollution. When the 
cap was put in place, these areas lost the chance to access Federal 
funds to clean up their environment, protect their health and help 
their economy. Now we have the opportunity to make a difference in this 
region by helping them accomplish these much-needed goals.
    Once again, I thank the Chairman and Ranking Member for holding 
this hearing. I urge the Subcommittee to favorably report this 
legislation and yield back the balance of my time.
                                 ______
                                 
    Mr. Calvert. I thank the gentlelady.
    Before we get to questions, Mrs. Napolitano has an opening 
statement, and Mr. Renzi wants to speak to his bill, H.R. 495.
    With that, Mrs. Napolitano.

STATEMENT OF THE HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chairman. I apologize for 
my not being here on time. It won't happen again.
    I certainly want to thank you for allowing me to talk out 
of turn, so to speak, on the four bills that we have before the 
Subcommittee that represent and give a snapshot of the many 
pressing water issues facing our Nation.
    Mr. Linder's H.R. 135 will establish the ``21st Century 
Water Commission'', which I feel is long overdue, in addressing 
our Nation's need to take a more proactive role in crafting a 
long-term water management plan with the participation of all 
States and coordination between the regions that they serve.
    Congressman Renzi's H.R. 495 would approve a consensus plan 
negotiating between the State of Arizona and the Zuni Indian 
Tribe, local water agencies and the local power company. This 
can very well be the successful model to help settle long-
standing water rights claims and might prove successful enough 
to be able to help other communities with water problems to be 
able to deal with the issue.
    My own H.R. 1284 would raise the existing cap, as was just 
explained by my colleague, Congresswoman Solis, of the San 
Gabriel Basin demonstration project that was unfortunately 
capped before some of the other areas with water problems were 
able to get their request for funding and actually their 
programming up. This is a Superfund list that can also be used 
to help other urban areas deal with contaminated aquifers.
    Finally, Congressman Ose's and Doolittle's 901, it's a 
dilemma that faces many of our communities after 9/11, with the 
increased costs for security that should be borne, I would 
hope, by homeland security, but is now on the Bureau of 
Reclamation's lap. I have spoken to the representatives of the 
city of Folsom early in March and they assured me they would 
work to achieve bipartisan support. But I am concerned, in that 
I have learned that this does not enjoy the support of the 
local area Democratic members and that an alternative bill, 
892, has been introduced in the House with a companion bill by 
Senator Feinstein. But I do look forward to hearing all the 
testimony so that we may have further clarification on what can 
be an agreeable and win-win situation for everybody.
    Mr. Chair, I thank you for holding the hearing. I want to 
thank the panelists, including my colleagues who took time out 
to come and present us with their thoughts and what their needs 
are for their areas.
    Thank you.
    Mr. Calvert. I thank the gentlelady.
    Mr. Renzi is recognized for an opening statement in regards 
to H.R. 495, water rights for the Zuni Indian Tribe.

STATEMENT OF THE HON. RICK RENZI, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Renzi. Thank you, Mr. Chairman.
    The Zuni Indian Tribe Water Rights Settlement Act of 2003 
will codify the settlement of the Zuni Indian Tribe water 
rights for its religious lands in northeastern Arizona. 
Congress first recognized the importance of these lands in 1984 
when it created Zuni Heaven Reservation.
    The small communities upstream from this reservation have 
been fully appropriated and, knowing this, the prospect of 
dividing this limited water with other users has created an 
uncertainty.
    To resolve that uncertainty, and to avoid costly 
litigation, the Zuni Tribe, the United States on behalf of the 
Zuni Tribe, the State of Arizona, including the Arizona Game 
and Fish Commission, the Arizona State Land Department, and the 
Arizona State Parks Board, as well as the major water users in 
the area, negotiated for many years to produce an acceptable 
settlement to all parties.
    I would like to commend the work of Senator John Kyl of 
Arizona on this important legislation. His leadership and 
perseverance has brought us to this point of a good settlement.
    Mr. Chairman, I would also like to commend the work of the 
rural communities of the First District of Arizona, including 
the city of St. Johns, the town of Eagar, the town of 
Springerville, and the State of Arizona. in addition, the Salt 
River Project, Tucson Electric Power Company, St. Johns 
Irrigation and Ditch Company, the Lyman Water Company, and the 
Round Valley Water Users' Association, as well as those I 
mentioned earlier.
    Mr. Chairman, I would ask that you allow my full remarks 
and testimony to be submitted for the Committee.
    Mr. Calvert. Without objection, so ordered.
    Mr. Renzi. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Renzi follows:]

  Statement of The Honorable Rick Renzi, a Representative in Congress 
                 from the State of Arizona, on H.R. 495

    Chairman Calvert and members of the Subcommittee, I appreciate the 
opportunity to testify on H.R. 495, the Zuni Indian Tribe Water Rights 
Settlement Act of 2003. The Senate companion, S. 222, introduced by 
Senator Kyl, passed the Senate on March 13, 2003. I would like to 
commend the work of Senator Kyl on this important legislation.
    The Zuni Indian Tribe Water Rights Settlement Act of 2003 would 
codify the settlement of the Zuni Indian Tribe's water rights for its 
religious lands in northeastern Arizona. Congress first recognized the 
importance of these lands in 1984 when it created the Zuni Heaven 
Reservation (Pub. L. No. 98-498, as amended by Pub. L. No. 101-486 
(1990)).
    The small communities upstream from this Reservation have been 
fully-appropriated. Knowing this, the prospect of dividing this limited 
water with another user created uncertainty. To resolve that 
uncertainty and to avoid costly litigation, the Zuni Tribe, the United 
States on behalf of the Zuni Tribe, the State of Arizona, including the 
Arizona Game and Fish Commission, the Arizona State Land Department, 
and the Arizona State Parks Board, as well as the major water users in 
this area, negotiated for many years to produce an acceptable 
settlement to all parties.
    This legislation would provide the Zuni Tribe with the resources 
and protections necessary to acquire water rights from willing sellers. 
In addition, this legislation will restore and protect the wetland 
environment that previously existed on the Reservation. In return, the 
Zuni Tribe would waive its claims in the Little Colorado River 
Adjudication. The Zuni Tribe will grandfather existing water uses and 
waive claims against many future water uses in the Little Colorado 
River Basin. This legislation exemplifies that the Zuni Tribe can 
achieve its needs for the Zuni Heaven Reservation and avoid a 
disruption to local water users and industry. In addition, the United 
States can avoid costly litigation and satisfy its trust 
responsibilities to the Zuni Tribe.
    I would like to commend the work of the parties to the Zuni 
Settlement. The parties consist of rural communities in the First 
District of Arizona, including the City of St. Johns, the Town of Eagar 
and the Town of Springerville. In addition, the State of Arizona, 
specifically, the Arizona Game and Fish Department, the State Land 
Department and the Arizona State Parks Board, Salt River Project, 
Tucson Electric Power Company, St Johns Irrigation and Ditch Company, 
the Lyman Water Company and the Round Valley Water Users' Association.
    I urge members of the Subcommittee and Full Committee to support 
the Zuni Indian Water Rights Settlement Act.
                                 ______
                                 
    Mr. Calvert. I want to thank all the members for attending 
this afternoon and for offering your testimony on good 
legislation.
    First, Mr. Linder, I want to congratulate you on what I 
know has been a long-term effort. We have talked over the years 
about this and I think it's very timely for you to bring this 
legislation forward. As you well know, fresh water is not just 
an issue in the West, though it seems to many of us up here 
that we spend most of our time talking about water issues in 
the arid West. But as you well know, and as we in this country 
are now learning, water issues are shared by virtually every 
corner in every State in this country. So I look forward to 
working with you to make this H.R. 135 law and that we can work 
toward coming together with a water strategy for the 21st 
century.
    A question I have for you. What progress do you believe the 
States, in general, are having in developing their own water 
strategies to meet these demands?
    Mr. Linder. We have a significant problem in Georgia, where 
we have three States suing each other--Georgia, Florida and 
Alabama--over access to water from two watersheds that 
originate in Georgia. The most valuable resources we have in 
Georgia are huge aquifers, and they have declined to such a 
level that salt water is seeping back into them, which will 
make them worthless.
    We have had in the last several months a significant amount 
of water to fill up our lakes again and to recharge the 
aquifers. But there is no question that we've been working for 
four or 5 years now with neighboring States to try and find 
ways to sort out the rights to this water that does come from 
two watersheds.
    The Corps that is dealing with the lakes we have in Georgia 
is trying to move toward regional water planning, watershed 
planning for the whole 32 counties. There is one watershed, for 
example, instead of just the counties that touch on access to 
the water. There is a significant amount of money being spent.
    There are 90,000 people in the Federal Government that do 
nothing but water. There are 270,000 people in State and local 
governments, and none of them are talking to each other. This 
whole idea is to get them to coordinate it and talk to each 
other.
    Mr. Calvert. On to the Folsom Bridge issue, of course--and 
we're going to be hearing from Commissioner Keys later, but I 
wanted to hear from Mr. Doolittle and Mr. Ose regarding this. 
We are revisiting this issue. From your perspective--and you 
said this in your opening statement, and I want to hear it 
again--do you believe that access over the Folsom Dam was 
closed because of the issues regarding homeland security? Mr. 
Ose.
    Mr. Ose. Mr. Chairman, that's an excellent question. I was 
in Sacramento the week of the 21st of February. I received a 
call from the Bureau of Reclamation person at the time, a 
fellow named Larry Todd, who was in Sacramento to brief the 
regional director of the Bureau of Reclamation on this issue, 
having just received an analysis from the Defense Threat 
Reduction Agency as to the exposures that Folsom Dam, for lack 
of a better word, enjoys for a terrorist act.
    I was given a classified briefing by Mr. Todd. It was 
completely surrounded by the issue of homeland security and 
terrorist acts that would otherwise undermine homeland 
security. That was the only subject on the table. It was the 
only subject broached.
    Mr. Calvert. Just for the record, are there any estimates 
of damage to property and loss of life that would occur if, in 
fact, the Folsom Dam was to be destroyed?
    Mr. Ose. Mr. Chairman, I'm a little bit unclear on what I 
can put in the public domain and what I can't. I have that 
information and I would be happy to share it with you 
privately.
    Mr. Calvert. It is certainly significant, huge?
    Mr. Doolittle. May I volunteer an answer, because mine is 
not based on the terrorism threat.
    There is $40 billion worth of assessed valuation property 
in the American River flood plain. In one study that I saw, of 
what would happen if there were a flood--which obviously would 
happen if the dam were blown up--it's hard to conjecture. But 
the study I saw, which was done by the Corps of Engineers, I 
believe projected a property loss from $6-20 billion, and a 
loss of life of about 100 lives.
    You must remember that the city of Sacramento is 
essentially at sea level, maybe slightly below in places, and 
these vast levees that impound the American River rise more 
than 20 feet high. So when you've got a river at flood stage 
and the levee breeches, you will have a tidal wave of water 
engulfing the homes that lie in its path.
    Mr. Calvert. Thank you.
    Mr. Ose. Mr. Chairman, I can tell you the exposure that was 
defined did not relate to the concrete portion of Folsom Dam. 
What was described to me was that in the winter time, when the 
storage and flood protection raises the level of the water from 
what is currently at 419 up to 475, when you put a vehicle on 
the earthen portion of the dam, which is the winged sides of 
the dam--and an analysis was done if such a vehicle exploded, 
much like they did at the Oklahoma City thing--you would 
displace enough earth that the structural integrity would be 
compromised and the earthen portions would collapse. That's the 
threat that was analyzed.
    Mr. Calvert. I thank the gentleman.
    Any other questions for the panel? Mrs. Napolitano.
    Mrs. Napolitano. Mr. Ose, you mentioned that bridges had 
been built by the Bureau of Reclamation since 1902. When was 
the last one built, approximately?
    Mr. Ose. To answer your question directly, the last one 
that I'm advised was built was Douglas Creek at Bobby Thompson 
campground, known as Black Water No. 1, for the Forest Service, 
in 1999. Prior to that, there's a Nazlini Wash bridge in 
Chinle, Arizona, 260 feet--
    Mrs. Napolitano. So they're more recent, they are recent.
    Mr. Ose. Correct. There are 17 of them here that I've been 
able to identify since--
    Mrs. Napolitano. Then my next question would be--The 
projected cost is about $66 million?
    Mr. Ose. That is correct.
    Mrs. Napolitano. What percentage is that of the Bureau's 
budget?
    Mr. Ose. I don't know the answer to that question.
    Mrs. Napolitano. OK. It turns out to be not quite 10 
percent, but close to that, according to the information I 
have. My concern is that it would take away a large portion of 
the Bureau's funding to deal with other projects that have been 
waiting on line, probably much like yours, but that actually 
have been the focus and goals of the Bureau. Although I know 
the Bureau is interested in reclamation and the storage, et 
cetera, I am concerned about what impact that would have. Would 
you mind--
    Mr. Ose. If I may, that was one of the things I found most 
interesting about this article in the Wall Street Journal 
yesterday. This issue is so directly tied to homeland security 
and the added costs that come from our measures taken, it's 
very analogous, for instance, to the burdens we've put on the 
airlines. In this article in yesterday's Wall Street Journal, 
on page A-12, Mitch Daniels is cited as saying backing aid to 
the airlines to the extent of their added security costs 
pursuant to 9/11 ``could have a certain logic to it''.
    So I would contend that, under that same logic that would 
support an airline request for assistance on added security 
costs, the logic could easily be applied to this particular 
situation, also.
    We would have to work out in our regular order, you know, 
the amount that we would otherwise provide, whether it be under 
the Bureau's regular budget or over in homeland security. But 
it seems to me the foundation has been laid accordingly.
    Mrs. Napolitano. Following that same analogy, though, 
wouldn't it stand to reason that we should actually look also 
at transportation funds as well as homeland security funds, as 
well as the Army Corps of Engineers and Department of Interior, 
because they all are part and parcel of this project, if I may 
be so bold.
    Mr. Ose. I have thought about that, if the gentlelady would 
allow me to respond.
    Mrs. Napolitano. Certainly.
    Mr. Ose. I have thought about that, and the reality is that 
transportation and the Corps, they don't typically deal with 
issue of national or homeland security kinds of things. This is 
not a flood issue; this is not a transportation issue, if you 
will. This is an issue of homeland security, and that's what 
we're trying to address here. We're trying to bring to bear the 
authorization under the homeland security rubric, which is the 
reason for the closure of the road, to provide some relief to 
these communities.
    Mrs. Napolitano. I understand, and I agree that it has to 
be done somewhere along the line. My concern is how the funding 
is going to be put together and the fact that you're asking for 
authorization to turn it over to Folsom totally without any 
strings attached, so to speak, and the maintenance and 
everything else will be the concern of the Bureau.
    Mr. Ose. If I recall the bill correctly, the maintenance 
after the fact would be shifted to the city of Folsom.
    Mrs. Napolitano. The maintenance. I'm sorry.
    Mr. Ose. Yes.
    Mrs. Napolitano. OK. Then I stand corrected.
    But certainly the full funding, without any support--and I 
did talk to the members that came to see me in March, and I did 
specifically point out to them that normally projects of this 
nature do work better, for funding purposes and for other 
approval support systems, if there is a joint partnership with 
the community and with other agencies, including State 
agencies. I had not heard anything from anybody on that.
    Mr. Ose. If I may, if this recommendation to close the road 
had come from anybody other than the Defense Threat Reduction 
Agency, as a result of an analysis they had done in quantifying 
a homeland security issue, I would tend to agree with you. But 
the entire driving logic behind this--and I'm sure Mr. Keys and 
maybe some of the others can testify to this--was that this is 
a homeland security issue. It's not a Corps issue, it's not a 
Department of Transportation issue. This is a homeland security 
issue.
    Mrs. Napolitano. It would then have the purview of 
transportation and homeland security, because it is 
transportation-related, and it also is a issue of security of 
the bridge.
    Mr. Ose. I will be interested in Commissioner Keys' 
testimony. My understanding is the Defense Threat Reduction 
Agency are the ones who did the analysis.
    Mrs. Napolitano. Thank you for clarifying. I appreciate it.
    Mr. Calvert. I thank the gentlelady. Any questions for this 
panel?
    Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman. My question will be 
for Mr. Linder. In section 4 of the bill, item (3) under that, 
it says the duties are to consult with representatives of such 
agencies to develop recommendations for a comprehensive water 
strategy, and then part (A) under that says it respects the 
primary role of States in adjudicating, administering and 
regulating.
    Do you foresee any way, when States coexist, when they 
share a border and yet have different water laws--for instance, 
Texas has the rule of capture, which means they can pump just 
about whatever they want, and New Mexico right next to it has 
an appropriating system based on beneficial use. Those are 
completely different logics that underlie the rule.
    How would the commission know how to sort that out?
    Mr. Linder. I have no answers. I have tons of questions. 
The whole idea behind this is to bring some people with 
expertise in water issues around the table together, to look at 
everything. We can look and see what Los Angeles has done in 
saving and conserving water. They've done a remarkable job, and 
Las Vegas is recharging aquifers in a very, very 
environmentally friendly way. Tampa has the largest 
desalinization plant in the Western Hemisphere. There's all 
kinds of things that may be going on that we should just bring 
to the same place and share the information.
    We lose a quarter of our water through leaky pipes. 
Philadelphia loses 85 million gallons of fresh water a day 
through leaky pipes.
    We have a fund that is a low interest borrowing fund that 
localities can borrow from for infrastructure needs. It may 
have to be enlarged. We may have to have a huge public works 
project just to begin to save the water that's being lost 
through pipes.
    So it is my hope that people who spend a lifetime thinking 
about these things will bring a lot of answers to the table and 
we can deal with them after the commission has done its work.
    Mr. Pearce. Thank you, Mr. Chairman.
    Just from a small State perspective, New Mexico's 
perspective, I sat in 2 days of hearings where the State of 
Texas was telling New Mexico that, because you're good friends 
with us, you should give us 50,000 acre-feet. When we as good 
friends didn't give them 58,000 acre-feet of the Rio Grande 
water, then they took us to court.
    My fear as a small State is that, with seven members and no 
balancing mechanism here, that small States would be 
disadvantaged extremely. And while I agree with the concept of 
your bill, I do have that deep-rooted concern, that the 
powerful will take the water from those who don't have quite as 
much political clout.
    Thank you, Mr. Chairman.
    Mr. Calvert. Mr. Osborne.
    Mr. Osborne. I have a question of Mr. Linder.
    Traditionally, water issues have been State functions. My 
understanding is that this commission would continue to lead 
the primary focus at the State level and would simply be a 
coordinating agency, where we would try to gather best 
practices and make States better aware of what can be done and 
what is being done.
    Mr. Linder. The whole intention is to do just that, to 
bring some expertise to one table, to make a conscious effort 
to get around the country, to attend different hearings in 
different parts of the country, to find out what's being done 
in water policy, and to make recommendations.
    I think if we undertook, for example, a huge public works 
project to fix the leaky pipes in most major cities, the 
Federal Government can be very helpful in financing that. 
Conservation is the first step. But I do not--in fact, I have 
written it in here quite specifically, that this is not a 
Federal takeover of water policy. In fact, in May of last year, 
that was the first response to many people who responded to the 
bill. I made it as clear as I can, that water policy is still 
driven at the local level. But this can be helpful.
    Mr. Osborne. Thank you, Mr. Chairman.
    Mr. Calvert. I thank the gentleman.
    Any other questions for this panel? Mr. Baca.
    Mr. Baca. Yes, a couple of questions. I don't know if 
they've been asked, Mr. Chairman.
    Since most highway projects require at least some cost 
sharing, has the city of Folsom considered implementing a 
reasonable cost-share plan for this project? As I looked at it, 
I don't know if it was answered or asked before or not.
    Mr. Ose. Congressman Baca, this is a homeland security 
issue, that the reason the road was closed in the first place 
had to do with an analysis put forward by the Defense Threat 
Reduction Agency that identified Folsom as a very high 
potential target for terrorist activities. It's not a 
transportation issue; it's not a flood control issue. This is a 
homeland security issue related to getting vehicular traffic 
off of the dam road--excuse me, the road atop the dam--that 
would otherwise constitute a threat to the homeland security of 
our country.
    Mr. Baca. Is there any kind of matching funds or any other 
kinds of funds that would be coming up or not?
    Mr. Ose. As a result of its analysis as a homeland security 
issue, this proposal envisions having the Federal Government 
pay the entirety of the $66 million.
    Mr. Baca. Has there been any kind of feasibility studies 
that have been done?
    Mr. Ose. There have been some very preliminary design 
pieces, which I'm familiar with anecdotally. There has been an 
EIR done on a two-lane arterial on the land that the Bureau 
owns below the dam. But as far as any actual bid documents or 
construction documents, I'm not aware of those.
    Mr. Baca. And would those be presented to the Chair of this 
Committee, if there was any kind of feasibility studies done in 
that area, for consideration?
    Mr. Calvert. To answer the gentleman's question, anything 
that's done under the Bureau of Reclamation is under our 
jurisdiction, so we would have the opportunity to review those 
documents.
    Mr. Baca. Good. Thank you.
    Mr. Calvert. Mr. Inslee. By the way, Mr. Inslee, the Folsom 
Dam has nothing to do with global warming.
    [Laughter.]
    Mr. Inslee. We'll find a way. We'll find a way.
    Mr. Ose, I just want to know, do you think this is an issue 
of homeland security?
    Mr. Ose. I believe this is a serious issue of homeland 
security. To answer your question, without equivocation.
    Mr. Inslee. Thank you.
    Mr. Calvert. OK. Any other questions for this panel?
    I have one comment, and maybe you can answer this. For the 
record, I understand this is not an issue of whether or not 
we're going to obviously build on to the Folsom Dam, because 
if, in fact, even if the Folsom Dam was raised, which I know is 
somewhat controversial in that community, we still could not 
put transportation, I assume, on top of that facility for the 
exact reasons that we're here today; isn't that correct?
    Mr. Ose. Mr. Chairman, it is my understanding that the 
Defense Threat Reduction Agency analysis of the homeland 
security threat exists whatever the condition of the dam is. 
They want the vehicular traffic off the dam.
    Mr. Calvert. So in order to get the vehicular traffic off 
the dam, we have to build a bridge?
    Mr. Ose. That's my belief, yes.
    Mr. Calvert. I thank the gentleman.
    Any other questions? If not, we certainly thank this panel 
for attending today. If you would like to join the rest of us 
up here for questions of other panelists today, you're 
certainly invited, if there's no objections from the people 
here today. I see none. So ordered. If not, thank you for 
attending.
    Mr. Calvert. Our next panel is the Commissioner of the 
Bureau of Reclamation, the Honorable John W. Keys, II, and Ms. 
Theresa Rosier, Counselor to the Assistant Secretary of Indian 
Affairs.
    Thank you for attending our hearing today. With that, 
Commissioner, you're recognized.

 STATEMENT OF HON. JOHN W. KEYS, III, COMMISSIONER, BUREAU OF 
          RECLAMATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Keys. Mr. Chairman, I have three different statements. 
I would certainly request that the full text be entered into 
the record.
    Mr. Calvert. Without objection, so order.
    Mr. Keys. I would also ask, is there any particular order 
that you would prefer me to proceed in?
    Mr. Calvert. We'll leave that totally to your discretion.
    Mr. Keys. Mr. Chairman, we'll hit them head on, then.
    Mr. Chairman, H.R. 901 would authorize the Secretary of the 
Interior to design and construct a bridge on Federal land west 
and adjacent to Folsom Dam in California which, when completed, 
would be transferred to the city of Folsom. H.R. 901 would also 
authorize $66 million to be appropriated for the bridge.
    When construction of Folsom Dam was completed in the mid-
1950's, the narrow two-lane road built on top of the dam was 
intended to serve as an access road for maintenance of the dam 
and for incidental recreation access to the lake. In the 
ensuing years, as the population of Placer and El Dorado 
counties has grown, the road over Folsom Dam has become a major 
transportation artery, with about 18,000 cars using it every 
day.
    Folsom Dam is a flood control facility, protecting about 
700,000 people downstream. For security purposes, the Bureau of 
Reclamation closed the road over Folsom Dam on February the 
28th, 2003, for an indefinite period of time. This decision was 
not made lightly. The decision came after extensive security 
assessments from the Department of Defense's Defense Threat 
Reduction Agency. It was their professional recommendation, and 
the Department of Interior agreed, that it was prudent to close 
the road across the dam to protect the facility.
    Mr. Chairman, I would certainly offer a secure briefing to 
you and the members of your Subcommittee to cover the details 
of that assessment and the implementation and why it was 
implemented, if that would be the pleasure of the Subcommittee.
    Mr. Calvert. I thank the gentleman.
    Mr. Keys. I'm certainly aware that the Folsom Dam road 
closure has resulted in traffic disruption in and around 
Folsom. I recently met with Folsom city officials to discuss 
their concerns and the possibility of reopening the road.
    While we are willing to work with the surrounding 
communities, the responsibility of building a new bridge to 
handle current and future traffic is not within Reclamation's 
purview. As such, the Administration cannot support H.R. 901 as 
drafted.
    I do understand that a new bridge is warranted to handle 
current and future traffic, and I would urge the bill's 
sponsors and local stakeholders to work with the appropriate 
local, State and Federal transportation agencies to accomplish 
that.
    I might add that the Federal Government has started 
construction of a new bridge below Hoover Dam, and that one is 
certainly one that has been receiving a lot of attention after 
9/11. That structure is being funded, designed and constructed 
by the Department of Transportation.
    There are several other issues with H.R. 901 that we're 
concerned about. The Administration is concerned about the lack 
of any local cost share requirements. The city of Folsom and 
surrounding communities would be the primary beneficiaries of 
the new bridge to alleviate transportation issues in their 
communities. A local cost share requirement would be 
appropriate.
    Section (1)(b)(2) says ``The Secretary shall provide 
appropriate sizing and linkages to support present and future 
traffic flow requirements for the city of Folsom.'' This 
language clearly states that the Secretary would be placed in 
the position of providing ancillary roadway connections and 
analyzing future transportation logistics. These requirements 
are more appropriate for the Department of Transportation and 
are beyond the mission of the Bureau of Reclamation.
    In conclusion, Mr. Chairman, let me reiterate that the 
Administration understands and shares the concerns of the 
sponsors of H.R. 901 and the local communities about the 
additional traffic congestion caused by the closing of Folsom 
Dam road. The decision to close the road over the dam was not 
made in haste and was decided only after considerable review of 
the facts. However, Reclamation was entrusted with the task of 
protecting the Folsom Dam facility for the people who rely on 
it for flood control and water supply. I again urge the bill's 
sponsors and local stakeholders to work with appropriate local, 
State and Federal transportation authorities to address these 
traffic concerns.
    [The prepared statement of Mr. Keys on H.R. 901 follows:]

   Statement of John Keys, III, Commissioner, Bureau of Reclamation, 
              U.S. Department of the Interior, on H.R. 901

    My name is John Keys, III, Commissioner of the U.S. Bureau of 
Reclamation. I am pleased to provide the Administration's views on H.R. 
901, to authorize the Secretary of the Interior to construct a bridge 
adjacent to the Folsom Dam in California.
    H.R. 901 would authorize the Secretary of the Interior to design 
and construct a bridge on Federal land west and adjacent to Folsom Dam 
in California which, upon completion, would be transferred to the City 
of Folsom. H.R. 901 would authorize that $66,000,000 be appropriated 
for this purpose.
    When construction of Folsom Dam was completed in the mid-1950's, 
the narrow two lane road built on the top of the dam was intended to 
serve as an access road for maintenance and for incidental recreational 
access to the lake. In the ensuing years, as the population of Placer 
and El Dorado counties has grown (Placer County has been listed as the 
fastest growing county in the nation), and since the area adjacent to 
the dam is within the city limits of Folsom, California, which is one 
of the fastest growing cities in the state, the road over Folsom Dam 
has become a major transportation artery between these two counties. 
Over the last 20 years, traffic on this road has grown exponentially to 
the point that up to 18,000 cars were crossing the dam each day.
    Since Reclamation last testified before this Subcommittee on a 
similar bill last April, there have been some developments in the 
Folsom area that I would like to bring to your attention. First, it is 
important to understand that the primary purpose of the Folsom Dam 
facility is flood control for the estimated 700,000 people downstream 
of the facility. For security reasons, Reclamation closed the two-lane 
road over Folsom Dam on February 28, 2003, for an indefinite period of 
time. We took this action because Reclamation is responsible for dam 
safety. Our decision was largely based upon the results of an extensive 
security assessment under contract with the Department of Defense's, 
Defense Threat Reduction Agency (DTRA). It was their professional 
recommendation, and the Department of Interior concurred, that it was 
prudent to close the road over the dam to protect the facility
    I am certainly aware that the Folsom Dam road closure has resulted 
in traffic disruption in and around Folsom. In fact, I recently met 
with several Folsom city officials who expressed their concern about 
increased traffic control costs and the possibility of reopening the 
road.
    While we are willing to work with the surrounding communities, the 
responsibility of building a new bridge to handle current and future 
local and commuter traffic is not within Reclamation's purview. Given 
that the closure decision was predicated on a homeland security issue, 
we are willing to discuss the issue with the Department of Homeland 
Security and the Department of Transportation to determine what role 
they can play in future transportation planning around Folsom. 
Unfortunately, the Administration cannot support H.R. 901 as drafted. I 
understand that a new bridge is in fact warranted to address current 
and future traffic, and I urge the bill's sponsors and local 
stakeholders to work with appropriate local, state, and Federal 
transportation agencies.
    When construction of Folsom Dam was completed in the mid-1950's, 
the narrow two lane road built on the top of the dam was intended to 
serve as an access road for maintenance and for incidental recreational 
access to the lake. In the ensuing years, as the population of Placer 
and El Dorado counties has grown (Placer County has been listed as the 
fastest growing county in the nation), and since the area adjacent to 
the dam is within the city limits of Folsom, California B which is one 
of the fastest growing cities in the state B the road over Folsom Dam 
had become a major transportation artery between these two counties. 
Over the last 20 years, traffic on this road has grown exponentially to 
the point that up to 18,000 cars were crossing the dam each day.
    Reclamation has always taken the job of dam safety seriously. 
However, as we have all unfortunately experienced the last few years 
culminating in the events of September 11, 2001, the traditional dam 
safety reviews are no longer adequate. The following events have shaped 
the evolution of Reclamation's security reviews at Folsom and at all of 
our facilities.
    In 1995, a spillway gate at Folsom Dam failed which necessitated 
closing the road for an extended period for both immediate safety 
reasons and to accommodate repairs to the spillway. As a result, 
traffic congestion adversely impacted the city of Folsom and severely 
restricted emergency traffic (police, fire and ambulance) from reaching 
one side from the other.
    After the Murrah Building in Oklahoma City, Oklahoma was bombed, 
the Government closely examined the vulnerability of all its 
structures. Reclamation completed security assessments at Folsom Dam in 
1996, 1997, 1998 and 2001 and clearly documented the risks associated 
with open public access across this dam. The DTRA assessment was the 
latest of these reviews.
    After the events of September 11, 2001, Reclamation closed the road 
across Folsom Dam which again resulted in serious traffic congestion in 
the community. Subsequently, the road was reopened during daylight 
hours to cars and pickups, but was closed to large vehicles at all 
hours. This was the case until February 28, 2003.
Additional Issues
    H.R. 901 would require Reclamation to build a bridge unassociated 
with project operations. Designing and building bridges is the not the 
primary function of Reclamation. Passage of this bill would require 
Reclamation to transfer limited resources from core mission activities 
such as those I outlined to this Subcommittee on March 5, 2003. 
Reclamation's request for California projects in the Fiscal Year 2004 
Water and Related Resources budget is approximately $190 million.
    The Administration has concerns with the absence of any local cost-
sharing requirements in H.R. 901. Any Federal involvement in the design 
and construction of a bridge should have state and local cost sharing 
arrangements consistent with Federal policy. The City of Folsom and 
surrounding communities will be the primary beneficiaries of a new 
bridge to ease and improve the transportation issues in those 
communities, and a local cost share requirement would be appropriate. 
Further, section (1) (c) requires the Secretary to transfer the bridge, 
property, and easements to the City of Folsom at no cost. Any transfer 
of land should be made to reflect the fair market value of the land. 
The legislation also specifically states in Section (1) (b) (2), the 
``Secretary shall--provide appropriate sizing and linkages to support 
present and future traffic flow requirements for the city of Folsom.'' 
The paragraph clearly states that the Secretary would be placed in the 
position of providing ancillary roadway connections and analyzing 
future transportation logistics. These requirements are more 
appropriate for the Department of Transportation and are beyond the 
mission of Reclamation.
    In conclusion, Mr. Chairman, let me reiterate that the 
Administration understands and shares the concerns of the sponsors of 
H.R. 901 and the local communities about the additional traffic 
congestion resulting from the closure of the Folsom Dam road. The 
decision to close the road over the dam was not made in haste and was 
decided only after considerable review of the facts. However, 
Reclamation was entrusted with the task of protecting the Folsom Dam 
facility for the people who rely on it for flood control and water 
supply purposes. I again urge the bill's sponsors and local 
stakeholders to work with appropriate local, state, and Federal 
transportation authorities to address these traffic concerns.
    That concludes my prepared remarks. I would be pleased to answer 
any questions.
                                 ______
                                 
    Mr. Keys. Mr. Chairman, H.R. 1284 would amend the 
Reclamation Projects Authorization and Adjustment Act of 1992, 
to increase the Federal share of the costs of the San Gabriel 
Basin Demonstration project by about $12.5 million.
    Based upon Reclamation's investigation of this project, we 
do not believe that a cost ceiling increase is warranted at 
this time. Therefore, the Administration cannot support H.R. 
1284 as written.
    There are three main components of the San Gabriel Basin 
Demonstration project: the Rio Hondo Water Recycling Program, 
the San Gabriel Valley Water Reclamation Project, and the San 
Gabriel Basin Demonstration Project. Reclamation is authorized 
to provide up to 25 percent of the cost of planning, design and 
construction of these projects for a Federal contribution of no 
more than $38,090,000.
    Through Fiscal Year 2003, $28,845,000 has been made 
available for those three projects. The Rio Hondo recycling 
program and the San Gabriel water reclamation project will be 
completed in 2004, and are within $900,000 of being fully 
funded for the 25 percent Federal cost share. That leaves $8.6 
million under the existing ceiling to cover the 25 percent 
Federal share of the San Gabriel demonstration project.
    In 1999, perchlorate was discovered in the groundwater of 
the San Gabriel Basin. In 2000, Congress created the San 
Gabriel Basin restoration fund, providing a 65 percent Federal 
cost share of costs for projects that would improve the quality 
of groundwater in the San Gabriel Basin. A total ceiling of $85 
million was placed in the restoration fund, with $10 million of 
that reserved for the Central Basin cleanup and $75 million for 
the San Gabriel Basin.
    We believe that the total funding ceiling provided by the 
title XVI authority and the restoration fund is sufficient to 
provide the Federal cost share for all projects that are 
contemplated for the San Gabriel Basin cleanup program. This 
title XVI project has more than $8 million left and the 
restoration fund has $25 million remaining. We believe that 
these ceiling levels will adequately cover future projects 
under this authority. The cost ceiling for the San Gabriel 
demonstration project authorized by title XVI does not need to 
be increased beyond its currently authorized limit.
    Mr. Chairman, I would add to that that we have had an 
excellent working relationship with the San Gabriel 
demonstration project people. We look forward to working with 
them for completion of this project.
    [The prepared statement of Mr. Keys on H.R. 1284 follows:]

   Statement of John Keys III, Commissioner, Bureau of Reclamation, 
             U.S. Department of the Interior, on H.R. 1284

    Mr. Chairman, and members of the Subcommittee, I am John Keys, III 
and I am the Commissioner of the Bureau of Reclamation (Reclamation). I 
am pleased to be here today to comment on H.R. 1284, which amends the 
Reclamation Projects Authorization and Adjustment Act of 1992, to 
increase the Federal share of the costs of the San Gabriel Basin 
Demonstration project.
    Based on our investigation of this project, we do not believe a 
cost ceiling increase is warranted at this time and therefore the 
Administration cannot support H.R. 1284 as written. We believe that 
there is sufficient funding available to provide the Federal cost share 
for all projects that are contemplated for the San Gabriel Basin 
cleanup program.
    Title XVI of P.L. 102-575, enacted in 1992, authorizes Reclamation 
to participate in the San Gabriel Basin Demonstration Project. There 
are three components of the project: the Rio Hondo Water Recycling 
Program with the Central Basin Municipal Water District, the San 
Gabriel Valley Water Reclamation Project with the Upper San Gabriel 
Valley Municipal Water District, and the San Gabriel Basin 
Demonstration Project with the San Gabriel Basin Water Quality 
Authority. Reclamation is authorized to provide up to 25 percent of the 
cost of planning, design, and construction of the project components 
for a Federal contribution of no more than $38,090,000.
    Congress provided the initial appropriation for the project in 
Fiscal Year 1994, and through the current Fiscal Year 2003, a total of 
$28,845,000 has been made available for the three components. Of that 
amount, all but $0.3 million has been obligated to existing agreements. 
With the exception of Rio Hondo and San Gabriel Valley Reclamation 
components, all existing agreements have been fully funded. The Rio 
Hondo and San Gabriel Valley Reclamation components, which are water 
recycling projects, should be completed within the next two years, and 
are within $900,000 of being fully funded for the 25 percent Federal 
share. This leaves a net available amount of $8.6 million before the 
ceiling is reached.
    The primary component of the San Gabriel Basin Demonstration is the 
groundwater cleanup program that will result in the Basin being used as 
a conjunctive use water resource for the region. Reclamation, working 
closely with the San Gabriel Basin Water Quality Authority since 1994, 
has executed 9 funding agreements with the Authority to fund specific 
portions of the cleanup work. All agreements have been fully funded for 
the 25 percent Federal share.
    Over the last ten years that the project has received funding, the 
schedules for all three components have slipped significantly. In light 
of this, the San Gabriel Basin Demonstration Project has consistently 
carried over significant amounts of unexpended funds every year as a 
result of the extended schedules. Due to these delays, the construction 
schedule is not firm. In addition, smaller agreements to cover cleanup 
projects in the El Monte, South El Monte and Puente Valley Operable 
Units are being implemented. An agreement has been executed with the 
Water Quality Authority to fund design activities for these Operable 
Units. We have executed an agreement for the Monterey Park Treatment 
Facility, which is in the South El Monte Unit. To date we have 
obligated $2.425 million for the project, and spent approximately 
$300,000 of that amount.
    We believe that the total funding ceiling provided by the Title XVI 
authority and the Restoration Fund, which may also be available for 
these projects, is sufficient to provide the Federal cost share for all 
projects that are contemplated for the San Gabriel Basin cleanup 
program. This Title XVI project has more than $8 million remaining 
under its ceiling after fully funding all current project obligations. 
The Restoration Fund has $25 million remaining under its ceiling after 
fully funding all current project obligations. We believe that this 
will adequately cover future projects being contemplated. Therefore, 
the cost ceiling for the San Gabriel Basin Demonstration Project 
authorized by Title XVI does not need currently to be increased beyond 
its authorized limit.
    In conclusion, Mr. Chairman, I want to add that we have had an 
excellent working relationship with the San Gabriel Demonstration 
Project partners and look forward to working with them to complete this 
important project. This concludes my remarks. I would be happy to 
answer any questions at this time.
                                 ______
                                 
    Mr. Keys. Mr. Chairman, H.R. 135 would establish the 21st 
Century Water Commission to develop recommendations for a 
comprehensive water strategy to address future water needs of 
the United States.
    The Department of the Interior supports efforts to address 
the future of America's water supply. In Reclamation's Fiscal 
Year 2004 budget request, we have proposed a program called the 
Western Water Initiative that is very consistent with what we 
perceive the intent of H.R. 135 to be. The Western Water 
Initiative would expand and focus on Reclamation's existing 
efforts to work with our partners to use technology and 
management techniques more efficiently and effectively to 
optimize water supplies.
    This Initiative has four major components. The first one is 
enhanced water management and conservation. That would include 
pilot projects to work with different irrigation districts and 
entities around the West, for canal lining programs, for 
control structures, check structures, and measuring facilities 
to find better ways to stretch the existing water supplies to 
meet needs. It would also include experimental work and current 
work that we're doing in establishing water banks to help 
address additional water needs that are out there.
    The second component of that program is preventing water 
management crises. Its main purpose is to take a look 25 years 
into the future to see where water needs occur that could not 
be met with existing infrastructure. It would let us look at 
where other water requirements may occur, such as are occurring 
in some places now with the Endangered Species Act, that are 
occurring now with growing populations and other requirements 
out there.
    The third part of our Western Water Initiative is the 
expanded science and technology program. There are three main 
components of that one.
    The first one is a hard look at desalinization and how we 
might bring the cost down for desalting seawater and brackish 
groundwater out on the plains. The goal that we have in that 
program is to reduce the cost of desalting water by about 50 
percent by the year 2020. Currently, it costs about $650 an 
acre-foot to desalt seawater. If we can get that below $600 an 
acre-foot, it's competitive in the high cost markets of the 
western United States.
    The second part of that science and technology program is 
adaptive management programs, such as we are implementing on 
the Colorado River below Glen Canyon Dam now.
    The third part of it is peer review, taking a hard look at 
the science that backs up our projects, so that we know we're 
on the right track when we develop biological opinions and 
biological assessments to address endangered species needs. The 
fourth part of that initiative is to strengthen Endangered 
Species Act expertise inside Reclamation.
    Mr. Chairman, my purpose in sharing our strategic vision of 
the Western Water Initiative with you is because H.R. 135 is 
generally consistent with this vision. There are a few 
specifics in H.R. 135 that we would like to share with you, 
though.
    We are pleased to see that the bill recognizes the role of 
States on water rights and water uses. They are our close 
partners in water issues in all 17 of the Western States. H.R. 
135 also differs from last year's bill by reducing the number 
of qualified commission members from 17 to 7. While the reduced 
commission size will reduce cost and maybe improve efficiency, 
we would still advocate emphasis on State representations.
    As H.R. 135 moves through the legislative process, we would 
encourage you to remember the responsibilities that Congress 
and the judiciary have placed on the Department of the 
Interior, special ones, such as the unique role the Secretary 
has as water master for the lower Colorado River.
    Lastly, the Administration objects to section 8(b)(2) of 
H.R. 135, which would give the commission the authority to 
detail to the commission ``such personnel as the Commission 
considers necessary to carry out the provisions of this Act.'' 
Specifically, the Department of Justice has informed us that 
giving such power to an advisory commission raises 
constitutional concerns, including potential Appointments 
Clause problems. The Department of Justice recommends that the 
provision be amended to authorize and not require Federal 
agencies to detail personnel to the Commission.
    Mr. Chairman, that concludes my oral comments. I would 
certainly entertain any questions that you might have today.
    [The prepared statement of Mr. Keys on H.R. 135 follows:]

  Statement of John W. Keys III, Commissioner, Bureau of Reclamation, 
              U.S. Department of the Interior, on H.R. 135

    Mr. Chairman and members of the Subcommittee, my name is John Keys 
and I am Commissioner of the Bureau of Reclamation. It is my pleasure 
to be here today to provide the Department of Interior's (DOI) views on 
H.R. 135, the Twenty-First Century Water Commission; a bill to develop 
recommendations for a comprehensive water strategy to address future 
water needs.
    The Department supports efforts to address the future of America's 
water supply. In Reclamation's Fiscal Year 2004 budget request, we have 
established a program called the Western Water Initiative that is very 
consistent with what we perceive the intent of H.R. 135 to be. 
Basically, this initiative expands and focuses on Reclamation's 
existing efforts to work with our partners to use technology and 
management techniques more efficiently and effectively to optimize 
water supplies.
    Reclamation has a long history of managing limited water supplies 
in arid environments. However, with increased population growth, aging 
facilities, severe drought, and environmental and health concerns, our 
skills and resources are being challenged like never before. 
Reclamation's Western Water Initiative is the beginning of what we hope 
will be the catalyst for a longer-term strategic approach to 
predicting, preventing, and alleviating water conflicts. It improves 
upon our historic proactive, rather than a reactive, approach to water 
management and conservation, desalination research and development, 
preventing water management crises, and strengthening Endangered 
Species Act expertise among Reclamation employees. Last year, 
Reclamation began identifying areas in the West that may have potential 
water supply problems today or 25 years from now. Using existing 
information, we identified areas where there was an increase in 
population, water-dependent Federally protected species and severe 
climatic conditions. The intent of this 25-year water supply study is 
to help us target funds in the Western Water Initiative to areas with 
the most critical needs.
    The new Western Water Initiative uses collaboration, conservation, 
and innovation to make sure every drop of water counts. This means 
improved water conservation, investments in science and technology, and 
modernization of existing infrastructures. This initiative will provide 
a comprehensive forward-looking water resource management program that 
will respond to growing water demands. It will position the bureau in 
playing a leading role in developing solutions that will help meet the 
increased demands for limited water resources in the West. This 
proactive initiative will benefit western communities that are 
struggling with increased water demands, drought, and compliance with 
the Endangered Species Act. The Western Water Initiative involves four 
major components:
    Enhanced Water Management and Conservation. Funding will be used 
for the modernization of irrigation delivery structures such as 
diversion structures and canals. This will also allow Reclamation to 
use existing intrastate water banks where they are available, and to 
promote intrastate water banking as a concept to help resolve future 
water supply conflicts.
    Preventing Water Management Crises. This initiative will enable us 
to provide effective environmental and ecosystem enhancements in 
support of Reclamation's project operations through proactive and 
innovative activities. For example, we are exploring ways of addressing 
issues at projects by identifying and integrating long-term river 
system ecological needs within the context of regulated river 
management. Pilot projects will be selected from a list of critical 
areas based on their potential for cost savings that could be realized 
from proactive planning. Pilot projects are anticipated to include 
environmental enhancements that provide support for project operations 
or optimization of project operations for both water supply and 
environmental benefits.
    Expanded Science and Technology Program. Reclamation will expand 
its Desalination Research and Development Program to research cost 
reduction of water desalinization and waste disposal. It will also 
expand the effective use of science in adaptive management of 
watersheds. This cooperative effort with the USGS would assist 
Reclamation in reaching decisions that are driven by sound science and 
research, are cost effective, and are based on performance criteria. 
Funding will also provide for peer review of the science used in ESA 
consultations and other environmental documents issued by Reclamation. 
This initiative will improve Reclamation's use of science and 
technology to address critical water resource management issues.
    Strengthening Endangered Species Act (ESA) Expertise. Funding will 
be used to strengthen staff expertise in implementing and complying 
with the Endangered Species Act, and will produce identifiable 
mechanisms in order to achieve continuity in evaluating biological 
assessments and/or biological opinions. This initiative will enable 
managers to acquire a greater understanding of the purpose, process and 
requirements of the ESA as it relates to Federal actions that are 
important to carrying out Reclamation's water resources management 
mission.
    My purpose in sharing our strategic vision of the Western Water 
Initiative with you at this time is because H.R. 135 is generally 
consistent with this vision.
    I am pleased to see the bill has been amended from the version in 
the last Congress, H.R. 3561, to specifically recognize the role of 
states on water rights and water uses. Last year I testified that a 
tremendous amount of research has already been done by Federal, state, 
local, and private entities. I am therefore pleased to see that the 
Commission would take this existing information into account before 
requesting additional studies.
    For the past century DOI agencies have played an integral role in 
the development of Federal water management policy and any new 
management policy should continue to have strong input from DOI. As 
H.R. 135 moves through the legislative process, we would again 
encourage you to keep in mind the responsibilities that Congress (and 
the Judiciary, in some cases) has placed on DOI--for example, the 
unique role the Secretary plays as Water Master for the lower Colorado 
River.
    I have already outlined for you the steps Reclamation hopes to take 
to improve water management in order to meet ever-increasing demands 
for water. Reclamation works in an environment of cooperation with 
state, tribal, and local governments and other Federal agencies. H.R. 
135 also differs from last year's bill by reducing the number of 
qualified commission members from 17 to 7. While the reduced committee 
size will reduce costs and perhaps improve efficiency, we would still 
advocate that due deference be given on membership to representatives 
from state government.
    Lastly, the Administration objects to Section 8(b)(2) of H.R. 135 
which would give the Commission the authority to require Federal 
agencies to detail to ``the Commission--such personnel as the 
Commission considers necessary to carry out the provisions of this Act. 
Specifically, the Department of Justice has informed us that giving 
such power to an advisory commission raises constitutional concerns, 
including potential Appointments Clause problems. The Department of 
Justice recommends that the provision be amended to authorize (and not 
require) Federal agencies to detail personnel to the Commission.
    Thank you for the opportunity to comment. I would be happy to 
answer any questions at this time.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman.
    First we will hear from Ms. Theresa Rosier and then we'll 
have questions for both of you. Thank you. You are recognized.

    STATEMENT OF THERESA ROSIER, COUNSELOR TO THE ASSISTANT 
  SECRETARY OF INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Rosier. Good afternoon, Chairman, and members of the 
Subcommittee. My name is Theresa Rosier and I am Counselor to 
the Assistant Secretary for Indian Affairs. I appreciate the 
opportunity to be here today to testify before the Subcommittee 
on H.R. 495, the ``Zuni Indian Tribe Water Rights Settlement 
Act of 2003.''
    I would like to abbreviate my testimony and submit my full 
written testimony for the record.
    Mr. Calvert. Without objection, so ordered.
    Ms. Rosier. The Administration supports H.R. 495. This bill 
is the product of a cooperative effort over the past 5 years 
that involves the Zuni Pueblo, the State of Arizona, the United 
States, the Salt River Project, and local water users in 
northeastern Arizona.
    The settlement agreement at issue here today concerns only 
the Zuni Tribe's relatively small water rights claim regarding 
the Zuni Heaven Reservation in northeastern Arizona. Zuni 
Heaven is a unique reservation, created fairly recently, to 
accommodate religious and cultural practices of the Zuni Tribe. 
As you all know, the main Zuni Reservation is in New Mexico, 
and this is where a majority of the Zuni members reside.
    According to Zuni religious beliefs, a lake formerly 
located on the Zuni Heaven Reservation is a window into Heaven. 
The lake and the surrounding wetlands, however, have recently 
disappeared due to upstream diversions and ground-water pumping 
in the surrounding areas. This settlement provides the Tribe 
with water and land to restore the lake for future religious 
purposes.
    H.R. 495 approves and authorizes Federal participation and 
a settlement agreement. When fully implemented, the settlement 
will constitute a final resolution of water rights claims of 
the Zuni Tribe and the United States on behalf of the Tribe.
    The settlement would secure for the Zuni Tribe 
approximately 5, 500 acre-feet per year, which includes both 
surface water and groundwater, and also provides for the 
rehabilitation, restoration of the sacred land, wetlands, and 
riparian areas of the Reservation.
    The surface water component of the settlement would be 
secured through the purchase of State law based water rights 
from willing sellers, as well as through flood flows of the 
Little Colorado River. To supplement surface flows in times of 
drought and to allow for restoration activities while the 
surface water rights are being initiated, the settlement 
provides the Tribe with groundwater rights of 1,500 acre-feet 
per year.
    The settlement here today involves significant cost sharing 
and cooperation between the Federal Government, the State, and 
local parties. The Tribe's non-Indian neighbors have agreed to 
assist in the acquisition of water rights, to store surface 
water supplies for the Tribe, and to make other contributions 
to help carry out the settlement.
    In addition, some water supplies for the settlement will be 
secured through a $6 million grant from the State of Arizona. 
H.R. 495 would authorize a total Federal contribution of $19.25 
million for the acquisition of water rights and also for 
necessary actions to restore the sacred lake, wetlands, and 
riparian areas of the Zuni Heaven Reservation.
    We believe the Federal contribution contemplated in H.R. 
495 is appropriate to facilitate resolution of the Zuni Tribe's 
water rights. The settlement is designed to release the United 
States from any potential damage claims that might be asserted 
by the Tribe, and also relieve the Federal Government of the 
obligation to litigate the Tribe's water rights claims. The 
United States does retain its ability to initiate enforcement 
actions, as necessary, in the future to protect the environment 
and water quality in this area. Resolution of the Tribe's water 
rights claims would provide certainty to its neighbors and to 
the Tribe, enabling both of them to make necessary plans for 
the future.
    Negotiated agreements among Indian tribes, States and local 
parties are the most effective ways to resolve water rights 
claims. The settlement embodied in H.R. 495 is an example of 
creative solutions that are fostered by the collaborative 
process.
    This concludes my testimony. I will be happy to answer any 
questions.
    [The prepared statement of Ms. Rosier follows:]

 Statement of Theresa Rosier, Counselor to the Assistant Secretary for 
      Indian Affairs, U.S. Department of the Interior, on H.R. 495

    Good morning Mr. Chairman and members of the Subcommittee. My name 
is Theresa Rosier and I am the Counselor to the Assistant Secretary--
Indian Affairs within the Department of the Interior. I appreciate the 
opportunity to appear before this Subcommittee to discuss H.R. 495, 
``Zuni Indian Tribe Water Rights Settlement Act of 2003.''
    The Administration supports H.R. 495. The bill is the product of a 
cooperative effort over the last five years among the Zuni Pueblo, the 
State of Arizona, the United States, the Salt River Project and many 
local water users in northeastern Arizona. The Settlement Agreement has 
been signed by the Zuni Tribe and many other settlement parties.
Background
    The Little Colorado River (LCR) Basin covers an area of 
approximately 17.2 million acres or 26,964 square miles in northeastern 
Arizona and northwestern New Mexico. The main stem of the Little 
Colorado River is entirely in Arizona. Therefore, this adjudication 
deals only with claims inside the borders of Arizona. Five different 
Indian tribes have reservations, or pending claims to reservation 
lands, within the Basin: the Navajo Nation, Hopi Tribe, Zuni Tribe, San 
Juan Southern Paiute Tribe and the White Mountain Apache Tribe.
    The Settlement Agreement at issue here concerns only the Zuni 
Tribe's relatively small water right claims at the Zuni Heaven 
Reservation located in the south eastern section of the Basin, at the 
confluence of the Zuni and Little Colorado Rivers. Zuni Heaven is a 
unique reservation created fairly recently to accommodate the religious 
and cultural practices of the Zuni. The main Zuni reservation, in 
contrast, is located in New Mexico. The majority of the Zuni members 
reside on the main reservation.
    According to Zuni religious beliefs, a lake formerly located on the 
Zuni Heaven Reservation is a window into heaven. That lake and the 
surrounding wetlands disappeared in recent history due to upstream 
diversions and groundwater pumping in the surrounding areas. The 
Settlement Agreement provides the Tribe with the water and land to 
restore the lake for use in future religious ceremonies.
    The Zuni Heaven Reservation was established by Congress in 1984 
through Public Law 98-498 and expanded in 1990 through Public Law 101-
486 to further the religious and cultural needs of the Tribe. That 
legislation established the land base of the Reservation within the 
Tribe's aboriginal territory and facilitated the Tribe's regular 
pilgrimage from New Mexico to Arizona by authorizing the United States 
to obtain easements along the pilgrimage route.
    Since 1979, water rights in the Little Colorado River basin have 
been the subject of an Arizona state general stream adjudication. The 
United States filed a water rights claim on behalf of the Zuni Tribe in 
the state proceeding for water rights to Zuni Heaven. Mirroring most 
general stream adjudications, the litigation has moved very slowly. 
Recognizing that the Zuni claims lent themselves to settlement, the 
parties devoted significant effort to negotiations. The Settlement 
Agreement and H.R. 495, which would ratify that agreement, are the 
fruits of that negotiation.
H.R. 495
    H.R. 495 approves and authorizes Federal participation in a 
settlement agreement, which includes three subsidiary agreements. When 
fully implemented, the settlement would constitute a final resolution 
of the water rights claims of the Zuni Tribe and the United States on 
its behalf. The Settlement would secure to the Zuni Tribe approximately 
5,500 acre-feet per year, including both surface water and groundwater, 
and provide for the rehabilitation and restoration of the Sacred Lake, 
wetlands and riparian areas of the Reservation. The surface water 
component of the Settlement would be secured through the purchase of 
state law based water rights from willing sellers, as well as through 
use of flood flows of the Little Colorado River. To supplement surface 
flows in times of drought and to allow for restoration activities to be 
initiated while surface water rights are acquired, the Settlement 
provides the Tribe with a groundwater right of 1,500 acre feet per 
year.
    The Settlement involves significant cost sharing and cooperation 
between the Federal Government and the state and local parties. The 
Tribe's non-Indian neighbors have agreed to assist in the acquisition 
of water rights, to store surface water supplies for the Tribe and make 
other contributions to carry out the Settlement. In addition, some 
water supplies for the Settlement will be secured through up to $6 
million in water protection grants funded by the State of Arizona. H.R. 
495 would authorize a total Federal settlement contribution of $19.25 
million. These funds would be used for the acquisition of water rights, 
as well as other actions necessary to restore the Sacred Lake, the 
wetlands and riparian areas of the Zuni Heaven Reservation. These 
actions include engineering, water and sediment distribution, removal 
of exotic vegetation, reestablishment of native vegetation, aggrading 
the river channel and other related activities.
    We believe the Federal contribution contemplated in H.R. 495 is 
appropriate to facilitate resolution of the Zuni Tribe's water rights. 
The Settlement is designed to release the United States from any 
potential damage claims that might be asserted by the Tribe and will 
relieve the Federal Government of the obligation to litigate, at 
significant cost and over many years, the Tribe's water rights claims. 
The United States would retain its ability to initiate enforcement 
actions as necessary in the future to protect the environment and water 
quality in the area. Resolution of the Tribe's water rights claims 
would provide certainty to its neighbors, enabling them to plan and 
make necessary investments based on the assurance that they have secure 
and stable water rights.
Conclusion
    Negotiated agreements among Indian tribes, states, local parties, 
and the Federal Government are, in general, the most effective way to 
resolve reserved water right claims in a manner that secures tribal 
rights to assured water supplies for present and future generations 
while at the same time providing for sound management of an 
increasingly scarce resource. The known benefits of settlement 
generally outweigh the uncertainties that are inherent in litigation to 
the tribe, the state, other interested parties and the United States. 
The settlement embodied in H.R. 495 is an example of the creative 
solutions that can be found to resolve contentious water rights 
problems in the West.
    This concludes my statement. I would be happy to answer any 
questions the Subcommittee may have.
                                 ______
                                 
    Mr. Calvert. I thank the gentlelady.
    Commissioner Keys, you have written a directive that all 
added security costs as a result of 9/11 will be paid for by 
taxpayers due to the multipurpose nature of the Bureau's 
facilities; isn't that correct?
    Mr. Keys. Mr. Chairman, yes, sir.
    Mr. Calvert. Am I also correct that the Bureau closed the 
road because of the added 9/11 security concerns?
    Mr. Keys. Mr. Chairman, there are a number of threats that 
were evaluated since 9/11, and the closure was the direct 
result of those reviews.
    Mr. Calvert. Well, let me ask you another way. Would you 
assess the road closure if 9/11 had not occurred?
    Mr. Keys. Mr. Chairman, no.
    Mr. Calvert. Were any other bridges closed prior to 9/11?
    Mr. Keys. Mr. Chairman, the only time before 9/11 that we 
had closed roads was for a short time after the first attack on 
the World Trade Center, and for numerous times when we've had 
to do maintenance on the facilities.
    Mr. Calvert. All of that's true, but yet you indicate the 
Bureau cannot support funding for the bridge, even though the 
Bureau closed the road. Why is the Bureau changing its security 
costs policy only when it comes to building a bridge?
    Mr. Keys. Mr. Chairman, I don't see that as a change. What 
we are doing in other places--and it's even true at Folsom--is 
looking at the security forces necessary there, and then 
changes, you might say, to harden the facilities against 
attack. All of those costs we are trying to keep 
nonreimbursable.
    The example that I used at Hoover is one where another 
agency, that is more amendable or capable of designing and 
building a bridge, is handling that activity.
    Mr. Calvert. Is it true that the Federal Government is 
paying for the construction of that facility?
    Mr. Keys. It is a cost-shared effort at Hoover, between the 
States of Arizona, Nevada, and the Department of 
Transportation.
    Mr. Calvert. But a significant amount of that is being paid 
for by the Federal Government?
    Mr. Keys. That's correct.
    Mr. Calvert. The Bureau certainly has, as well laid out by 
our colleague, Mr. Ose, you certainly have the capacity to plan 
and design a bridge, and you have built bridges as recently as 
1999.
    Mr. Keys. Mr. Chairman, that's true.
    Mr. Calvert. What Bureau reservoirs currently allow 
automobile traffic?
    Mr. Keys. Mr. Chairman, we have--Mr. Chairman, I would 
rather answer that in a secure briefing, if I could.
    Mr. Calvert. OK. I understand. We'll have the opportunity 
to do that.
    I'm certainly involved in the Armed Services Committee, so 
I have been involved in some of these briefings. But much of 
this is in the public media and has been exposed, so I don't 
think we're exposing any classified information here today. But 
certainly there have been threats to this country and you must 
do your job, as I know you are, and doing it properly. But 
again, a point must be made that certain roadways are being 
closed because of homeland security concerns, and you've 
answered that in the affirmative, isn't that correct?
    Mr. Keys. That's correct.
    Mr. Calvert. What plans does the Bureau have to mitigate 
the effects of road closures, since these are Federal 
decisions?
    Mr. Keys. Mr. Chairman, in most cases, those roads are not 
being used for the volumes of traffic that are occurring at 
Folsom. We have no plans for reimbursements.
    Mr. Calvert. I thank the gentleman.
    The gentlelady from California, Mrs. Napolitano.
    Mrs. Napolitano. Commissioner Keys, thank you very much.
    I was wondering whether on Mr. Ose's 901, whether there's 
been any effort by you to suggest to Mr. Ose and the other 
cosponsors to work together with other agencies, such as 
Transportation, Interior, the Army Corps?
    Mr. Keys. Mr. Chairman, Mrs. Napolitano, yes, we have 
talked with the people from Folsom, we have talked to the 
people that represent them back here, and have tried to put 
them in contact with some of the other agencies involved.
    Mrs. Napolitano. But have you convened any meeting where 
all the agencies are at the table at the same time, rather than 
somebody going out and starting from point A all over again in 
making the presentation and being able to get the agencies to 
enjoin in a cooperative manner?
    Mr. Keys. Mr. Chairman, Mrs. Napolitano, I have not 
convened such a meeting, but I have personally talked to 
representatives of the other agencies.
    Mrs. Napolitano. And?
    Mr. Keys. All the other agencies that I've talked about are 
willing to sit down and talk.
    Mrs. Napolitano. Thank you, Commissioner.
    Mrs. Napolitano. On my bill, H.R. 1284, you indicated you 
had done some investigation, or your Bureau had done some 
investigation, on the fact you feel there's enough money left 
in the VOC cleanup in the San Gabriel Basin.
    How did the Bureau arrive at this conclusion?
    Mr. Keys. Mr. Chairman, Mrs. Napolitano, in reviewing the 
requirements for completion of the project, the three units--El 
Monte, South El Monte, and Puente Valley--those three are the 
three that are not started yet. To get those started and 
complete them is about $11 million of Federal cost share 
requirement.
    In our title XVI appropriation, we have an $8.5 million 
ceiling left. There is also $25 million of ceiling left in the 
restoration fund ceiling that's left. So we feel there is 
plenty to cover those three projects that are left undone at 
this time.
    Mrs. Napolitano. But did the Bureau take into account that 
the coming projects that could be proposed by local entities 
may require more funding?
    I would like to enter into the record, Mr. Chair, a copy of 
the actual contaminated--this is the Superfund site. The two on 
the left are El Monte and South El Monte, and the one on the 
bottom, the blue one, is Puente Valley. They all tie in. They 
all are part of the Superfund list.
    Now, this is only what has been identified or is partly 
funded, while the bill itself, in 910, it only dealt with 
perchlorates. We're talking about VOCs in this area. The fact 
that it's twice as costly to be able to clean some of the 
other, the perchlorates, it is depleting some of the funds. 
Their estimates are running higher than they thought. The fact 
that when El Monte, South El Monte and Puente Valley came on 
board, the actual funding cap had been placed so they really 
didn't know how much it was going to cost.
    So how can you determine they are going to be able to fund 
out of the remaining funds available where there are still 
others that have not come on board dealing with this 
contaminated site, that have not been addressed because some of 
those cities did not have the expertise, they didn't have the 
ability to understand the whole impact or how it affected their 
drinking water.
    Again, as you heard the Congresswoman indicate, there are 
carcinogens that affect health, especially of the elderly and 
children and those prone to cancer.
    Mr. Keys. Mr. Chairman, Mrs. Napolitano, I would say that 
we have evaluated those plans that have been presented to us 
under the authorizations that we're working with. If there are 
some that are out there that are incomplete or are still 
developing, we could certainly listen to those and evaluate 
them. But everything that we have been given to this date shows 
that we could cover the Federal share of that expenditure.
    Mrs. Napolitano. Commissioner Keys, did you by any chance 
have your staff talk to the three cities that I have tried to 
put this bill forth on?
    Mr. Keys. Mr. Chairman, Mrs. Napolitano, yes, we did. I 
spoke with my field office just Friday about all of these 
projects and how they came up with the numbers that supported 
my testimony.
    Mrs. Napolitano. OK. But did you actually have your staff 
talk to the city managers? I have letters that I would like to 
introduce into the record, Mr. Chairman, from all three cities, 
where they indicate this is a need. Apparently somebody from 
one of the water agencies indicated to your staff that there 
was no need to raise the cap, which is erroneous, because I 
have testimony from all three cities stating that there is a 
need.
    Mr. Keys. Mr. Chairman, Mrs. Napolitano, certainly if 
there's other information out there that we don't have, we 
would welcome it into Reclamation.
    Mrs. Napolitano. I would really appreciate it, 
Commissioner, and I look forward to working with you. I would 
like to enter these into the record, Mr. Chair.
    Mr. Calvert. Without objection, so ordered.
    [The information referred to follows:] 
    [GRAPHIC] [TIFF OMITTED] T6198.012
    
    [GRAPHIC] [TIFF OMITTED] T6198.013
    
    [GRAPHIC] [TIFF OMITTED] T6198.014
    
    [GRAPHIC] [TIFF OMITTED] T6198.015
    
    [GRAPHIC] [TIFF OMITTED] T6198.016
    
    [GRAPHIC] [TIFF OMITTED] T6198.017
    

    [GRAPHIC] [TIFF OMITTED] T6198.018
    

    Mrs. Napolitano. I certainly appreciate your willingness 
because it is, as you well know, a big site that continues to 
run into some road blocks here and there. I look forward to 
working with your Bureau to address those road blocks.
    Thank you, Mr. Chair.
    Mr. Calvert. I thank the gentlelady.
    Mr. Osborne.
    Mr. Osborne. I would like to thank Mr. Keys for being here 
today. I have a couple of questions.
    I gather from your testimony that the Western Water 
Initiative that you have already been working on is very 
similar to the concept of the 21st Century Water Commission 
that was envisioned by H.R. 135; is that correct? In other 
words, you feel there is some duplication or similarity here?
    Mr. Keys. Mr. Chairman, Mr. Osborne, there are a great 
number of similarities. I do not believe they would duplicate 
effort because certainly the Bureau of Reclamation only works 
in the 17 Western States. The initiative of the 21st century 
bill is for all of the United States. So ours does just focus 
on the Western States. But they are complimentary.
    Mr. Osborne. There are a couple of statements that you have 
in your testimony that I would like to have you flesh out as 
little bit, if you could.
    You mentioned that Reclamation is to promote intrastate 
water banking as a concept to help resolve future water supply 
conflicts. Could you explain that a little bit to me, as to how 
that works?
    Mr. Keys. Mr. Chairman, Mr. Osborne, we have used and are 
using water banks in several projects in the Western United 
States right now to address specific requirements associated 
with projects.
    This year, in trying to address the problems in the Klamath 
Basin project in Oregon, we have established a water bank of 
60,000 acre-feet there, where we have purchased that water from 
lands in the Basin--in other words, under a voluntary program, 
people have sold their water off of about 30-40,000 acres of 
land to produce 60,000 acre-feet of water to address the 
Endangered Species Act problems in the Basin. Setting that 
amount of water aside in a water bank, to be operated for the 
Endangered Species Act, frees the rest of the water supply in 
the Basin to be operated in its best manner for the irrigation 
in the Basin.
    We have similar type water banks where we have purchased 
water going on in the Snake River Basin in Idaho, Washington, 
Oregon, in California, and we are in the process of working 
with the States of New Mexico and Texas on purchasing water 
into a similar water bank on the Middle Rio Grande for this 
year.
    Mr. Osborne. Thank you. I guess my last question would be 
somewhat related. It says here that funding will be used to 
strengthen staff expertise in implementing and complying with 
the Endangered Species Act. So do you feel that staff knowledge 
and expertise can be improved in terms of implementing the 
Endangered Species Act and some aid is appropriate here?
    Mr. Keys. Mr. Chairman, Mr. Osborne, our people need all of 
the expertise that we can give them in addressing the 
Endangered Species Act, so that we can keep our projects 
running and at the same time accomplish the requirements of the 
Act.
    Our projects are continually changing because of the 
demands on them, because of population growth, other 
requirements that are showing up that we didn't even plan for. 
For our folks to stay on top of those, we try to give them the 
best training that we can in dealing with the Endangered 
Species Act, the National Environmental Policy Act and so 
forth. This is to give our folks every advantage in working 
those projects, so that they can accomplish that.
    Mr. Osborne. Thank you. I yield back.
    Mr. Calvert. I thank the gentleman.
    Mr. Inslee.
    Mr. Inslee. Thank you, Mr. Keys. In regard to the Folsom 
Bridge project, if that was funded out of your budget, what 
impact would that have on other water related projects in your 
budget--for instance, the Yakima River Enhancement Project up 
in the State of Washington.
    Mr. Keys. Mr. Chairman, Mr. Inslee, our annual budget is 
about $850 million. Sixty-six million dollars is almost 10 
percent of that. We are currently operating under a flat line 
assumption. In other words, our budgets are being held level 
with all of the other requirements on the Federal Treasury. I 
would anticipate a significant impact on our budget if that 
were to happen.
    Mr. Inslee. Thank you.
    To fulfill Mr. Calvert's expectation, I wanted to ask you 
one question about global warming, because I don't want to let 
him down.
    Just briefly, could you tell me what the Bureau has been 
doing to try to assess the impact of global warming on water 
supplies, particularly in the Western United States, if you can 
just give me a summary of your efforts, to the extent you have 
some.
    Mr. Keys. Mr. Chairman, Mr. Inslee, I don't have the people 
working for Reclamation that have that expertise. We work very 
closely with the Geological Survey and the National Academy of 
Science, who both have active programs underway evaluating 
global warming and what impacts there may be. We meet with them 
regularly and I have not seen a recent paper from them, but we 
get regular reports from them and we're working very closely 
with both of those agencies.
    Mr. Inslee. Could you share with me what information, at 
least in summary form, the Bureau may have ``ginned up'' in 
that regard? Would that be too difficult? Or could you ask your 
people to do that?
    Mr. Keys. Mr. Chairman, Mr. Inslee, we haven't ginned up 
any information. We go to those agencies and they tell us 
what's going on.
    I will tell you that there are no short-term results from 
those things. There is nothing that we can take and say we need 
to operate a project or a storage facility this year to 
accommodate global warming. Certainly those are long-range 
projections, and we're still trying to take a look and see.
    I would certainly poll my people to see if we have any 
reports from those two agencies that we could share with you.
    Mr. Inslee. I would be very appreciative. Thank you very 
much.
    Mr. Keys. You're welcome.
    Mr. Calvert. Get some of that global warming over here, 
will you? I'm tired of this weather.
    [Laughter.]
    Mr. Renzi.
    Mr. Renzi. Thank you, Mr. Chairman.
    Mr. Keys, during your testimony you made reference to the 
Hoover Dam that connects the great State of Arizona with 
Nevada. I just want to clarify for you an issue as it relates 
to the Hoover Dam and the security issues revolving around the 
transportation across that dam. I'm sure you're aware that we 
did not close the Hoover Dam to passenger traffic. We have 
rerouted some of the cargo trucks.
    In addition, for the last several year, as my good friend 
from Arizona, Mr. Grijalva, knows better than I do, we tried to 
connect Canada with Mexico through the new Cana-American-
Mexican highway, and Mr. Grijalva has worked for years to help 
us blend and be involved in commerce between the three nations.
    Given all that, after September 11th, the Hoover Dam was 
restricted to some traffic. We did not close the Hoover Dam. I 
see you want to say something.
    Mr. Keys. Mr. Chairman, Mr. Renzi, we did close Hoover Dam 
for a short period of time, and certainly it was recognized, 
the interruption of traffic on a Federal highway. It was opened 
fairly shortly, I think like 3 days afterwards to passenger car 
traffic. And then, as time went along, it was impacting the 
commerce on each side of the reservoir there. We implemented a 
special permit program with those trucks that needed to do 
business across the bridge and we currently have that in place.
    We also have at Hoover--
    Mr. Renzi. I'm aware of the transportation, and I 
appreciate that. Let me just get to my point.
    Mr. Keys. Sure.
    Mr. Renzi. You may have closed the bridge or the dam for 3 
days, but what we really did was we accelerated the building of 
a bridge just downstream, called the Willow Beach Bridge. As 
you know, Arizona and Nevada for years had been hoping and 
planning for that bridge, and we were very much bogged down in 
environmental studies, which were accelerated themselves. In 
that acceleration that was caused by the security concerns of 
September 11th, the Federal Government will now pick up more of 
the lion's share as it relates to the building of that bridge, 
since Arizona and Nevada have not been able to set aside the 
moneys in the same time fashion that the Federal Government 
would now like us to build that bridge. That's just a matter of 
record and fact, sir.
    Mr. Renzi. Miss Rosier, thank you for your testimony on my 
bill and on the Zuni legislation.
    One of the issues that you spoke about in your testimony 
was that the United States can avoid the costly litigation by 
approving this settlement, and that we also have a trust 
responsibility to Native Americans in this country, a trust 
responsibility that included in 1984 creating Zuni Heaven. The 
Zunis move out of New Mexico into Arizona, and their birthplace 
is recognized, from my colleague, Mr. Pearce's district in New 
Mexico, and a place where they pass into eternity is recognized 
in Arizona. So it's a migratory type of history, as well as two 
reservations, two areas, that typically was connected by their 
own lands.
    In 1984, when we created Zuni Heaven and recognized a small 
piece of their original lands, we did not give them the water 
that goes with the land. We just gave them dry Arizona dirt. So 
I want to thank you for pointing out that we had a trust 
responsibility in your testimony today.
    I recommend to my colleagues that we move forward in 
providing not just the land but also the water. Thank you.
    Ms. Rosier. Thank you.
    Mr. Calvert. Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman.
    Commissioner Keys, is it possible to get a copy of your 
Western Water Initiative, and where did that originate and what 
was the approval process of that?
    Mr. Keys. Mr. Chairman, Mr. Pearce, we can certainly share 
with you the Western Water Initiative. It was part of the 
Fiscal Year 2004 budget presentation to Congress. It is based 
upon existing authorities. We have authority to do water 
conservation work under a number of different Acts.
    The desalinization portions have been authorized several 
times. We could certainly share with you a copy of that and 
those authorizations.
    Mr. Pearce. Thank you, Mr. Chairman.
    Mr. Keys, were you with the Bureau of Reclamation when they 
filed suit against the State of New Mexico over the Elephant 
Butte Irrigation District?
    Mr. Keys. Mr. Chairman, Mr. Pearce, I don't know what year 
that was.
    Mr. Pearce. Mr. Chairman, I would suspect it would be 5 
years ago, 4 years ago. Commissioner Martinez was there at the 
time.
    Mr. Keys. Mr. Chairman, Mr. Pearce, I worked with 
Reclamation through 1998, and I came back as Commissioner in 
July of 2001. I have worked closely with Elephant Butte while 
I've been there on a number of issues.
    Mr. Pearce. Mr. Chairman, without being a lawyer, if I were 
to try to remember the circumstances, it was that the Bureau 
felt that, since they had built the dam and the structures, 
that they should own the water in the dam and should 
appropriate those waters instead of the State of New Mexico or 
the Elephant Butte Irrigation District.
    Mr. Chairman, I would ask if that's an ongoing practice of 
the Department.
    Mr. Calvert. Are you asking me that question, or are you 
asking the Commissioner?
    Mr. Pearce. Mr. Keys, yes.
    Mr. Keys. Mr. Chairman, Mr. Pearce, I am not familiar with 
the case that you're talking about. I will tell you that every 
project we have ever built has a State water right, and we 
operate those projects within the State water rights. We have 
worked very closely with Elephant Butte on property issues. I 
am not familiar with a case where we have told the Elephant 
Butte folks that we own the water there.
    I would certainly get myself up to speed and come and talk 
with you, if you would like me to do that.
    Mr. Pearce. Mr. Chairman, I would appreciate that. It would 
be meaningful. Because as I read the comments of the text, I 
see that the initiative is to expand and focus Reclamation's 
existing efforts, and then further down, developing solutions 
that will meet the increased demands for limited water 
resources in the West.
    Those things begin to really concern me when the Federal 
Government begins to consider taking water rights away from 
State governments for possibly developing solutions for a 
limited resource. Again, I approach this from the perspective 
of a State that's lacking in political power and lacking 
economic horsepower in the courts. So I'm curious about exactly 
how you intend to expand your capabilities and by what 
authority. That's the reason I would like to look at the 
report.
    Mr. Keys. Mr. Chairman, Mr. Pearce, not being 
argumentative, but I know of no case where Reclamation has 
taken water rights from a State. Certainly every piece of that 
Western Water Initiative would be implemented in close 
partnerships with all 17 of the Western States, to try to 
address future issues. From Reclamation's and Interior's 
viewpoint, the States are sovereign on water rights, and 
certainly every effort we would do would be to work with them 
in trying to stretch those water supplies further.
    Mr. Pearce. Mr. Chairman, I would also point out that the 
Commissioner's testimony mentioned the voluntary purchases of 
water rights, or the purchase of water rights from willing 
sellers, but the effect of that, Mr. Chairman, is to decrease 
the economy in an area, to decrease the economic base in an 
area. I'm in one of the States that is 60 percent owned by 
Federal or State governments, who have retired land out of 
productive use. It's causing extreme havoc in our county 
budgets and in our State budgets.
    Then, according to your own testimony, I refer the 
Commissioner to his own testimony, that they were not so 
concerned about the economic impacts at Folsom, but they are 
concerned about the economic impacts somewhere else. So it is 
that different value system that concerns me somewhat as I look 
at the West and possible actions by the Bureau of Reclamation.
    I will let the gentleman respond and will yield back.
    Mr. Calvert. I thank the gentleman. I'm sure Commissioner 
Keys will be more than pleased to come by your office and 
discuss these issues.
    We're going to try to get a couple of quick questions off 
before we have to go on recess. Mr. Rodriguez, do you have a 
question?
    Mr. Rodriguez. Mr. Chairman, let me apologize and thank you 
for having me at my first Subcommittee meeting of this 
Committee.
    Mr. Calvert. Welcome.
    Mr. Rodriguez. Thank you very much. I apologize. I just 
wanted to maybe get some guidance.
    We have had some real serious problems on the Mexican 
border with the treaty that we've had with Mexico, especially 
the State of Chihuahua on the other side. It is supposed to 
relinquish about 350,000 acre-feet of water per year and they 
haven't been doing that for some time now. They're always about 
1.7 million acre-feet. They released a certain amount recently, 
but we've had some problems, where the Rio Grande no longer 
flows into the Gulf.
    I was wondering, in terms of some guidance in that area 
might be helpful, and what you might suggest we do to be able 
to help some of the people in the lower part of the Rio Grande, 
especially on the Texas border.
    Mr. Keys. Mr. Chairman, Mr. Rodriguez, that problem is 
being handled by the State Department and the International 
Boundary Waters Commission. We are working very closely with 
them to provide them the information that they need. But the 
State Department is the lead on that at the current time. I 
have no advice for you on how to handle that right now.
    Mr. Rodriguez. OK. Because we've had some difficulty in 
trying to come to grips with that. And two-thirds of that is 
owed to people downstream on the Mexican side, so they are also 
hurting. Thank you very much.
    Mr. Calvert. I thank the gentleman for that question.
    Mr. Nunes.
    Mr. Nunes. Thank you, Mr. Chairman. Mr. Keys, it's good to 
see you again.
    In your testimony in opposition to H.R. 1284, you talked 
about the funding ceiling provided by title XVI and that there 
was additional funding up to--I think it is $25 million 
remaining under the ceiling on the restoration fund. Can you 
clarify the difference between title XVI and its origination, 
and also the difference between the restoration fund and its 
origination?
    Mr. Keys. Title XVI was part of Public Law 102-575, passed 
in 1992. Every project that is authorized under title XVI has 
its own limits and fundings and authorizations that go along 
with it.
    When San Gabriel was authorized, we were authorized about 
$40 million there, and certainly we still have about $8.5 
million of that cost ceiling left. The restoration fund was 
authorized at $80 million, of which $70 million was dedicated 
to the San Gabriel restoration work. There is currently $25 
million of that ceiling left.
    Mr. Nunes. When was the restoration fund authorized? What 
restoration fund is this, and what authorized it?
    Mr. Calvert. If the gentleman will yield, I believe that 
legislation was offered by Mr. Drier--
    Mrs. Napolitano. 910.
    Mr. Calvert. --910, and it authorized the amount of money 
to put forward for the restoration of the San Gabriel Basin. It 
was a separate restoration fund, I believe.
    Mr. Keys. Mr. Chairman, it was authorized in the year 2000. 
Congress created the San Gabriel Basin restoration fund and it 
provided a 65 percent Federal cost share. It was authorized at 
$85 million, 75 of which was dedicated to the San Gabriel 
Basin.
    Mr. Nunes. Commissioner, thank you. As you know, 
``restoration fund'' is a term that is used for many other 
issues.
    Mr. Keys. Yes.
    Mr. Nunes. So I wanted to clarify that it wasn't the same 
restoration fund that I've asked about, I think on four 
separate occasions. I still have not received, as of this date, 
anything in regards to the CVPIA restoration fund, as to its 
current account balance, nor any other issues as to what the 
money has been spent on in the last 10 years. I'm still waiting 
very patiently for that information, Mr. Keys, and I find it a 
little bit disconcerting that I haven't heard back from the 
Bureau yet.
    Mr. Keys. Mr. Chairman, Mr. Nunes, I will get that to you 
as soon as I can.
    Mr. Nunes. OK. Thank you. I would appreciate it.
    Mr. Calvert. And I know from experience, Commissioner, he's 
not all that patient.
    [Laughter.]
    Mr. Keys. Thank you.
    Mr. Calvert. Mr. Ose, if you'll be patient, we have a 
series of three votes, and if this panel would please stay with 
us, we're going to go vote, come right back, and we will finish 
with Mr. Ose's questions. Then we have a panel here from the 
community of Folsom. So thank you very much.
    We are recessed until after the last vote.
    [Recess.]
    Mr. Calvert. While we're waiting for Mr. Ose, I thought I 
would ask the Commissioner a question on the qualification 
settlement agreement. As you know, the State of California, the 
primary folks in this agreement, have come to a tentative 
agreement. Is there any new news you would like to pass on to 
the Committee?
    Mr. Keys. Mr. Chairman, I don't have any news right now, 
other than to say there is a negotiating committee, or there is 
a group of people from Interior in California, yesterday and 
today, talking with those folks about the QSA and the 
settlement. So negotiations are underway.
    Mr. Calvert. Well, we certainly are looking to a positive 
resolution as soon as possible.
    Mr. Renzi, did you have any further questions for the 
Commissioner?
    Mr. Renzi. Yes, thank you.
    I just wanted to clarify the point that I made earlier when 
we were talking about the Hoover Dam. I appreciate your 
knowledge of the transportation that goes over it. I just don't 
want to make the fact of the impact as it relates to these 
local communities is something that the Federal Government in 
my State is willing to bear. I think it's probably relevant to 
the argument as it relates to Mr. Ose.
    I realize you have a tough job to do. We're looking at 
communities that are now being drastically impacted on the way 
they travel, and economically being greatly impacted. But I do 
believe it is reasonable that we consider particularly the 
funding mechanism that Mr. Ose is talking about putting 
together.
    Thank you for your testimony on the Zuni situation. It's a 
long time coming. Senator Kyl did a great job of pulling this 
together, and Congressman J.D. Hayworth worked on it before I 
was able to take over. I know we've got representatives here 
from Arizona, from the Zuni Tribe, who have for years 
persevered and have come a long way to make sure that we 
provide adequate resources along with the land to allow Zuni 
Heaven to become a reality.
    I had an opportunity, Mr. Chairman, to see a copy of the 
master plan of what Zuni Heaven will eventually look like. It's 
a beautiful garden spot that our nation will be able to be 
respectful of and also to be sure the trust responsibilities 
have been significantly discharged to the good people of the 
Zuni Tribe. So thank you for your leadership, too, and for your 
years of making sure we get to this point today.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    Mrs. Napolitano.
    Mrs. Napolitano. Commissioner Keys, one last question.
    The Bureau of Reclamation had a toilet exchange program. 
Where is that at?
    Mr. Keys. Mr. Chairman, Mrs. Napolitano, I did not hear the 
whole question.
    Mrs. Napolitano. There was as toilet exchange program 
funded by the Bureau of Reclamation, up to maybe about a year 
ago, whereby I think it was the Met was charging nonprofits or 
schools to go out and exchange them for the high volume of 
water, two gallons or whatever it is, versus the low flush 
toilet. That was being funded out of the Bureau of Reclamation.
    I'm wondering whether the program is going to be refunded?
    Mr. Keys. Mr. Chairman, Mrs. Napolitano, I have to confess 
I don't know anything about it. I will certainly find out and 
get back to you.
    Mrs. Napolitano. I would appreciate it.
    Mr. Chair, I don't know if my witness who flew in to give 
testimony on the Puente Valley operating unit--I guess they 
told him we would be back a little longer than it was thought, 
and he must be outside waiting. So I have sent somebody to 
look. So, if I may, I would like to bring him in when he comes.
    Mr. Calvert. Without objection.
    Mr. Ose.
    Mr. Ose. Mr. Chairman, thank you.
    Mr. Keys, first of all I want to commend you on your 
presentation today. I know we don't agree on this issue, and 
we've had that conversation.
    When DTRA did its analysis of Folsom, what was the basis 
under which they looked at it, why that one and not others?
    Mr. Keys. Mr. Chairman, Mr. Ose, starting in September of 
2001, we started an evaluation of every structure that 
Reclamation operates, all of our dams, 346 of them, 58 power 
plants, and some other critical infrastructures. The DTRA 
analysis has been used on all of those, in addition to some 
RAM-D analyses that were developed by the Corps of Engineers. 
So that DTRA analysis is the same methodology that we've used 
on all of our facilities.
    Mr. Ose. In the context of homeland security, did the 
Folsom Dam issue rate high, medium or low?
    Mr. Keys. Mr. Chairman, I would prefer not to answer that 
outside of a secure briefing. We would certainly offer that to 
you and Mr. Ose and other members of your Subcommittee.
    Mr. Ose. I'm agreeable to that, Mr. Chairman.
    Mr. Calvert. We'll arrange for that to happen soon, with 
the Commissioner, Mr. Ose and myself, and any other interested 
members.
    Mr. Ose. Mr. Keys, if I may, I want to make sure I 
understood your earlier testimony; that is, that the Bureau 
has, in fact, built bridges?
    Mr. Keys. Mr. Chairman, Mr. Ose, that's correct.
    Mr. Ose. Was Reclamation responsible for their design?
    Mr. Keys. Mr. Chairman, Mr. Ose, each one of those was 
authorized as part of a water resources project, and we were 
responsible for the design and construction of those 
facilities.
    Mr. Ose. So like the one in Glen Canyon, that was done by 
the Bureau in its entirety?
    Mr. Keys. That's correct.
    Mr. Ose. Now, I'm told that, in fact, the Bureau's bridge 
designers in Denver have conceptual drawings on Folsom Dam. I'm 
only told that anecdotally.
    Mr. Keys. Mr. Chairman, Mr. Ose, we have looked at a number 
of options at Folsom, as we do at a lot of our facilities. 
There was an appraisal level report that was done at the field 
level on a bridge for taking the traffic off of the dam 
earlier.
    Mr. Ose. And the property where the new bridge would be 
proposed to be built, is that Reclamation land?
    Mr. Keys. Mr. Chairman, Mr. Ose, that's correct.
    Mr. Ose. OK.
    Mr. Chairman, I want to again thank you for having this 
hearing. I appreciate the opportunity to interact with 
Commissioner Keys. He and I disagree on this issue, as you have 
noted.
    I yield back.
    Mr. Calvert. I thank the gentleman for bringing this 
legislation forward. We will be marking up the legislation on 
Thursday, along with the Zuni Indian legislation, the San 
Gabriel legislation, and the Linder commission legislation, 
Thursday at 10 o'clock in the morning. So hopefully we can move 
this along to the full Committee as soon as possible.
    With that, if there are no further questions for this--Mr. 
Nunes.
    Mr. Nunes. Commissioner Keys, I apologize, but I just want 
to kind of go on farther from where we left off regarding the 
restoration fund.
    I realize that it's different than H.R. 1284. It's a 
different restoration fund than the CVPIA restoration fund. But 
I am a bit concerned that myself and other members have made 
requests in writing for an account of the CVPIA restoration 
fund money, and now, during our brief recess, when I went to 
vote, luckily another member's office was in here and they 
actually had, as of November 30th, 2002, the exact information 
that I have been requesting for 85 days, roughly.
    I realize that the information is hard to get and we don't 
have it. But obviously, at one point or another, the Bureau did 
get the information to another Member of Congress. So I find it 
a little disconcerting, Commissioner--and I know this is 
probably not your doing. But I want to kind of get to the 
bottom as to why I can't get some very simple numbers that 
greatly impact my district and the entire San Joaquin Valley to 
the tune of probably close to $100 million a year, I would 
guess.
    Mr. Keys. Mr. Chairman, Mr. Nunes, your concerns are my 
concerns. I did not understand that we had those figures 
together. I will certainly find out and have them to you as 
quick as possible.
    Mr. Nunes. OK. And I can get this information to you, if 
that would help you get to the bottom of who actually has the 
numbers, at least as of 5 months ago.
    Mr. Keys. Mr. Chairman, Mr. Nunes, I will get them myself 
from our agency, and if I cannot find them, I will come back to 
you and do that.
    Mr. Nunes. Thank you very much, Mr. Keys.
    Thank you, Mr. Chairman.
    Mr. Calvert. I thank the gentleman. Again, I want to thank 
this panel.
    One last comment. Today is April 1st. It's not April Fools 
necessarily. But we understand from Interior--and maybe this is 
coming out of a different part of the shop over at Interior. 
But the crosscut budget for the Cal-Fed project was required to 
be brought in front of this Committee on April 1st. So if you 
could pass that along to our friends, I would appreciate it. We 
hope to get that this week because we need that in the 
formulation of our Cal-Fed legislation.
    Mr. Keys. Mr. Chairman, I will certainly take that back. I 
was not aware of that deadline, but we will take it back and be 
sure that that happens.
    Mr. Calvert. I would appreciate that.
    I want to thank you, Commissioner, as I always do, for your 
courtesy and for coming to this Committee and putting up with 
us for a little while. I appreciate that.
    Ms. Rosier, thank you very much. You both have a good day. 
You're excused. Thank you.
    Mr. Keys. Thank you, Mr. Chairman.
    Mr. Calvert. Our next panel is Mr. Jeff Starsky, 
councilman, city of Folsom; Ms. Aileen Roder, Taxpayers for 
Common Sense; and Mr. Roger Niello, Sacramento County 
Supervisor. I ask unanimous consent to submit the statement of 
the Honorable Steve Miklos, the Mayor of the City of Folsom, 
California, for his statement. Without objection, so ordered.
    [The prepared statement of Mayor Miklos follows:]

            Statement of The Honorable Steve Miklos, Mayor, 
                City of Folsom, California, on H.R. 901

    Mr. Chairman and distinguished members of the Committee, my name is 
Steve Miklos, and I am the Mayor of the City of Folsom, California. I 
appear today in support of H.R. 901, a bill to authorize the Secretary 
of the Interior to construct a bridge on Federal land west of and 
adjacent to Folsom Dam in California. I appreciate the opportunity to 
speak today regarding this legislation.
    I thank this Committee for holding this hearing today. While this 
is one of the first steps for this bill in the legislative process, 
many pieces of legislation never even receive a hearing. I believe this 
hearing serves as evidence that the Chairman of this Committee, Mr. 
Calvert, and the Members of this Committee take very seriously the 
problems and concerns facing the people of my City and of our entire 
region. On behalf of the citizens I represent, thank you for taking up 
the matter of H.R. 901 and demonstrating your desire to help us find a 
way to cope with the disruption caused by the closure of Folsom Dam 
Road earlier this year.
    I also wish to thank both Congressman Doug Ose and Congressman John 
Doolittle for their ongoing support for our City and our region. Our 
City appreciates deeply Congressman Ose's commitment to improving the 
lives of the citizens of Folsom, and we specifically commend him for 
introducing H.R. 901 very early in the First Session of the 108th 
Congress. Congressman John Doolittle has been a friend and strong 
advocate on behalf of Folsom for over a decade, and we look forward to 
continuing our work with him on behalf of our entire region.
    My colleague on the Folsom City Council, Councilmember Jeff 
Starsky, has testified regarding many of the specific problems 
associated with the decision to permanently close Folsom Dam Road. He 
has also drawn an accurate picture of severe problems caused by the 
road closure. I take this opportunity to expand several of the points 
covered in his testimony and extend the discussion further into public 
policy so the Committee Members can understand why we believe H.R. 901 
is the best legislative approach to achieve our goals.
    H.R. 901 is important legislation on several levels. Locally and 
regionally, the legislation will help relieve impacts of circumstances 
and decisions beyond our local control. Although our City and our local 
economy are relatively strong, we live in uncertain economic times. Our 
City continues to cultivate our strong economic base while 
simultaneously working to develop new business opportunities 
benefitting our City as well as our region. The closure of Folsom Dam 
Road has a significant negative impact on local and regional businesses 
of all sizes--from local ``Mom and Pop'' stores to our larger corporate 
citizens. We need Federal assistance to replace the closed crossing 
with a four-lane bridge as rapidly as possible--we cannot do it alone.
    The State of California is, as the Committee is aware, in difficult 
financial straits. The State of California is not in a position to 
provide significant assistance in our efforts to restore what was a 
major regional artery. We will continue to press our State government 
to help us solve our regional traffic congestion caused directly by the 
Bureau closing Folsom Dam Road, but we have slim hopes of actually 
securing the level of assistance necessary to mitigate the closure.
    On the Federal level, H.R. 901 is important legislation for at 
least two reasons. First, the legislation acknowledges the role of the 
Federal Government to assist local and state governments achieve 
important objectives that are not within the scope of non-Federal 
resources.
    Second, and more specifically relevant in the current situation 
facing Folsom, H.R. 901 correctly answers the question of 
responsibility for mitigating the impacts of the decision to close 
Folsom Dam Road. Those of us in local government know very well that 
responsibility for our actions rest with local government. If we 
condemn property under the law of eminent domain, we are responsible 
for making the property owner whole. When we temporarily close a road, 
we hear quite clearly from our constituents that we are responsible for 
getting that road open quickly. We understand that there are 
consequences to our decisions and that we in local government have a 
responsibility to mitigate negative consequences.
    Similarly, I emphatically believe it is the duty of a Federal 
agency with the authority to make a decision with such negative local 
and regional impacts to bear the responsibility to help mitigate those 
impacts. Without this kind of certainty of responsibility, local 
governments can be shuffled between Federal agencies for years without 
ever securing the assistance needed to resolve problems created by the 
decisions of Federal agencies. There are several public agencies which 
could, in theory, be responsible for funding the new bridge, including 
the Department of Homeland Security, the Department of Transportation, 
and the Department of Defense via the Army Corps of Engineers. I would 
argue that none of these agencies are in any better or worse position 
to take charge of the new bridge. But the distinction between the other 
agencies and the Bureau of Reclamation is, in my mind, quite clear: the 
Bureau of Reclamation had the authority to close the road and it 
exercised that authority. Good public policy requires the Bureau of 
Reclamation to bear responsibility for replacing the river crossing 
closed by its decision.
    I have testified why I believe H.R. 901 makes sense and why I am 
urging the Committee to report the bill favorably as expeditiously as 
possible. I do not want to leave the Committee with the impression that 
I believe the Bureau of Reclamation is wrong to attempt to protect the 
dam from terrorist attack. Those of us testifying on behalf of H.R. 901 
recognize the real risks associated with allowing public traffic on 
Folsom Dam Road. Last year, I outlined for this Committee the 
devastating impacts of a breach of the dam and focused on impacts to 
our region's transportation infrastructure. I testified how providing 
the new bridge for traffic would protect our freeways, our light rail, 
our local streets and regional transportation corridors, our rolling 
stock, and our other transportation assets from loss and damage due to 
a massive flood. And I pointed out the inextricable link between 
transportation infrastructure and our local, regional, and national 
economy. Thus, a decision taken to protect our transportation 
infrastructure from flooding is a good decision, and we argued that 
traffic should be removed from the road and the dam should be closed to 
the public.
    But I also testified that Folsom Dam Road should have remained 
open--if at all possible and with proper controls in place--until the 
new bridge was in place. Folsom Dam Road was the easternmost river 
crossing downstream from the major river forks. It serves businesses 
and residents traveling between major employment centers in El Dorado 
County, eastern Sacramento County, and Placer County. Approximately 
18,000 vehicles a day cross the dam. The dam crossing is a major 
regional traffic connector providing access between jobs and housing in 
the three different counties. Some of our region's largest industrial 
and commercial employers used Folsom Dam Road, including Intel, 
Hewlett-Packard, and Blue Cross. And especially during the summer 
months, Folsom Dam Road was an indispensable crossing for visitors to 
Folsom Lake--the most visited state park in the State of California--
and the region's parks and recreation facilities.
    The crossing at Folsom Dam needed to be moved off the dam, but the 
impact of doing so without a replacement bridge in place is and will 
continue to be devastating to the local and regional economy. Folsom 
Dam Road was an inadequate, but essential, transportation artery 
between the three counties. It was extraordinarily important for local 
circulation. Just as there is a balance between airport security 
measures and moving people efficiently onto departing flights, so too 
there must be a reasonable security system put in place to protect the 
dam while allowing the public to cross the dam until the new bridge is 
completed.
    I understand and appreciate the difficulty faced by Commissioner 
Keys and the Bureau of Reclamation generally. They understand the 
importance of the road to local and regional transportation and air 
quality, but they also understand their responsibility to safeguard 
Folsom Dam. However, now that the road is closed and the dam is secure 
from possible vehicular attack, the Bureau cannot avoid the 
consequences of its decision to close the dam. I do believe the Bureau 
has a limited budget and I encourage Congress to provide adequate 
funding to the Bureau so it can discharge its other responsibilities 
while making the City of Folsom and our region whole again. If the 
Bureau of Reclamation is not responsible for its decisions, then I fear 
we will suffer intolerable traffic, air quality, and negative economic 
consequences of the road closure for many, many years to come.
    Mr. Chairman, I appreciate the opportunity to testify on behalf of 
the City of Folsom in support of H.R. 901. We understand that there are 
many new priorities in our nation now. We are mindful of the cost of 
the war in Iraq--both the human toll as well as the financial cost. But 
we do believe that we as a nation must not neglect significant internal 
matters, and for those of us in the Sacramento Metropolitan region, the 
new bridge at Folsom Dam is a significant matter. We need the new 
bridge to remain economically vital both locally and regionally. We 
need the new bridge to alleviate traffic directly resulting from the 
closure of Folsom Dam Road. We need the new bridge to help lessen 
pollution locally and regionally caused by cars idling while waiting to 
squeeze through new choke points. We urge you and your Subcommittee to 
support H.R. 901 and work towards its speedy passage.
    I would be happy to answer any questions you may have, and I thank 
you for the opportunity to testify today.
                                 ______
                                 
    Mr. Calvert. First I would like to recognize Mr. Jeff 
Starsky for his opening statement.
    Please try to keep the opening statements within the 5-
minute time line. Any additional information will be entered 
into the record. So, with that, Mr. Starsky, you are recognized 
for 5 minutes.

          STATEMENTS OF JEFFREY STARSKY, COUNCILMAN, 
                   CITY OF FOLSOM, CALIFORNIA

    Mr. Starsky. Thank you, Mr. Chairman, distinguished members 
of the Committee. My name is Jeffrey Starsky. I am a 
representative on the city of Folsom's City Council, here on 
behalf of the 50,000 taxpayers which reside in my city. I want 
to express my appreciation for the opportunity to appear myself 
on behalf of my constituents and, in addition, on behalf of the 
three million users of the roadway that traverses the Folsom 
Dam, and the opportunity to have our voices heard at this very, 
very important hearing.
    I would first also like to thank Congressman Ose, our 
Representative and champion, for those of us in the city of 
Folsom. Congressman Ose's efforts and vision has helped us 
accomplish what has been a tremendously disruptive impact from 
the closing. In addition, we would like to thank Congressman 
Doolittle for his tremendous support. He has been a long time 
friend of our region.
    I think it is important to note that these two gentlemen 
have worked and, with the introduction of H.R. 901, are working 
on something that will not simply benefit the people they 
represent. This is going to benefit a region. As I said, three 
million people will traverse this roadway, or had until a month 
ago, traversed this roadway. These men are looking beyond the 
bounds of politics and are looking to help our region survive 
what will be a devastating economic impact.
    I would ask, Mr. Chairman, that my written comments be 
submitted, and I do not intend to read those. I just wanted to 
highlight a few of the salient points.
    Mr. Calvert. Without objection, your full statement will be 
entered into the record.
    Mr. Starsky. Thank you, sir.
    Briefly, just some history of this area. When this facility 
was constructed in the 1950's--it is important to remember that 
there were three crossings across the American River prior to 
the construction of this dam: the Mormon Island Bridge, the 
Rattlesnake Suspension Bridge, and the Salmon Falls Bridge. 
When the dam was constructed, the Salmon Falls Bridge was the 
only bridge that was relocated and reestablished across the 
river. The other two were never replaced.
    The two lanes across the Folsom Dam did help to address 
some of the transportation issues that were addressed by this 
facility. Of course, at the time the city was small, the region 
was very small. But now, as the region has continued to grow, 
this transportation link has been absolutely vital to the 
economic success of the area.
    Quickly, to talk about the impact itself on the city of 
Folsom, I can speak directly to those. Within the first week of 
the dam road closure, the city expended $38,000 just in 
additional security and additional law enforcement. We have 
seen a 40 percent increase in traffic accidents within our 
city, and we expect this could amount to as much as $15,000 per 
week in additional police and fire protection services.
    The loss of businesses in our city we are unable to measure 
at this time. It has simply been too early. I know I have 
spoken to several business owners that are along the immediate 
affected corridors. They have seen a 50 percent drop in their 
floor traffic. That, of course, has a tremendous impact on the 
sales tax, which is a direct benefit to the city of Folsom, as 
you are aware. California, as most of you know, is suffering a 
very serious financial crisis, and cities are at risk for funds 
through property taxes, and we're very, very concerned that an 
impact on sales taxes is our last bastion that will be 
impacted.
    By way of example, when the facility experienced the 
failure of a gate in 1995, 38 businesses within the city of 
Folsom closed as a result of that short-term closure. We are 
very, very concerned about the long-term impacts this time of a 
permanent closure.
    Most importantly, the impact is going to be in our 
redevelopment area. Our redevelopment is an area that we have 
tried to remove the blight. It is an old area. Many of you may 
not have the history of Folsom, but it dates back to the Pony 
Express. We have preserved our historic district in that 
setting, and we use it as a retail area. We try to attract 
businesses and tourism, which is being choked off by the 18,000 
additional vehicles that are traveling through and directly 
impacting that area.
    My last comment would be that I view this a little bit like 
when we, as a city, act and we take something. We have a 
transportation route here that has existed for over 50 years. 
It has been that region's transportation route. The Federal 
Government, by the actions of the Bureau, have taken that from 
us. When those of us that are on city councils act to take 
property or rights, we have to pay for those rights. We are 
asking that the Federal Government do the same.
    We do not dispute the contentions of the Bureau, that this 
is a national security issue. It absolutely is. All we're 
asking is that we be given mitigation rights, as the Federal 
Government has done in the past.
    Thank you very much.
    [The prepared statement of Mr. Starsky follows:]

             Statement of Jeffrey Starsky, Councilmember, 
                City of Folsom, California, on H.R. 901

    Mr. Chairman and distinguished members of the Committee, my name is 
Jeffrey Starsky and I serve on the City Council of the City of Folsom, 
California. I appreciate the opportunity to speak today regarding H.R. 
901, a bill to authorize the Secretary of the Interior to construct a 
bridge on Federal land west of and adjacent to Folsom Dam in 
California.
    I wish to begin by thanking you and the members of the Subcommittee 
on Water and Power for holding this hearing this afternoon. The 
citizens of the City of Folsom, Sacramento County, El Dorado County, 
and Placer County need your assistance in helping us adjust to the 
recent closure of Folsom Dam Road, a major regional connector and 
lifeline for many local and regional businesses and families. This 
hearing today is a critical step in the life of H.R. 901, and 
demonstrates your concern and commitment to our city and our region.
    On behalf of the City of Folsom, I also wish to thank Congressman 
Doug Ose for his leadership and for introducing H.R. 901. Congressman 
Ose has served his constituents and the nation well since first being 
elected in 1999. Folsom is proud to have Congressman Ose represent us 
in the United States Congress, and we appreciate his commitment to our 
City, our region, and the State of California.
    In addition, we wish to thank Congressman John Doolittle for 
cosponsoring H.R. 901. Congressman Doolittle has served the City of 
Folsom in the House of Representatives for over a decade with 
distinction and honor, and our City values deeply his hard work, 
dedication, and commitment to our City and Northern California.
    By way of background, The Flood Control Act of 1944 authorized the 
U.S. Army Corps of Engineers to build a dam on the lower American 
River. The U.S. Army Corps of Engineers completed construction on 
Folsom Dam in 1956. The U.S. Bureau of Reclamation now operates the 
dam. The reservoir holds just under one million acre feet of water when 
filled to operational capacity. The dam's power plant has three 
penstocks delivering 6900 cubic feet per second to turbines producing 
approximately 10% of the power used in Sacramento each year.
    Three river crossings were inundated and lost in the 1950's when 
the reservoir filled up: Mormon Island Bridge, Rattlesnake Suspension 
Bridge, and Salmon Falls Bridge. While the Salmon Falls Bridge was 
located upstream and is accessible today, the other two crossings were 
never replaced. Each crossing included two lanes, thus four lanes were 
lost as a direct result of dam construction.
    The Federal Government and others recognized security risks posed 
by traffic on Folsom Dam Road, but the matter never seemed urgent until 
September 11th changed America's way of thinking about security within 
the United States. In one morning, the issue of traffic atop the dam 
was transformed into a distinct and critical issue of national 
significance.
    The new bridge at Folsom probably would never have been the subject 
of its own congressional hearing without the tragedy of September 11th. 
It is likely the project would have continued to play a minor role in 
Sacramento's flood control debate. I believe this is an important point 
to remember--the need for the new bridge transcends flood control and 
is, in fact, a security issue.
    Even prior to September 11th, Congressman Ose and Congressman 
Doolittle recognized the need to move traffic off the dam to a new 
bridge. H.R. 2301, introduced in the last Congress, would have achieved 
that goal. Now, H.R. 901, introduced by Congressman Ose and cosponsored 
by Congressman Doolittle, carries forward the effort to provide a 
bridge to replace Folsom Dam Road which, by the Bureau of Reclamation's 
own admission, was a major transportation artery for the City of Folsom 
as well as Placer County and El Dorado County.
    Almost one year ago I testified before this same Committee in 
strong support of legislation authorizing construction of a bridge to 
replace Folsom Dam Road. During that hearing, my regional colleagues 
and I emphasized the need to ensure the security of Folsom Dam and 
Folsom Reservoir. We pointed out that removing automobile traffic from 
Folsom Dam would help prevent a catastrophic failure and flood caused 
by a terrorist act. We testified that a major breach caused by a 
terrorist act would result in a titanic flood--hundreds of thousands of 
lives would be at immediate risk, as would the capitol of the fifth 
largest economy in the world.
    We insisted that a new bridge replacing Folsom Dam Road would be 
essential for the physical safety and economic stability of our City 
and the entire Sacramento metropolitan region. We also outlined the 
costs and heavy burdens our City and our region would bear if the 
Bureau of Reclamation closed Folsom Dam Road prior to having a new 
bridge in place.
    As the Committee is aware, the Federal Government drew the same 
conclusions regarding the security of the dam. The Federal Government 
took action and the U.S. Bureau of Reclamation closed Folsom Dam Road 
on February 28, 2003. I am here today to tell you that our prognosis of 
closure offered to you one year ago was, unfortunately, quite correct. 
The City of Folsom and the citizens of our region now bear the heavy 
burdens of the Bureau's sudden and complete closure of Folsom Dam Road.
    I am not suggesting that the Bureau's decision was unjustified or 
hasty. But, in fact, the closure did occur suddenly, with little 
warning, and with no plan in place for assisting the region in handling 
the disruption of traffic patterns established over decades.
    Last year, I testified that closing Folsom Dam Road without 
providing a replacement bridge would do significant and lasting damage 
to our local and regional economy and environment. Only a short time 
has passed since closure, but I can report that closure has, in fact, 
done significant damage to our local and regional economy and 
environment. For example, closure without replacement costs the City 
$15,000 a month in traffic control costs alone. These direct and 
quantifiable costs may seem insignificant viewed on the Federal level, 
but I can testify without reservation that the costs are enormous 
locally and regionally.
    Public safety has also been compromised by the closure. 
Specifically, our police and fire departments have lost a primary 
access which severely impacts response times. Also, the routes 
emergency vehicles must use are now are heavily impacted by traffic 
which has been re-routed from the now closed Folsom Dam Road.
    We are gathering additional facts regarding other direct costs to 
the City. As a procedural matter, I would request that the Committee 
leave the record open temporarily so the City can provide additional 
impact information as it becomes available. But the real costs to our 
economy and environment are widespread, enormous, and can neither be 
easily nor accurately quantified. We see these costs being borne by the 
people of Folsom and our region every day. We see 18,000 additional 
vehicles each day now clogging the streets of our City. We miss 
meetings and we are late to pick up our children from school. We burn 
expensive gasoline and pollute our air while waiting for traffic to 
cycle through intersections designed to carry a fraction of the traffic 
now imposed on the City.
    I can report to the Committee that businesses located along 
impacted roadways have suffered immediate and significant negative 
impacts. Negative impacts on businesses are not only felt near the 
closed road entrances, but also all along the newly heavily congested 
alternative routes. Customers are finding it very difficult to enter 
and exit parking lots, and traffic congestion has driven shoppers away 
from local business. It is important to note in particular that the 
impacted routes run through the heart of the City's redevelopment area, 
putting the City's significant redevelopment efforts and opportunities 
at risk.
    Last year, we framed the twin issues quite clearly: ensuring the 
physical security of Folsom Dam, and ensuring the economic security of 
the City of Folsom and our region. The Bureau's decision to close the 
road without a plan to replace the road addressed the first issue while 
simultaneously and immediately undermining the second. H.R. 901 
addresses the significant local and regional negative impacts of a 
Federal response to a grave national security risk. The Federal 
Government needs to take responsibility for these impacts and mitigate 
closure by way of providing a bridge.
    We who live in the Sacramento region are quite familiar with the 
negative impacts of the closure of Federal facilities due to national 
security concerns. In the past decade we have endured the costs of the 
closure of three major military facilities: Mather Air Force Base, 
McClellan Air Force Base, and the Sacramento Army Depot. In each case, 
the Federal Government's decision to close its facilities had 
significant, immediate, and lasting negative impacts locally and 
regionally.
    However, in the case of base closure, the Department of Defense 
worked with our region to mitigate the impacts of its decision to close 
the facility. The Air Force and the Army spent significant amounts of 
money to help our region during and after the closure of each facility. 
The Department of Defense assisted our region--through funding and 
technical assistance--in adjusting to the loss of the Federal facility. 
In short, the Department of Defense did not merely pull up stakes and 
put a lock on the gate.
    The positive results of the efforts of the Department of Defense 
are real and measurable. The facilities have transformed into important 
and positive economic engines for our region. The Federal Government's 
acknowledgement of responsibility for assisting local and regional 
government respond to base closure should serve as a model in the case 
of the Bureau of Reclamation's decision to close Folsom Dam Road. 
Without the same high level of Federal assistance, the impacts of 
Folsom Dam Road's closure on national security grounds will be borne 
entirely by the City of Folsom and the citizens of Placer and El Dorado 
Counties. Furthermore, the negative effects of closure will be felt 
throughout the entire Sacramento Metropolitan region.
    There are distinctions to be drawn between base closure and our 
current situation. While military bases do come with significant 
negative characteristics--for example, the costs associated with 
environmental clean up at closed bases are real and significant--
military facilities also come with significant positive features and 
facilities. In the case of Mather Air Force Base--renamed Mather 
Field--the facility is now a major hub for freight movement thanks to 
its excellent runway and access to major surface transportation 
corridors. McClellan's superior facilities and transportation access 
have drawn important businesses to headquarter there. However, 
Sacramento would have been unable to take advantage of the positive 
attributes of these facilities without direct and active assistance--
technical and funding--from the Department of Defense.
    In the case of Folsom Dam Road, there are neither direct nor 
indirect benefits to closure beyond ensuring dam security. While this 
is a critical objective, we cannot view this matter in the vacuum of 
national security. There are real and negative impacts as a direct 
result of closure without replacement. Borrowing from the Department of 
Defense model once again, national security needs are linked with 
economic needs. That is why DOD put so much effort and funding into 
base reuse. DOD recognized the shortcomings of trading military 
readiness for regional economic security without mitigation, and DOD 
took responsibility and action to help ensure a safe transition for the 
local and regional economy. We ask the Federal Government--
specifically, the Bureau of Reclamation--to do the same in the case of 
Folsom Dam Road.
    As I testified last year, the new bridge would provide extremely 
important and direct benefits to our region. Our City and our region 
have attempted to address traffic congestion and air pollution for 
years. In fact, Folsom recently completed a new bridge across the 
American River at a total project cost of $75 million. This new bridge, 
which was built without Federal funds, dramatically improved automobile 
circulation in our city and regionally. However, the benefits of the 
new bridge have been severely undercut by the loss of the Folsom Dam 
Road as virtually all traffic formerly using the dam road now uses the 
new bridge or the old bridge nearby.
    There are other positive outcomes of going forward with the new 
bridge that are unrelated to security and are also critically important 
to our City and our region. A new four-lane bridge at Folsom Dam is an 
indispensable component of the six-county Sacramento Region's 
Metropolitan Transportation Plan, the area's Federally-mandated 
regional transportation plan for the next twenty years. But H.R. 901 
cannot be viewed as a congestion mitigation bill. The bill represents 
recognition by the Federal Government that it must help our region deal 
with its decision to close its facility.
    It was vitally important to get traffic off the dam as quickly as 
possible. However, we must also ensure that our goal is achieved in a 
responsible manner. We must work together to ensure that local and 
regional economic stability is maintained and traffic flow is managed 
as best as possible while the new bridge is under construction.
    Prior to the February 28th closure, approximately 18,000 vehicles a 
day crossed the dam. The road served as a major regional traffic 
connector providing access between jobs and housing in three different 
counties. Some of the larger industrial and commercial enterprises that 
benefit from this connection include Intel, Hewlett-Packard, Blue Cross 
and a number of other major employment centers.
    The people who used the dam road were traveling to and from work 
and school. They were conducting business and going shopping. They were 
enjoying the Folsom Lake Recreation Area, one of the most popular state 
recreational facilities in the nation with over one and a half million 
visitors annually. While the overriding concern is one of security, it 
is also clear that closing Folsom Dam Road without a replacement will 
be devastating to the local and regional economy.
    We learned the impact of temporary closure several years ago when 
repair work required lengthy Folsom Dam Road closures. Several 
businesses were forced to close and others were deeply hurt 
economically. Traffic was horrible, police, fire, and medical response 
times increased, and the situation aggravated an already dire air 
quality situation locally and regionally. In fact, Congress recognized 
the cost of limited closures and authorized up to $100,000 in 
reimbursement to the City of Folsom for its costs.
    Now the situation is much worse as we have experienced significant 
population increases locally and regionally and the closure is 
permanent rather than temporary. We must recognize the economic, 
traffic circulation, and air quality needs and realities in our region. 
It is important to note that these three matters are points of national 
significance and Federal involvement. The Committee should be aware of 
the remarkable growth of communities adjacent to Folsom Lake over the 
past decade. The City of Folsom's population grew from 15,000 to our 
current 56,000 in a few short years. Eastern Sacramento County, the 
City of Roseville and southern portions of Placer County, and El Dorado 
County can also report exponential growth levels. The recent permanent 
closure has been a terrible shock to our system.
    We are aware that the U.S. Army Corps of Engineers previously 
recommended the construction of a temporary bridge to handle redirected 
traffic while the dam is modified pursuant to prior congressional 
authorization. While the Corps' interest in minimizing the impact of 
closure is well-placed, it still does not make fiscal sense to put $20 
million into a temporary structure when that amount covers almost one 
third the cost of a permanent, full-service structure. Congressman 
Ose's legislation recognizes the importance of spending our limited 
Federal resources prudently as well as the value of doing something 
right the first time around. Simple math demonstrates the fiscally 
responsible approach of foregoing the temporary fix and applying those 
funds to a permanent, four-lane replacement bridge.
    We would like the Subcommittee to know that we have endeavored to 
meet with other local interests regarding H.R. 901. Through those 
efforts, we feel we have covered enough bases to feel comfortable in 
fully supporting Congressman Ose's legislation. We met with the Bureau 
of Reclamation, our other regional congressional representatives, and 
our representatives in the Senate. We have talked with other local and 
regional governments as well as state officials. We believe that H.R. 
901 is the best approach to achieve our goals.
    Some continue to ask whether the Bureau of Reclamation should be 
authorized to construct the bridge. There are really three questions 
here: whether the Bureau has the capability to build the bridge, 
whether the Bureau should build the bridge, and whether the Bureau has 
adequate funding to build the bridge.
    Regarding capability, we direct the Subcommittee to a letter to the 
Sacramento Bee from Bureau Commissioner John Keys, wherein he wrote, in 
part:
        ``the reference to the Bureau of Reclamation not having bridge 
        building capabilities is simply not correct. Reclamation has 
        designed and built many large bridges throughout the West. The 
        beautiful arch bridge that spans the depths of Glen Canyon in 
        Arizona is one example'' Reclamation designed and built the 
        Foresthill Bridge that spans the American River at Auburn--The 
        property where the new bridge would be located is Reclamation 
        land, and Reclamation is quite capable of building the bridge 
        we'll design.
    The Bureau has as much capability to design and build the new 
bridge as other Federal agencies. It has built bridges in the past. In 
fact, it built the large bridge standing only a few miles upstream from 
the proposed location of the new bridge.
    Second, the Bureau should build the bridge. This project replaces a 
Federal facility operated by the Bureau of Reclamation and recently 
closed at the direction of the Commissioner of the Bureau of 
Reclamation. It is a Bureau facility and a Bureau responsibility. It is 
incorrect to suggest, as some have, that H.R. 901 ``throws the Bureau's 
mission out the window.'' The Bureau's mission to protect water and 
related resources led it to the decision to close Folsom Dam Road. It 
is not, as some would suggest, unreasonable for the Bureau to replace 
the crossing it closed in order to protect the dam. However, the City 
stands ready to assist the bureau and is willing to take on whatever 
tasks are appropriate to construct the project efficiently and 
effectively.
    Third, we do understand that the Bureau's current budget does not 
include funding for the new bridge. We support adding funding to the 
Bureau of Reclamation's budget for this project if additional funding 
is needed to build the bridge and allow the Bureau to carry out its 
other responsibilities. Congress and the Administration set Federal 
fiscal priorities, and Congress and the Administration can decide 
whether to provide funding to the Bureau of Reclamation to build the 
new bridge in light of the Bureau's decision to close Folsom Dam Road. 
Whether the Bureau or some other Federal agency builds the bridge, a 
decision to provide Federal funding of some flavor will need to be 
taken.
    Mr. Chairman, in closing I would once again like to thank you and 
your colleagues for holding this hearing today. We understand that your 
Committee is extraordinarily busy, and the fact that this hearing has 
occurred underscores both your commitment to ensuring the safety and 
security of Americans as well as the clearly established need for the 
passage of H.R. 901. We also again wish to thank Congressman Ose and 
Congressman Doolittle for all their work on this legislation and on 
behalf of the City of Folsom.
    The City of Folsom urges the Subcommittee on Water and Power to 
report favorably on H.R. 901 as soon as possible. I appreciate the 
opportunity to appear before you today, and this concludes my formal 
statement. I would be happy to answer any questions you may have.
    Again, thank you.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman.
    Miss Aileen Roder. You're recognized for 5 minutes.

  STATEMENT OF AILEEN RODER, PROGRAM DIRECTOR, TAXPAYERS FOR 
                          COMMON SENSE

    Ms. Roder. Thank you, Mr. Chairman. Good afternoon, 
Chairman Calvert, Congresswoman Napolitano, and other 
distinguished members of the Subcommittee.
    I am Aileen Roder, program director at Taxpayers for Common 
Sense, a national, nonpartisan budget watchdog group. Thank you 
for inviting me to testify regarding H.R. 901, legislation 
introduced by Representatives Doolittle and Ose, to authorize 
the Secretary of Interior to construct a bridge on Federal land 
west of and adjacent to Folsom Dam in California.
    Taxpayers for Common Sense strongly opposes H.R. 901. This 
bill ignores other, more appropriate approaches to replacing 
the bridge over Folsom Dam. It contains no local cost sharing 
for an enhanced bridge, circumvents the normal authorization 
process for bridge building, and tries to rewrite the Bureau of 
Reclamation's mission by making it into a highway construction 
agency.
    In February, 2002, the Army Corps of Engineers released a 
final environmental impact statement calling for a seven-foot 
raise of Folsom Dam in order to reduce Sacramento's flood risk 
to a 1 in 213 chance in any given year. The Corps plan includes 
the building of a temporary bridge southeast of Folsom Dam at a 
cost of $20-30 million. H.R. 901 ignores this and other 
additional proposals for a bridge to be built with appropriate 
local and Federal cost sharing by the Department of 
Transportation.
    H.R. 901 tries to circumvent the normal highway 
authorization process and local cost-sharing requirements for 
road building improvements. Instead of involving the Department 
of Transportation, the city of Folsom, the California 
Department of Transportation, or the Army Corps of Engineers, 
H.R. 901 drags the Bureau of Reclamation, a completely 
unrelated agency, into the process.
    The Bureau is in the water supply business, not the bridge 
building business. At a time when Federal deficits are the 
highest in history, H.R. 901 will crowd out legitimate Bureau 
of Reclamation funding for projects.
    California Members of Congress, including the two co-
sponsors of H.R. 901, have previously opposed diverting Bureau 
funding. On January 8th, 2003, the entire California 
congressional delegation sent a letter to Secretary Norton and 
Attorney General Ashcroft requesting that settlement funds for 
Sumner Peck Ranch versus Bureau of Reclamation not come from 
the Bureau of Reclamation's budget. The delegation pointed out 
that Bureau funding should not be used for non-Bureau projects. 
We wholeheartedly agree and therefore believe it to be 
completely inappropriate to utilize Bureau funds to pay for 
projects outside its core missions, such as those anticipated 
by H.R. 901.
    This bill represents the second attempt by Congressman 
Doolittle to replace the bridge over Folsom Dam. In his June 
26th, 2001 press release regarding his original bill, H.R. 
2301, Congressman Doolittle stated, ``It is clear that a 
permanent, full-service bridge is needed to ensure greater 
transportation efficiency and commuter convenience.''
    We believe that the Federal taxpayer should not be picking 
up the whole $66.5 million tab for commuter convenience 
resulting from a bridge upgrade. Unfortunately, despite a 
debate on that bill, H.R. 901 fails to include any non-Federal 
cost sharing provisions.
    In closing, the Bureau of Reclamation should not be forced 
to deviate from its core mission by becoming a highway 
construction agency. Any bill authorizing construction of an 
improved Folsom bridge should strictly define Federal and non-
Federal cost sharing. Such a bill should go through the normal 
highway authorization process, taking into account that the 
Corps is already contemplating construction of a two-lane 
bridge. Congress should not raid the coffers of agencies 
dependent on energy and water appropriations to pay for the 
traffic conveniences of a few local beneficiaries.
    Thank you again for the opportunity to testify today. I 
would ask that my full written statement be submitted for the 
record, Mr. Chairman.
    Mr. Calvert. Without objection, the full statement will be 
entered into the record.
    [The prepared statement of Ms. Roder follows:]

             Statement of Aileen Roder, Program Director, 
                Taxpayers for Common Sense, on H.R. 901

    Good afternoon, Chairman Calvert, Congresswoman Napolitano, and 
other distinguished members of the Subcommittee. I am Aileen Roder, 
Program Director at Taxpayers for Common Sense (TCS), a national, non-
partisan budget watchdog group. I would like to thank you for inviting 
me to testify at this hearing regarding H.R. 901 which would authorize 
the Secretary of the Interior to construct a bridge on Federal land 
west of and adjacent to Folsom Dam in California. The bridge that 
formerly traversed Folsom Dam was closed to public use in February 
2003.
    Taxpayers for Common Sense strongly opposes H.R. 901, introduced by 
Representatives John Doolittle (R-CA) and Doug Ose (R-CA). This 
legislation overlooks other more appropriate approaches to replace the 
bridge that formerly traversed Folsom Dam. The most prominent proposal 
that H.R. 901 ignores is the current U.S. Army Corps of Engineers 
(Corps) plan to build a temporary bridge southeast of Folsom Dam in 
conjunction with their overall plan to raise the Folsom Dam seven feet 
in order to provide much needed flood control to the City of 
Sacramento. This bridge could be turned over to the City of Folsom and 
would resolve the security concerns that caused the Bureau of 
Reclamation to close the bridge over Folsom Dam to public use. H.R. 901 
also ignores additional proposals for a bridge to be built with 
appropriate local and Federal cost sharing by the U.S. Department of 
Transportation (USDOT).
    In February 2002, the Corps of Engineers released a Final 
Supplemental Plan Formulation Report/Environmental Impact Statement/
Environmental Impact Report (FEIS). This FEIS called for a 7-foot raise 
of Folsom Dam in order to reduce the City of Sacramento's flood risk to 
a 1-in-213 chance in any given year. Recognizing the obvious impact of 
the raise on the dam bridge traffic, the Corps proposed a temporary 
bridge southeast of Folsom Dam. The bridge would be similarly sized to 
the bridge that formerly traversed Folsom Dam. The Corps stated that 
the bridge could be left in place if a local sponsor is identified to 
assume the operation and maintenance responsibilities. The Corps plan 
for the 7-foot raise received a favorable Chief of Engineer's report in 
November 2003. I have attached the applicable portions of the Corps 
FEIS to my testimony.
    H.R. 901 ignores the Corps proposal, and instead tries to end run 
the normal process for highway improvements and local cost share 
requirements for road-building improvements. Instead of involving the 
USDOT, or other entities such as the City of Folsom, California 
Department of Transportation (Caltrans), or the Army Corps of 
Engineers, H.R. 901 drags the Bureau of Reclamation, a completely 
unrelated agency, into the process.
    The Bureau of Reclamation's mission is to ``manage, develop, and 
protect water and related resources in an environmentally and 
economically sound manner in the interest of the American public.'' The 
Bureau is in the water supply business not the bridge-building 
business. Legislation that foists responsibilities upon the Bureau that 
are outside of its core mission sets a terrible precedent by 
potentially reducing the agency's effectiveness in managing the West's 
water supply. At a time when Federal deficits are the highest in 
history, monies allocated under H.R. 901 will compete with legitimate 
Bureau of Reclamation funding in the Energy and Water Appropriations 
bill.
    On January 8, 2003, the entire California congressional delegation 
sent a letter to Department of Interior Secretary Norton and Attorney 
General John Ashcroft expressing reservations regarding the 
misdirection of Bureau of Reclamation funds. This letter requested that 
settlement funds for Sumner Peck Ranch Inc. v. Bureau of Reclamation 
not come from the Bureau of Reclamation's budget. The California 
delegation pointed out that Bureau of Reclamation funding should not be 
used for non-Bureau projects. We agree that robbing the coffers of one 
agency to pay for projects that should legitimately be run through 
another agency sets up a system doomed to failure. Specifically, we 
oppose efforts to force the Bureau of Reclamation to fund and build a 
bridge when this is both outside its core mission and would compete 
with appropriate funding of Bureau projects. I have attached the 
January 8, 2003 letter to my testimony for submission to the record.
    TCS recognizes that the construction of a new bridge is potentially 
necessary now that the bridge that traversed Folsom Dam has been closed 
due to security concerns. We also recognize that a wider bridge may be 
needed, however, H.R. 901 sidesteps the essential process that USDOT 
has in place to evaluate the need for such improvements.
    H.R. 901 clearly envisions more than replacing the bridge that 
traversed Folsom Dam. This bill would likely upgrade the bridge from 
two lanes to four lanes. USDOT has a process and formula to identify 
when highway upgrades, such as improving a road from two lanes to four 
lanes, are justified. The City of Folsom and the State of California, 
in concert with the Highway Trust Fund, are the proper sources for 
bridge enhancement design and funding. Replacing or upgrading Folsom 
Dam Road is a transportation need and as such it is inappropriate to 
tap the general treasury or energy and water appropriations for 
funding.
    Despite the debate on cost sharing that occurred during the hearing 
and mark-up of H.R. 2301, a virtually identical bill from the 107th 
Congress, H.R. 901 fails to include any non-Federal cost sharing and 
instead forces Federal taxpayers to pay the entire cost of the bridge. 
While we recognize that security concerns are potentially a legitimate 
reason for some level of Federal funding, bridge upgrade costs should 
be borne in the normal fashion by the local beneficiaries of bridge 
expansion.
    H.R. 901 is the second attempt by Congressman Doolittle to pass a 
bill requiring the Bureau of Reclamation to build a bridge to replace 
the one on Folsom Dam. According to Congressman Doolittle's June 26, 
2001 press release on his original bill H.R. 2301, ``The region's heavy 
reliance on the Folsom Dam Road means that even temporary closures can 
snarl traffic through Folsom, inconveniencing drivers and harming the 
local retail-based economy.'' Representative Doolittle added, ``It is 
clear that a permanent, full-service bridge is needed to ensure greater 
transportation efficiency and commuter convenience.''
    Building a bridge to replace Folsom Dam Road may be necessary, but 
building an enhanced, four-lane bridge cannot be attributed to security 
or safety. Instead, this upgrade from a two to four-lane bridge is tied 
to local economics and the convenience of the City of Folsom's 
citizens. Further, the bridge that traversed Folsom Dam was intended as 
a maintenance road rather than to be used for commuter traffic. The 
Federal taxpayer should not be picking up the whole $66.5 million tab 
for ``commuter convenience.'' Further, recent articles in the 
Sacramento Bee (March 4, 2003), Folsom Telegraph (March 12, 2003), and 
Auburn Journal (March 14, 2003) found that the predicted post-dam road 
closure ``traffic snarls'' never materialized.
    H.R. 901 demands that the Federal taxpayer shell out $66.5 million 
and then outrageously requires the government to turn the bridge over 
to a non-contributing, non-Federal entity. Taxpayers should not have to 
entirely fund an upgraded bridge and then be forced to turn that bridge 
over to local entities that refused to contribute a dime to design and 
construction of that bridge. Caltrans and the City of Folsom should be 
required to pay a fair share of bridge replacement costs.
    In closing, H.R. 901 sets a dangerous precedence of derailing the 
Bureau of Reclamation from its core mission rather than staying true to 
the increasingly essential work of managing western water supplies. The 
Bureau of Reclamation is not now and never has been a highway 
construction agency. It is crucial that Federal and non-Federal cost 
sharing be strictly defined in any bill authorizing a replacement for 
Folsom Dam Road. H.R. 901 makes an end run of the normal highway 
authorization process, ignoring a common sense procedure set in place 
by the USDOT to evaluate the need for highway construction and 
upgrades. The replacement bridge planned by the Army Corps in their 
FEIS is estimated to cost $20 to $30 million compared to the $66.5 
million price tag of H.R. 901. Other proposals exist to have the USDOT 
replace the bridge with local cost sharing. Congress should not raid 
the coffers of agencies dependent on energy and water appropriations to 
pay for the traffic convenience of a few local beneficiaries.
    Thank you again for opportunity to testify today and I would be 
happy to answer any questions you may have.
                                 ______
                                 

    [An attachment to Ms. Roder's statement follows:]
    [GRAPHIC] [TIFF OMITTED] T6198.006
    
    [GRAPHIC] [TIFF OMITTED] T6198.007
    
    [GRAPHIC] [TIFF OMITTED] T6198.008
    
    Mr. Calvert. Mr. Niello, Sacramento County Supervisor. 
Welcome. You're recognized for 5 minutes.

                STATEMENT OF HON. ROGER NIELLO, 
                  SACRAMENTO COUNTY SUPERVISOR

    Mr. Niello. Thank you very much, Mr. Chairman, and members 
of the Subcommittee. My name is Roger Niello. I am a member of 
the Sacramento County Board of Supervisors and, in that spot, I 
represent the communities in Sacramento County surrounding 
Folsom Lake, including the city of Folsom. I am here in support 
of H.R. 901.
    I have previously transmitted written testimony, which I 
will abbreviate, and I ask that that be entered into the 
record.
    Mr. Calvert. Without objection, so ordered.
    Mr. Niello. I do thank you very much for holding this 
hearing this afternoon. I want to stress that Sacramento County 
also recognizes the hard work and dedication exhibited by 
Congressman Doug Ose and by Congressman John Doolittle on this 
extremely important issue to our communities. We truly 
appreciate Congressman Ose's and Congressman Doolittle's 
commitment to securing this new bridge to mitigate against the 
consequences of a very important homeland security issue.
    I am here to provide a regional perspective, if you will, 
on the impacts of closing the Folsom Dam road. I have been a 
businessman in the region for about 25 years, and I certainly 
know a lot about the power as well as the vulnerability of our 
regional economy. As a public official, I have learned about 
the importance to our public safety and our economy of a viable 
water supply, a reliable energy grid, and a functioning 
transportation system. I also serve on the Sacramento Area 
Flood Control Agency, so I am, I would say, painfully familiar 
with our vulnerability to flooding.
    Knowing this, and consistent with the testimony I gave last 
year, I fully understand the decision to close Folsom Dam road. 
It is, indeed, necessary for homeland security reasons. That 
decision, however, does, indeed, have some real impacts. The 
traffic impacts of the dam road closure were very well 
explained by Councilmember Starsky.
    It is just simply important, I think, to know that Folsom 
Lake presents a physical barrier to long-time established 
travel patterns needed by the citizens of the growing 
communities of El Dorado, Sacramento, and Placer Counties, for 
work, shopping, and recreational related travel between these 
socially and economically linked communities.
    Now that the road over the dam no longer provides a means 
to cross that barrier, all of that traffic must invade, 
literally, Folsom neighborhood streets. The impact is not only 
to Folsom, as was explained, but also to the lives and 
pocketbooks of many more regional residents and businesses.
    It is also important to stress that good planning requires 
that the new bridge be a full service, four-lane bridge. 
Congressman Ose's legislation properly requires that the bridge 
be designed and constructed with both current as well as future 
demands in mind, and this requires the allowance for four 
lanes.
    Now, as my testimony before this Committee last year 
indicated, flood control is certainly always controversial in 
our region. It's again important to note, though, that this 
legislation has absolutely no prejudicial effect on that flood 
control debate. As I mentioned, I am a member of SAFCA, as we 
call the flood control agency, and as a member of that board, 
I'm on record as supporting both the Folsom ``mini-raise'' as 
well as the Auburn Dam. With the closure of the Folsom Dam 
road, a replacement of this vital transportation link needs to 
be provided, regardless of which project or combination of 
projects is approved or constructed. In fact, now that the dam 
road has been closed, the bridge becomes a need independent of 
the flood control project, and it is now not just contingently 
needed due to a desired flood control project, but it is 
unconditionally needed due to the actual permanent closure of 
the dam road.
    There have been discussions about whether the Department of 
Interior is a bridge builder or not. The one thing that I want 
to stress on that is that the completion of this bridge is, 
indeed, the completion of the original Folsom Dam project which 
pledged to the local community whole with regard to impacts of 
the building of that dam. Of course, four traffic lanes were 
flooded, never retained other than by this bridge, which now 
has been permanently closed.
    So, to sum up, I would say this is not about redefining 
missions of Federal agencies; it's not about rewriting 
legislative processes. This is directly related to homeland 
security and, thus, it is truly independent of any flood 
control project and it fulfills a 50-year-old obligation by the 
Bureau to hold our communities traffic lane harmless, if you 
will, and thus I urge this Subcommittee to report favorably on 
H.R. 901.
    That concludes my testimony. Thank you again very much, and 
I would be prepared to take any questions that you have.
    [The prepared statement of Mr. Niello follows:]

               Statement of The Honorable Roger Niello, 
          Sacramento County Board of Supervisors, on H.R. 901

    Mr. Chairman and distinguished members of the Sub-committee, my 
name is Roger Niello, and I am a member of the Sacramento County Board 
of Supervisors representing the communities in Sacramento County 
surrounding Folsom Lake. I am honored to be here in support of H.R. 
901, a bill to authorize the Secretary of the Interior to construct a 
bridge on Federal land west of and adjacent to Folsom Dam in 
California.
    I join my friends and colleagues invited to testify today in 
thanking you and the members of the Subcommittee on Water and Power for 
holding this hearing this afternoon. This is truly a critical project, 
and we cannot do what needs to be done without Federal involvement. 
Sacramento County also recognizes the hard work and dedication 
exhibited by Congressman Doug Ose and Congressman John Doolittle on 
this issue. We truly appreciate Congressman Ose's and Congressman 
Doolittle's commitment to securing the new bridge and doing so in a 
fiscally responsible manner. Their legislation recognizes the present 
day realities of the impact of the closure of Folsom Dam Road on 
regional transportation and air quality issues, and we appreciate their 
leadership in taking on this necessary project.
    We urgently need the bridge authorized by H.R. 901 to mitigate the 
impact of closing Folsom Dam Road to ensure security at Folsom Dam and 
Folsom Reservoir. This new bridge is essential for the economic 
stability of our region. While the decision by the Federal Government 
to remove automobile traffic from Folsom Dam was driven by perfectly 
justifiable security issues, the impact of this decision has severely 
affected the region I live in. Mr. Chairman, I strongly support this 
legislation and I urge you and your colleagues to act speedily on H.R. 
901 to make certain the bill is passed and signed into law as soon as 
possible.
    I am here to provide a regional perspective on the impacts of 
closing Folsom Dam Road. As a local businessman, I know quite a bit 
about the power of our regional economy. As a public official I have 
learned the importance to our public safety and economy of a viable 
water supply, a reliable energy grid, and a functioning transportation 
system. I also serve on the Sacramento Area Flood Control Agency, so I 
am painfully familiar with our vulnerability to flooding and the 
devastating impact a major flood would have on Sacramento and on 
California. And I do not believe it is hyperbole to suggest that a 
major flood in Sacramento coupled with the immediate loss of a major 
water and power supply would have a significantly damaging impact on 
our national economy. Simply put, the triple whammy impact of a 
catastrophic failure of Folsom Dam would be beyond devastation. I fully 
understand the decision to close Folsom Dam Road, but that decision has 
some real and immediate impacts.
    The communities surrounding Folsom Lake depended on the Folsom Dam 
Road to provide a vital transportation link for the movement of people, 
goods and services. Over 18,000 cars per day utilized Folsom Dam Road 
to cross Folsom Lake. Folsom Lake provides a physical barrier to travel 
for the surrounding communities. In particular, the communities in El 
Dorado County must, for the most part, leave El Dorado County for 
employment. In particular, the traffic pattern from El Dorado County to 
South Placer County requires the crossing of Folsom Lake. The ability 
to utilize Folsom Dam Road enabled this traffic to skirt the community 
of Folsom. With the closure of Folsom Dam Road, all of that traffic is 
now forced to utilize surface streets in Folsom, directly impacting 
that local community. We have major traffic congestion and air 
pollution problems locally and regionally that are exacerbated by the 
closure of Folsom Dam Road. The bridge and linkages provided by H.R. 
901 will provide significant congestion relief upon completion and also 
anticipate and address future growth in our region.
    I also agree with my colleagues on the panel that good planning 
requires the new bridge to be a full-service, four-lane bridge. 
Congressman Ose's and Congressman Doolittle's legislation properly 
requires that the bridge be designed and constructed with appropriate 
sizing and linkages to support present and future traffic flow 
requirements for the City of Folsom and the adjacent Sacramento County, 
Placer County and El Dorado County communities.
    As I stated in my testimony before this Committee on this issue 
last April, flood control is always controversial in our region. It is 
important to point out, though, that this legislation has absolutely no 
prejudicial effect on the flood control debate. The new bridge will 
provide transportation and air quality benefits, and will do so without 
biasing the flood control debate or outcome. As I mentioned, I am a 
member of the Sacramento Area Flood Control Agency. As a member of that 
Board, I am on record as supporting both the ``mini-raise'' as well as 
the Auburn Dam. With the closure of Folsom Dam Road, a replacement for 
this vital transportation link needs to be provided, regardless of 
which project or combination of projects is approved and constructed. 
In fact, now that the Dam Road has been closed the bridge becomes a 
need independent of the flood control project. It is now not just 
contingently needed due to a desired flood control project; it is 
unconditionally needed due to the actual permanent closure of the Dam 
Road.
    One of the reasons cited in opposition to having the department of 
the Interior construct this bridge is that the Department of the 
Interior is not in the bridge building business unless it is a part of 
a project such as the ``mini-raise.'' Setting aside that particular 
debate, it is my contention that the construction of the proposed 
bridge is the ``completion'' of the original Folsom Dam project. It is 
my understanding that the legislation that originally authorized Folsom 
Dam included a commitment to replace the bridge lanes that were flooded 
upon that project's completion. The utilization of Folsom Dam Road 
provided at least partial replacement for those lost cross-river access 
points. With the closure of the Folsom Dam Road, the replacement of 
that access has been removed. The bridge proposed in H.R. 901 would be 
a permanent replacement for this lost access. It is not only 
appropriate to have Interior build this bridge, but also it is a 
logical conclusion to the Folsom Dam project.
    H.R. 901 is the right legislation at the right time. The Sacramento 
region is in desperate need of additional flood control improvements 
and it is making progress towards that goal. While I support moving 
forwarded on our regions flood control protection, I also recognize 
that that process is ongoing. Additionally, our region has adopted a 
balanced transportation plan that invests in the needed infrastructure 
of our roadways and transit systems. For this part of the Sacramento 
Region, those communities surrounding Folsom Lake, there is not another 
more vital single project. The construction of the bridge and the flood 
control improvements, with the closure of Folsom Dam Road, are now, 
independent of each other. What is not separate is the real physical 
barrier that Folsom Lake presents to local traffic circulation.
    One final point on the impacts to local businesses by the closure 
of Folsom Dam Road. When one of the Dam's gates failed in 1996, Folsom 
Dam Road was closed for a period of several months. It has been 
reported to me by the Folsom Chamber of Commerce that 38 businesses 
failed in Folsom due to the impacts of that road closure. I am fearful 
that there could be a repeat given the impacts of the permanent closure 
in our current economic environment.
    Mr. Chairman, thank you again for holding this hearing and giving 
my colleagues and me from the Sacramento Region the opportunity to 
appear before you today. We also again wish to thank Congressman Ose 
and Congressman Doolittle for all their work on this legislation and on 
behalf of our community. I urge the Subcommittee on Water and Power to 
report favorably on H.R. 901 as soon as possible. This concludes my 
formal statement, and I would be happy to answer any questions you may 
have.
    Again, thank you.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman.
    Ms. Roder, I appreciate your coming out and your knowledge 
of the core mission of the Department of Reclamation. Some 
people around here have been trying to find out what that 
mission has been for some time.
    [Laughter.]
    So, since you know it, I'm going to ask you a couple of 
questions and see if we can't come to some kind of conclusion.
    Is part of the core mission of the Bureau of Reclamation, 
as far as you know, homeland security?
    Ms. Roder. No, Mr. Chairman, not that I'm aware of.
    Mr. Calvert. It isn't. But based upon that, they have made 
certain determinations. Would you agree the Bureau of 
Reclamation made the determination to close vehicle traffic on 
Folsom Dam?
    Ms. Roder. My understanding is the traffic is closed, Mr. 
Chairman.
    Mr. Calvert. Based upon the testimony that you were here to 
listen to today, would you conclude, based upon what the 
Commissioner and others have said, that it was based upon the 
tragedy of 9/11 and the Department of Reclamation choosing to 
protect the people who live downstream of Folsom Dam?
    Mr. Roder. Yes, Mr. Chairman.
    Mr. Calvert. So, based upon that, do you agree that there 
is a Federal impact based upon that decision, some Federal 
impact?
    Ms. Roder. Certainly there is an impact, yes, Mr. Chairman.
    Mr. Calvert. Based upon the Federal Government?
    Ms. Roder. Yes, sir.
    Mr. Calvert. So your disagreement is what the amount of 
that impact is, what percentage?
    Ms. Roder. My disagreement, Mr. Chairman, is certainly that 
there should be a local-Federal cost share, and which agency 
should be responding to the needs of the community.
    Mr. Calvert. But you do agree that the Federal Government 
has a responsibility to some degree?
    Ms. Roder. We do believe that the Federal Government has 
some responsibility.
    Mr. Calvert. OK. We agree on that.
    This next question is for the Councilman for the city of 
Folsom, Mr. Starsky. I have a close friend there in your 
community, a good friend. I went from kindergarten through 
college with him, your chief of police, who has let me know 
that you have literally a disaster on your hands there in the 
community of Folsom, as far as traffic is concerned.
    Can you describe the impact of that Federal decision upon 
the community of Folsom?
    Mr. Starsky. Absolutely, Mr. Chairman, yes. Our police 
chief, Sam Spiegel, was probably the person most responsible 
for the immediate response to the closure of the roadway. The 
impacts are clearly that roughly six million additional trips 
by the end of the next 11 months will have been directed 
immediately through streets in the city of Folsom that were 
simply not designed for that kind of a load.
    By way of example--and again, I bring this down to the 
lowest level because that's where I talk to people, the people 
who can't turn out of parking lots because it takes eight light 
changes for them to get through a light of a major intersection 
within our city. That is devastating to the businesses.
    I have e-mails that have nearly crashed my system from 
responses from angry motorists, most of them not even within my 
city. They're outside my city.
    Mr. Calvert. That's the next question I was going to ask. 
Do you have an idea of what percentage of folks that are just 
passing through?
    Mr. Starsky. I would purely be speculating, but certainly, 
from my own anecdotal observations, I would say, of those 
18,000 trips per day, that 75 percent or more of those are from 
the surrounding counties.
    Mr. Calvert. Any trucks?
    Mr. Starsky. Trucks were prohibited from using the dam 
road--again, I apologize for that term. I guess we mean it both 
ways.
    Mr. Calvert. D-a-m.
    Mr. Starsky. Yes. But trucks were prohibited after the 9/11 
incident from using the roadway, so we've been dealing with 
that experience of those trucks coming through the city of the 
roadway and they've had serious impacts on our roadways.
    Mr. Calvert. It has a cumulative impact upon the other 
bridge that you have remaining; isn't that correct?
    Mr. Starsky. Absolutely. I think a key point for us was we 
designed and built, as was indicated earlier, the city of 
Folsom built a replacement bridge or an additional bridge to 
accommodate our growth plans. We spent--basically, we have 
effectively mortgaged our transportation future.
    Mr. Calvert. By the way, on that, how much Federal dollars 
went into that bridge?
    Mr. Starsky. None. That was--
    Mr. Calvert. None?
    Mr. Starsky. That was funded completely by the city of 
Folsom, $75 million. To give you some perspective, the city of 
Folsom's annual general fund budget is $38 million.
    Mr. Calvert. So no money went into the non-Federal bridge 
that is going through Folsom property at the present time.
    Mr. Starsky. That's correct.
    Mr. Calvert. And the so-called Federal bridge, that was 
shut down by the Department, is impacting the community and is 
what's causing this pain in your local area.
    Mr. Starsky. That's absolutely correct, Mr. Chairman.
    Mr. Calvert. Thank you.
    Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Mr. Starsky, you mentioned that there's an impact on the 
community, and as a former elected official at the local level, 
I understand what that can mean.
    Is there any indication to show there has been an increase 
in customers for your business community?
    Mr. Starsky. That's a very good question, Madam 
Congresswoman. Again, before I answer that, let me just say I 
want to thank you for seeing our delegation that came here a 
month ago. They said you were very gracious in listening to 
their concerns.
    Your question, in my opinion, is baited in marketing 101, 
and that is where I first took the assessment. How can you 
complain? You have 18,000 more customers coming past your 
businesses. The fact of the matter is that that's simply not 
true, and the reason why is, in speaking to the businesses who 
are directly in those routes, people refuse to pull into their 
establishments because they cannot get out. They cannot get out 
of the blocked parking lots. They can't afford to lose their 
place in line, so to speak. The majority of them that would 
normally, in speaking to most of the small businesses--coffee 
shops, retailers--they say that the people simply will not 
stop. One man, a coffee shop owner, told me he lost all of his 
regular customers because they were so frightened they could 
not get out of the parking lot once they got in. That has been 
the experience all the way throughout the entire city.
    Mrs. Napolitano. I would have thought at least there would 
be good news in some of the businesses that may have received 
customers after hours. You know what I'm talking about. It may 
have had some positive impacts on some of these businesses.
    Mr. Starsky. I was hoping for the same thing.
    Mrs. Napolitano. Miss Roder, you apparently have very good 
knowledge of some of the issues on the bridge building side of 
the Bureau. Do you have any idea of what the cost is of any of 
those bridges they have built? I understand there have been 17 
built, according to my colleague. Do you know the cost of any 
of those particular bridges, individually? For instance, the 
last one.
    Ms. Roder. No, Congresswoman Napolitano. Off the top of my 
head, I do not. I can answer that through written testimony.
    Mrs. Napolitano. Would you, please? I would be interested 
to learn if they're of the same size, of the same breadth and 
depth of what we're talking about at Folsom. I certainly 
congratulate Folsom for taking the initiative and building 
their own bridge at their own expense, to be able to provide 
access for their constituency.
    Mr. Chair, that's all I have. Thank you.
    Mr. Calvert. I thank the gentlelady.
    Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Starsky, in terms of the bridge that Folsom built for 
$75 million, how long is it? Is it about a half mile?
    Mr. Starsky. That's correct.
    Mr. Ose. So half a mile would be $30,000 a lineal foot? Is 
that right? I'm trying to get to your question. I mean, $75 
million divided by half a mile, whatever that is. That should 
give you some indication of what the cost of the bridge would 
be on a relative scale.
    Mrs. Napolitano. If the gentleman would yield, I was 
talking about the bridge they built in '99. In other words, the 
cost of other bridges.
    Mr. Ose. I understand.
    Mrs. Napolitano. OK. Thank you.
    Mr. Ose. Mr. Chairman, I'm concerned about something. I 
listened to Ms. Roder's testimony, and I listened to 
Commissioner Keys, and I'm trying to reconcile the two of them. 
I asked Mr. Keys directly, has the Bureau ever built bridges, 
and he said yes. Miss Roder is saying that's not part of their 
responsibility. I went on and asked have you ever designed 
bridges, and he said yes. I'm not sure we're getting the truth 
here. I'm wondering whether we ought to bring Commissioner Keys 
back under subpoena to testify under oath.
    Mr. Calvert. I would be happy to acknowledge the fact that 
the Bureau of Reclamation builds bridges. That's part of the 
testimony. But if you would like to have a letter made part of 
the record, we can make that happen.
    Mr. Ose. I do have a letter here dated October 1st of 2001, 
printed in the Sacramento Bee. I would like to enter it into 
the record. It is signed by John Keys, III.
    Mr. Calvert. Without objection, so ordered.

    [The Sacramento Bee letter submitted for the record 
follows:] 
[GRAPHIC] [TIFF OMITTED] T6198.019


    Mr. Ose. He is noted here as Washington, D.C. Commissioner 
of the Bureau of Reclamation. It's interesting. ``Reclamation 
has designed and built many large bridges throughout the West. 
The beautiful Arch Bridge that spans the depths of Glen Canyon 
in Arizona is one example. Reclamation designed and built the 
Forest Hill Bridge that spans the American River at Auburn. The 
conceptual drawings for the bridge at Folsom Dam came from our 
bridge designers in Denver.''
    I'm just a little bit confused. I appreciate you allowing 
me to enter that into the record.
    Mr. Niello, you and I grew up in Sacramento, so we know a 
little bit of the history. I want to make sure I've got it 
correct. In 1956, when Folsom opened, there were six lanes of 
crossings that were inundated with the filling of the Folsom 
Dam, is that correct?
    Mr. Niello. That's correct, and two of them have since been 
raised above the water and relocated, I believe. But the other 
four, the other two structures, remain submerged and never 
replaced in any way.
    Mr. Ose. So you had six lanes going across, two were moved, 
so you replaced two of them, so you're down four. Then the two 
atop the dam basically constitute a replacement of two more, so 
you're down two at that point. And then you close this and now 
you're down four. I mean, that's the math. You're the 
accountant. You tell me.
    Mr. Niello. We appear not to be making much statistical 
progress.
    Mr. Ose. OK. So we're down four lanes of crossings, is that 
correct?
    Mr. Niello. That is correct.
    Mr. Ose. Perhaps I should direct this to Ms. Roder.
    Ms. Roder, is it Bureau policy to basically not replace 
crossings, or do you know if the Bureau has a policy for 
replacing the river crossings that are inundated in a 
construction project of this nature?
    Ms. Roder. Congressman Ose, I'm not sure exactly what the 
Bureau policy would be on that. From our perspective, the city 
of Folsom has done very well because they receive flood 
control--
    Mr. Ose. OK. Mr. Chairman, if I could reclaim my time, do 
you know the answer to that question, or does somebody on staff 
know the answer to that question?
    Mr. Calvert. I can speculate, but rather than do that, we 
will get you a written response to your question.
    Mr. Ose. OK. I would appreciate that.
    Now, the other question I have--and I was just thinking 
about this walking over for the votes--we have established the 
road atop Folsom Dam was closed in response to the Defense 
Threat Reduction Agency analysis that occurred subsequent to 9/
11.
    I would ask Miss Roder, relative to the occasion of 9/11, I 
could take your argument and suggest that perhaps the subway 
improvements in New York following the collapse of the World 
Trade Center should have a cost share figure and, in effect, 
the people of New York City should be punished for being 
victims. I don't understand the difference between that 
particular set of circumstances, where conceptually the people 
of New York City are held accountable for the adverse impacts 
of such an act, and the people of Folsom, under your scenario, 
being asked to pay for replacing a bridge they had nothing to 
do with closing.
    Can you reconcile those two things for me?
    Ms. Roder. Respectfully, Congressman Ose, this is a plan 
that was in place prior to September 11th, 2001. This 
legislation was originally submitted in June of 2001 to build 
this bridge.
    I would also submit that this bridge is looking at doing 
more than just replacing the existing or now closed bridge over 
Folsom Dam. It's looking to upgrade from two to four lanes.
    Mr. Ose. Well, we are going to examine that question. 
Incidentally, I was a cosponsor of that June, '01 legislation, 
having identified the need to take traffic off the dam.
    Mr. Chairman, I do appreciate the opportunity to come 
before the Committee and spend time on the dais. I have to 
scratch my head at the concepts that seem to be of popular 
distribution, when you blame the victim for circumstances that 
adversely affect their communities. I mean, I can't even 
imagine what it would have been like here had we blamed New 
York City for the consequences of the acts of those 19 
individuals, any more than I can imagine the logic that burdens 
a community with replacing river crossings when, in fact, it 
was done at the behest of some other party.
    I do appreciate being here. Thank you, Mr. Chairman.
    Mr. Calvert. I thank the gentleman.
    One last comment. I want to thank the gentlelady. Ms. 
Roder, for mentioning the Sumner Peck letter, because I 
circulated that letter and was happy to see the judgment fund 
used instead of reclamation. I'm sure the gentleman from 
Sacramento really doesn't care who pays for it, as long as it 
comes from or is being picked up by the responsible parties at 
the end of the day.
    With that, we want to thank this panel. You are excused. 
Have a great day.
    Mr. Starsky. Thank you, Mr. Chairman.
    Mr. Calvert. Next we have a number of people that are going 
to be introduced by some folks that represent them. First I 
would like to recognize Mrs. Napolitano to recognize some 
people from the San Gabriel Valley.
    Mrs. Napolitano. Thank you, Mr. Chair.
    I would like to ask both Mr. Michael Whitehead, Board 
Member of the San Gabriel Basin Water Quality Authority, and 
Mr. George Lujan, from Riando College, South El Monte, also in 
his capacity on the council. Both of them have come at our 
request to speak to H.R. 1284 and the need for the expansion to 
include South El Monte, El Monte, and the city of industry, or 
otherwise known as the Puente Valley operating unit.
    As we had covered earlier, the three projects have been 
lumped into one, so that Congresswoman Solis is a cosponsor of 
this because two of her cities are El Monte and South El Monte. 
These are projects that were not readily available at the time 
the cap was placed on the project area, which, of course, is 
the Superfund list I talked about.
    As some of my colleagues here said, this affects 1.3 
million people because of the area it covers. So I look forward 
to hearing from both of them and I hope we will be able to shed 
some light on this.
    Thank you, Mr. Chair.
    Mr. Calvert. I thank the gentlelady.
    Mr. Hayworth would like to introduce a mutual friend of 
ours from the State of Arizona.
    Mr. Hayworth. Mr. Chairman, I thank you. He is a good 
friend, and I see him back there preparing to ``Enter and sign 
in, please.'' It's our friend Bob Lynch, who is not new to the 
Subcommittee. He has testified before this Committee on a 
number of occasions and has provided valuable expert testimony.
    He is a long-time friend of mine, and I hope the Committee 
will not hold it against him. Despite the handicap of being a 
friend of mine, he is a well-respected attorney in Phoenix and 
well known across our country. He holds undergraduate law 
degrees from the University of Arizona, a masters degree in 
natural resources law from George Washington University. His 
law practice, Robert S. Lynch & Associates focuses on 
electricity, water, and environmental and public land issues--
in short, everything this Committee has an interest in.
    He is affiliated with the American Public Power 
Association, the National Water Resources Association, and the 
Central Arizona Project Association. He is an active 
participant in all the aforementioned organizations and he has 
served as President and Chairman of the Board of the Central 
Arizona Project Association.
    My friend from the 1st District, Brother Renzi, joins me in 
welcoming our friend, Bob Lynch. Bob, welcome.
    Mr. Calvert. With that, I recognize Mr. Renzi to recognize 
a representative from the Zuni Indian Tribe. Mr. Renzi.
    Mr. Renzi. Thank you, Mr. Chairman.
    It is a pleasure of mine to introduce Mr. Wilfred Eriacho, 
Sr., who is the Chairperson of the Zuni Indian Tribe Water 
Rights team. He has been a critical part of the negotiation 
team that has allowed us to reach this point. It is through his 
hard work, along with my colleague, Mr. Hayworth and Senator 
John Kyl, that we have again reached this point of settlement.
    I want to thank you all very much for allowing us to go 
down this path with you and for the compromise that you've 
shown, particularly the ability to allow the agreement to have 
a feature in it which allows the voluntary aspect of the water 
users in the upper region to flow to Zuni Heaven. I am grateful 
for your compassion, your consideration, and welcome you here 
today. Thank you.
    Mr. Calvert. I thank the gentleman.
    I have the privilege of recognizing Dr. Peter Gleick, 
Director of the Pacific Institute for Studies in Development, 
Environment and Security. He is here to testify, along with Mr. 
Lynch, on H.R. 135, the Linder Commission Initiative.
    With that, Mr. Gleick, I recognize you for 5 minutes. We 
try to keep our testimony, by the way, within 5 minutes. If 
there's any additional testimony or information, we will be 
happy to take it into the record. So, with that, Mr. Gleick, 
you're recognized for 5 minutes.

           STATEMENT OF PETER H. GLEICK, PRESIDENT, 
                       PACIFIC INSTITUTE

    Mr. Gleick. Mr. Chairman, Ranking Member Napolitano, 
members, thank you for inviting me today to testify on the need 
for a National Water Commission for the 21st Century, and in 
particular, on the approach taken by H.R. 135.
    I believe there is, indeed, a need for such a commission 
and, in fact, about 3 weeks ago the Pacific Institute, which I 
direct in Oakland, called for a national water commission in a 
letter to the President and to Congress. Copies of that letter 
were attached to my formal testimony and I expect they will be 
entered into the record.
    Mr. Calvert. Without objection, so ordered.
    Mr. Gleick. I will also abbreviate my testimony here today.
    Mr. Calvert. Thank you.
    Mr. Gleick. The United States has not had a national water 
commission for 30 years, since the 1968 National Water 
Commission reported to the President and Congress in 1973. 
Moreover, we have never had a national water commission with 
the authority and responsibility to review and recommend on the 
role of the U.S. in addressing international water issues. My 
comments today will address the idea of a national water 
commission with those responsibilities, and I will also provide 
some specific comments on H.R. 135.
    In short, I believe the idea of a commission is an 
excellent one, but I believe that the findings and duties 
described in H.R. 135 need some important modifications. I will 
offer some specific suggestions.
    As we enter the 21st century, pressure on the United 
States' water system and on international water resources is 
growing. Conflicts among users are worsening, international 
tensions are growing, and international attention to these 
issues is growing, as reflected by the recent meeting in 
Johannesburg at the Earth Summit, the World Water Forum that 
just ended about a week ago in Kyoto, with 10,000 participants 
from the international community, the fact that the year 2000 
is the International Year of Fresh Water, as named by the 
United Nations, there is growing attention to the failure to 
meet basic needs for water, growing international tensions and 
conflicts over water resources, the issue of climate change--
I'm sorry the other representative is not still here--the 
controversy of dams, a whole series of international issues.
    In addition, here at home municipalities are facing 
billions of dollars of infrastructure upgrades and investments, 
growing disputes over the role of public and private 
participation in water resources, arguments over shared rivers 
between the U.S. and Mexico, concerns among our Canadian 
neighbors that perhaps the United States is going to take water 
from the Great Lakes in inappropriate ways. All of these issues 
are facing us, and they have received an enormous amount and 
are going to continue to receive a great deal of attention.
    In many cases, the answer to those problems requires smart 
State and local action and not national efforts. But national 
policies and actions are also needed, as is leadership at the 
national level.
    It is time, I think, for a new national water commission. 
The commission must be nonpartisan, it must include 
representation from across the many disciplines affected by 
water issues, including the sciences, economics, public policy 
law, pretty much anything you can think of is affected by water 
resource issues.
    As an example of some of the goals, I would like to offer 
first to reevaluate national water science and policy and offer 
guidance on integrating efforts that are now scattered among 
many Federal agencies. The United Nations has 23 different 
pieces that work on water. I think in the Federal Government 
alone it's probably 20. So there is need for integration.
    Recommend revisions or better enforcement of national water 
laws. We have national water laws on water quality, we have 
some national standards on water use efficiency. There are 
national laws related to water, but some of them need revision.
    Develop recommendations for flood and drought management, 
including implementing overdue changes that have already been 
proposed by Federal surveys and studies.
    Work to ensure the physical security of the nation's water. 
Obviously, in light of some of the discussion about Folsom 
recently, there is an urgent need to do that.
    Develop recommendations for the U.S. in identifying and 
addressing global water problems, including how to 
significantly accelerate efforts to meet the large and 
devastating unmet basic needs for water in poorer countries. 
The U.S. plays a role in this, but could play a larger and more 
effective one.
    Explore how to deal with the risks of climate change. 
Climate change is a real problem. The impacts on water 
resources in the United States will be real, but there is no 
significant comprehensive efforts in that area.
    Make recommendations for reducing the risks of 
international tensions over shared water resources, including 
how to resolve concerns with our neighbors, Mexico and Canada, 
and that, I would point out, can be tremendously useful in 
other international basins, including the Middle East.
    It is past time for an integrated and comprehensive 
national water strategy and for a stronger effort by this 
nation in solving water problems. In this context, H.R. 135 is 
a good idea, and I would like to commend Congressman Linder on 
proposing it. I offer some comments specifically in my written 
testimony.
    I realize I'm short on time, so let me just say three quick 
things. The principal focus of that bill seems to be to offer 
recommendations on improving and enhancing the nation's water 
supply. That's not our problem. If you look at the two figures 
that are attached to my testimony, you can see, in fact, the 
demand for water in the United States is going down, not up. We 
use 20 percent less water per person today in the United States 
that we used 20 years ago. We are improving our efficiency. The 
problem is not demand but how we manage our water resources. I 
have made some specific recommendations for wording changes to 
make this bill reflect, in fact, what I think is our greatest 
need; that is, how to manage our water resources more 
efficiently rather than how to enhance supply.
    Let me stop my comments there. I would be happy to take 
questions. Thank you.
    [The prepared statement of Mr. Gleick follows:]

Statement of Dr. Peter H. Gleick, <SUP>1</SUP> President of the Pacific 
                     Institute, Oakland, California
---------------------------------------------------------------------------

    \1\ Dr. Gleick is President of the Pacific Institute, Oakland, 
California; an Academician of the International Water Academy, Oslo, 
Norway; and a member of the Water Science and Technology Board of the 
U.S. National Academy of Science. His comments reflect his own opinion 
and the recommended position of the Pacific
---------------------------------------------------------------------------
    Mr. Chairman, Representatives: thank you for inviting me to offer 
comments on the need for a National Water Commission for the 21st 
Century. I believe there is indeed need for such a Commission, and on 
March 10, 2003, the Pacific Institute called for its creation in a 
letter to the President and members of Congress. I have attached for 
the record a copy of that letter (Attachment 1).
    The United States has not had a national water commission in place 
for 30 years, since the 1968 National Water Commission reported to the 
President and Congress in 1973. Moreover, we have never had a national 
water commission with the authority and responsibility to review and 
recommend on the role of the U.S. in addressing international water 
issues. My comments today will address the idea of a Commission 
generally, with some detailed recommendations. I will also provide 
specific comments on H.R. 135, a bill proposed to establish such a 
Commission. In short, the idea of such a Commission is an excellent 
one; but I believe the Findings and Duties as described in H.R. 135 
need clarification and revision if the Commission is to adequately deal 
with the water challenges facing us.
International and Domestic Water Challenges
    As we enter the 21st century, pressures on United States and 
international water resources are growing and conflicts among water 
users are worsening. International attention to these problems is 
growing, as shown by the focus on water at the Johannesburg Earth 
Summit and the Kyoto Third World Water Forum. Moreover, 2003 has been 
declared the International Year of Freshwater by the United Nations.
    Globally, the realization is growing that the failure to meet basic 
human and environmental needs for water is the greatest development 
disaster of the 20th century. Millions of people, mostly young 
children, die annually from preventable water-related diseases. Climate 
change is increasingly threatening our own water systems and water 
resources abroad. Controversy is developing over the proper role of 
expensive dams and infrastructure, private corporations, and local 
communities in managing water. Yet the United States has not offered 
adequate leadership in providing resources, education, and our vast 
technological and financial experience to address these problems.
    Here at home, municipalities are faced with billions of dollars of 
infrastructure needs and growing disputes over the role of public and 
private water management. Arguments among western states over 
allocations of shared rivers are rising, as are tensions between cities 
and farmers over water rights. The U.S. and Mexico have unresolved 
disagreements over the Colorado and Rio Grande/Rio Bravo rivers, and 
our Canadian neighbors are concerned about proposals to divert Great 
Lakes or Canadian water for U.S. use. Communities are facing new 
challenges in meeting water quality standards and ensuring that safe 
drinking water is available for all.
Responding to Water Challenges: A New Water Commission
    In many cases, the resolution of these problems requires smart 
state and local action. But national policies and actions are also 
needed, as is leadership at the national level. Unfortunately, there is 
inadequate attention being given to national water issues, and what 
efforts are being made are often contradictory or counterproductive. 
Responsibility for water is spread out over many Federal agencies and 
departments, operating with no overall coordination.
    It is time for a new national water commission. The Pacific 
Institute has called for the creation of a National Commission on Water 
for the 21st Century to provide guidance and direction on the 
appropriate role of the United States in addressing national and 
international water issues. The Commission must be non-partisan and 
include representation from across the many disciplines affected, 
including the sciences, economics, public policy, law, governments, 
public interest groups, and appropriate private sectors. While the 
duration of the Commission should be fixed, adequate financial 
resources should be provided to permit it to do a serious and effective 
job. The goals of the Commission should include:
    <bullet> LRe-evaluate national water science and policy and offer 
guidance on integrating efforts now scattered among disparate and 
uncoordinated Federal agencies and departments. National budget 
priorities should also be re-evaluated and re-structured to ensure that 
the national objectives are more clearly supported.
    <bullet> LRecommend revisions or better enforcement of national 
laws related to water, including laws governing water quality, the 
protection of aquatic ecosystems, the financing of water 
infrastructure, and national standards for improving water-use 
efficiency and conservation.
    <bullet> LDevelop recommendations for flood and drought management, 
including implementing overdue changes proposed by previous reviews.
    <bullet> LWork to ensure the physical security of the nation's 
water, by highlighting necessary steps that could be taken to reduce 
overlap and streamline responsibilities of the multiple Federal 
agencies working on water issues.
    <bullet> LDevelop recommendations for the U.S. role in identifying 
and addressing global water problems, including how to significantly 
accelerate efforts to meet the large and devastating unmet basic human 
needs for water in poorer countries. These recommendations should 
address how best to apply the vast financial, educational, 
technological, and institutional expertise of the United States to 
these problems.
    <bullet> LExplore how to deal with the risks of climatic changes, 
including how to adapt to the growing and potentially severe impacts of 
global warming for water resources.
    <bullet> LMake recommendations for reducing the risks of 
international tensions over shared water resources, including how to 
resolve concerns with our own neighbors, Mexico and Canada, over shared 
water systems. These recommendations would be valuable in other 
international river basins where our experience, international stature, 
and expertise can be effective.
The Need for U.S. Leadership
    It is past time for an integrated and comprehensive national water 
strategy and for a stronger effort by this nation in solving water 
problems abroad. While many water issues will remain local, to be 
resolved by community participation and efforts, our national 
government can no longer ignore the positive and effective role it can 
play both here and abroad.
    The need for such integrated thinking was further made apparent at 
the global water conference in Kyoto, Japan, which ended just one week 
ago. The meeting involved 10,000 of the world's leading water experts 
as well as a Ministerial meeting involving senior diplomatic officials 
from more than 150 countries. It offered an opportunity to demonstrate 
the commitment of the international community, nations, and non-
governmental organizations to resolve serious water problems. The 
United States, with its great technical, financial, and educational 
expertise, is perfectly positioned to be a world leader in addressing 
water problems, yet the U.S. delegation came without the comprehensive, 
integrated, and informed positions necessary to play a leadership role. 
Indeed, the United States is perceived to be a marginal player, making 
contributions well below our capability and stature as a world leader. 
And while money is not the only answer, the size of the U.S. financial 
contribution to meeting basic water needs around the world is paltry--
actually only one-quarter the size of Japan's and even less than 
Germany's. Instead, world leadership on these issues is being played by 
the Netherlands, Japanese, French, British, Germans, and others.
    It doesn't have to be this way. A more coordinated and considered 
set of positions on the size and form of U.S. contributions to global 
water problems, including financial, technological, and educational, 
could be developed by the National Water Commission for the 21st 
Century.
Comments on H.R. 135 ``Twenty-First Century Water Commission''
    Finally, I'd like to offer specific comments on H.R. 135. I commend 
Congressman Linder and his co-signers for proposing this bill. As my 
preceding testimony should make obvious, I strongly support the 
creation of a national commission. I believe, however, that this bill, 
as written, will not meet the needs of the nation. In particular, the 
``Findings'' of this bill are somewhat misdirected and the ``Duties,'' 
while well-intentioned, are too limited and occasionally inappropriate.
    In particular, the Findings emphasize the need ``to increase water 
supplies in every region of the country.'' Overall water supply is not 
a problem, with some regional exceptions. And even in these regions, 
increasing supplies does not appear to be the most efficient, cost-
effective, and timely response. The greatest water problems facing the 
United States are not shortages, but inefficient use, inappropriate 
water allocations, water pollution, and ecological destruction. Indeed, 
water use in the United States has decreased in the past 20 years, 
reducing pressure on overall supply. On a per-person basis, this 
decrease is substantial, as shown in Figure 1. Per-capita use in the 
U.S. has decreased 20 percent since 1980--a remarkable change. Figure 2 
shows that total economic growth in the U.S. has continued, even as 
overall water use has leveled off and even declined. Moreover, where 
the problem is ``shortage,'' the fastest, cheapest, and most 
environmentally acceptable solution will not be an increase in 
``supply'' but a reallocation of existing uses and improvements in 
efficiency.
    Most of the proposed ``Duties'' of the Commission are clear and 
well designed. But others could be strengthened and refocused:
    Duty (2) should not be ``directed at increasing water supplies'' 
but ``directed at improving water use and reliability.''
    Duty (3)(E) should not be aimed at ``increasing water supply 
efficiently while safeguarding the environment'' but at ``improving 
water-use efficiency and reliability of water supplies while 
safeguarding the environment.''
    Duty (3)(F) should not recommend ``means of capturing excess water 
and flood water'' but should rather ``means for managing floods using 
appropriate structural and non-structural approaches.'' This would be 
in line with recent Federal recommendations on comprehensive flood 
management.
    Duty (3)(G) asks for recommendations on ``financing options for 
public works projects.'' While this would be useful, given growing 
constraints on funding at the national and local levels, it should be 
broadened to make recommendations on ``financing options for 
comprehensive water management projects.''
    Duty (3)(I) asks for recommendations on ``other objectives related 
to water supply.'' Again, this should be broadened to make 
recommendations on ``other objectives related to water management.''
    On a relatively minor point: I believe the number of Commissioners 
should be larger than 7, as proposed in Section 5, paragraph (a). Given 
the diverse nature of the nation's waters, and the complex set of 
issues that must be addressed, broader representation is necessary.
    Finally, I reiterate the need to expand the scope of the Commission 
to address the role of the United States in solving international water 
problems.
    I congratulate you for considering this vital issue and for helping 
to raise national attention on the need to re-evaluate and re-focus 
efforts on sustainably managing our precious freshwater resources.
    Thank you for your attention.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6198.001
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6198.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6198.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6198.004
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6198.005
                                 

    Mr. Calvert. I thank the gentleman.
    Mr. Lynch.

          STATEMENT OF ROBERT S. LYNCH, ESQ., MEMBER, 
           WATER RIGHTS TASK FORCE, PHOENIX, ARIZONA

    Mr. Lynch. Thank you, Mr. Chairman, and members of the 
Subcommittee. I'm Bob Lynch, an attorney in Phoenix, Arizona. I 
would ask that my written testimony be submitted for the 
record.
    Mr. Calvert. Without objection, so ordered.
    Mr. Lynch. Since no one has talked about why this bill 
shouldn't pass, I don't think I should spend my time talking 
about what a wonderful bill it is. It's a good bill and I'm 
here to support it. I want to talk about why it needs to pass 
quickly.
    On April 15th, Reclamation will convene a meeting in 
Boulder City, NV to talk about the shortages in the Colorado 
River and the coming impacts that we're already feeling. Glen 
Canyon Dam is holding 62 percent of Lake Powell's available 
supply. Lake Mead is down a similar amount. I mean, this is 
real and it's immediate. Our Governor Napolitano has 
established a drought task force within the last 2 weeks.
    I don't have to tell you, Mr. Chairman, about the problems 
in California. California has enough water problems that it 
could be its own country. But they're there, and we all know 
what they are. Colorado, the East Slope Reservoir, in spite of 
the blizzard, it will take another 4 years to fill, according 
to my friend Rod Caharich, who runs the Colorado River Water 
Board. It didn't help the Colorado River Basin at all. It was 
on the wrong side of the mountain. So we're still in deep 
trouble.
    Governor Owens from Colorado is going to ask that antennas 
be removed from the river basins. We can't do that because of a 
bird that happens to like Arizona but doesn't like Colorado, 
and it's endangered. If Mr. Tancredo was here, he would 
probably remember that he signed a letter on March 14th to 
Secretary Veneman, saying the Forest Service is still doing 
this bypass flow thing that the task force I was on that 
reported to Congress in '97 said they didn't have authority to 
do, and they're still doing it, and asking them to stop, 
especially in a drought, especially when we're talking about 
people's drinking water.
    In New Mexico, in February the Mexican section of the 
International Boundary and Water Commission toured Caballo and 
Elephant Butte. Elephant Butte was about 20 percent full and 
Caballo about 18. These are real problems. The litigation in 
New Mexico requiring intubation transfer from the San Juan 
that's on appeal to the 10th Circuit, Commissioner Keys has 
said publicly could destroy Reclamation's ability to manage 
their 248 reservoirs. These are real problems.
    There are other suits, suits that involve the Central 
Valley Project in Idaho, where the Justice Department has 
expanded the concept of the Winter's Doctrine beyond all 
reason, as far as I'm concerned. All of this needs to get 
corralled in some fashion. This study commission has a huge 
task. There are immediate problems.
    I know the Washington Post said that the East Coast drought 
is over. I'm glad they think so. I wouldn't take that to the 
bank if I were you, not when they were threatening to close the 
University of Virginia last fall when our daughter is 
graduating from there this year, wondering whether she was 
going to be able to.
    These are real problems, and they are nationwide. Mr. 
Linder talked about the problems which have been ongoing for 
years. We need this bill and I urge your quick action on it.
    Thank you.
    [The prepared statement of Mr. Lynch follows:]

            Statement of Robert S. Lynch, Appointed Member, 
                  Water Rights Task Force, on H.R. 135

    Mr. Chairman and Members of the Subcommittee, my name is Bob Lynch. 
I am an attorney in Phoenix, Arizona. I have worked on water and water 
rights issues, beginning at the Justice Department here in Washington 
in the late 1960's and then in private practice in Phoenix for over 35 
of the 38+ years I have been a member of the bar.
    In June 1996, then Speaker of the House Newt Gingrich appointed me 
to the Water Rights Task Force, a Federal advisory committee that had 
been established by the Federal Agriculture Improvement and Reform Act, 
P.L. 104-127. This seven-member advisory committee was chaired by 
Colorado water attorney Bennett Raley, now Assistant Secretary of the 
Interior for Water and Science. The Task Force met and conducted public 
hearings at a dozen locations, including one here in the Russell Senate 
Office Building. We received written documentation and heard testimony 
from interest groups and private citizens. At the Washington hearing, a 
Member of Congress addressed us.
    Our Task Force was directed to examine more narrow issues than 
those presented in H.R. 135. Nevertheless, the issues related to the 
role of Federal agencies and conflicts that arose between agency 
desires and state water rights. Our report was submitted to Congress in 
August 1997.
    You may remember that I appeared here last May to testify on Mr. 
Linder's prior bill, H.R. 3561. In my written and oral testimony, I 
questioned the structure of the entity that was to be tasked to acquire 
information about water supply issues in the twenty-first century. In 
sum, I recommended that an approach like the Water Rights Task Force be 
utilized, giving Congress a view from outside government as to the 
issues that lay before us in solving water supply problems.
    While I could not support H.R. 3561 as introduced last year, I am 
pleased to be able to appear before you today to support H.R. 135 
enthusiastically. I want to congratulate Mr. Linder both for his zeal 
in pursuing this subject and for his flexibility in listening to 
suggestions of others in crafting H.R. 135. Without putting too fine a 
point on it, I think this approach will work.
BARRIERS
    This new commission will give the President and the Congress a 
fresh perspective on the complex subject of water supply and water 
rights. I am pleased that the bill calls for respect for state water 
rights and the primary role of the states that this country has 
historically recognized. Continued respect for the states is central to 
acceptance of any commission recommendations.
    We all know that water flows downhill or toward money. However, 
beyond the mere application of principles of physics or finance, this 
commission needs to take a hard, independent look at the barriers our 
laws and institutions, both Federal and state, present to problem-
solving.
    To be of real value, this commission must be blunt, perhaps even 
brutally frank, in its assessment of how we manage water supply in this 
country and the extraordinary variability woven into that task in 
different regions.
    Some of the barriers this commission must establish are statutory. 
Some of the barriers are institutional. Some of the barriers are 
social. To overcome these barriers and be able to suggest paths to 
solutions, this commission will need to find strategies that can 
provide benefits to multiple interests.
    Virtually every problem related to water supply that I have 
encountered, at least in the last quarter century, whether 
environmental, municipal, or agricultural, could have been solved 
singly or in combination by more water. Yet we often do not engage in 
strategies to increase supply, or protect against floods and conserve 
flood flows, because others may gain an advantage or because we cannot 
necessarily quantify or increase our advantage.
    To the extent that this commission will be confronted by historic 
patterns of applied self-interest, it will need to suggest methods for 
reorienting some of our past water attitudes. Hopefully the commission 
will be charged with thinking outside the box. H.R. 135 lists an 
impressive array of duties for the commission. I am not sure how all 
these can be accomplished in the time allotted but it is certainly a 
worthwhile list.
CONCLUSION
    Being a water lawyer, I tend to gravitate to articles in the 
newspaper about water. This last several years, most of them have been 
about drought. I have been impressed by the extent to which the drought 
has impacted so many different areas of the country. We in the West are 
used to having this problem and reading about our neighbor states and 
their drought problems. I, frankly, was not prepared for articles on 
the drought problems in Charlottesville where our daughter goes to 
school or Roanoke, where my wife's family lives. I have been aware of 
the problems in the Atlanta area for some time because of legislation 
that has been introduced and work that has been done in that area. But 
I didn't realize until the Governor of Maryland declared a drought 
emergency in seven counties near here how bad it had gotten in this 
area or in Pennsylvania, New Jersey and elsewhere.
    What Mother Nature has taught us recently is that not being 
prepared is not an option. Just last week, I read an article in our 
paper about a study that suggests that the Mayan culture of Mexico was 
driven out of existence by drought, not just over five years like the 
current drought in Arizona or seven or ten or thirty like the Southwest 
drought of the late 1800's. This study talked about a drought lasting 
one hundred years.
    We may already be behind the curve in looking at strategies for 
increasing our water supply. Whether we are or not, we are clearly at a 
point in our history where we must focus on this issue. H.R. 135 does 
just that. It is a good bill. It is a good idea. It is clearly an idea 
whose time has come.
    Thank you Mr. Chairman and Members of the Subcommittee for the 
opportunity to testify on this extraordinarily important subject.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman.
    Mr. Renzi, do you have a special guest you want to 
introduce?
    Mr. Renzi. Thank you, Mr. Chairman.
    I was hesitant in my duties and I want to introduce to you 
the Governor of the Great Zuni Nation and Tribe, Arlen 
Quetawki, who I met in Phoenix not too long ago and who has 
been integral in helping us reach this settlement for Zuni 
Heaven. I know that you were involved in the negotiations, a 
newly elected Governor involved in the negotiations and the end 
game.
    I particularly want to thank you for reaching out to the 
local communities, as I mentioned earlier, the upstream users, 
and allowing the voluntary portion of this agreement to be part 
of the settlement. I think that shows the magnanimous aspect of 
your character, Mr. Governor, and of the people that you 
represent. So, with that, I recognize you today and I 
appreciate your traveling here to Washington, and thank you so 
much for getting us to this point. I'm grateful.
    Mr. Calvert. I thank the gentleman.
    With that, I recognize Mr. Eriacho for 5 minutes. Thank 
you.

  STATEMENT OF WILFRED ERIACHO, SR., CHAIRPERSON, ZUNI INDIAN 
TRIBE WATER RIGHTS NEGOTIATION TEAM; ACCOMPANIED BY HON. ARLEN 
          QUETAWKI, GOVERNOR OF THE ZUNI INDIAN NATION

    Mr. Eriacho. Thank you, Chairman Calvert.
    ``Ko' don laik'yadik'yanawe?'' How are you to this time of 
day? My name is Wilfred Eriacho, Sr. I am the Chairman of the 
Zuni Water Rights Team. I thank Chairman Calvert and the rest 
of the Committee members for giving us the opportunity to 
testify before you on a very important topic for the Zuni 
Tribe. I especially thank Representative Renzi for sponsoring 
the bill, and for previous work done by Mr. Hayworth.
    With me today to assist me in my presentation are our newly 
elected Governor, Arlen Quetawki, Sr., Councilman Edward 
Wemytewa, who is in the audience back there, and our tribal 
attorney, Jane Marx. Also, I believe the Salt River Project has 
some representatives here in support of this bill.
    I have submitted a full written testimony, and I would like 
that to be included in the record.
    Mr. Calvert. Without objection, so ordered.
    Mr. Eriacho. I will do a synopsis of that written statement 
to inform you on the purposes of the settlement.
    On behalf of past, present and future generations of 
Ashiwi, the Zuni people, we present our tribe's water needs for 
a most important and sacred ancient site. This most important 
and sacred place was created in very ancient times as the final 
resting place for all Zuni people who have transitioned into 
their spirit form, to watch over and protect their Zuni 
children for as long as Koluwalawa, or Zuni Heaven, shall 
exist.
    In 1984, Congress set aside the Zuni Heaven Reservation for 
the express purpose of protecting the Tribe's long-standing 
religious and sustenance activities on those lands. Even today, 
Zuni religious leaders make a pilgrimage to that Zuni Heaven 
area every 4 years. In drought condition years, this pilgrimage 
is made more often. That 1984 legislation addressed the lands 
to be protected but did not cover the Tribe's water needs. For 
that reason, the United States, on behalf of the Tribe, filed 
water rights claims in the Little Colorado River general 
adjudication.
    Despite the strength of Zuni's litigation claims relating 
to its use and occupation of the area encompassing Zuni Heaven 
and its water since time immemorial, the Tribe was motivated by 
the desire to secure ``wet'' water and not just ``paper'' water 
rights. The proposed settlement before you today provides the 
Zuni a minimum of 5,500 acre-feet per year of water to develop 
and maintain its wetland restoration project. The Tribe will 
use both groundwater and surface water. Surface water will be 
acquired through voluntary transactions.
    Importantly, the parties set out to provide water to the 
Tribe without disrupting, to the greatest extent possible, the 
existing uses and expectations of the parties.
    In conclusion, this water rights settlement agreement will 
enable the Zuni people to restore their most sacred land area 
in the way it is described in ancient traditional historical 
accounts. It will enable them to develop wetlands for water 
plants, birds and other animals so important and necessary in 
carrying out the Zuni Kachina religion. Furthermore, it will 
ease the minds and hearts of the people, knowing that the 
spirits of their ancestors will once again be living in wetland 
conditions as were the land conditions at the very beginning.
    Past and present Zuni Tribal Councils, water rights team 
members, and tribal religious leaders have worked closely and 
reasonably with all non-Zuni parties to keep whole their water 
rights and land interest, and at the same time secure our 
interest to water and land for our sacred lands.
    The leaders of the civil government, religious leaders, the 
Zuni people, are satisfied with the terms of this settlement 
and respectfully ask that you approve it. Also, we have the 
agreement and support of the United States, the State of 
Arizona, and all local water users, including major groundwater 
pumpers.
    Esteemed members of the House of Representatives, on behalf 
of our Zuni people, I humbly ask and urge you to support the 
ratification of this proposed legislation for the water rights 
of the Zuni people at their most sacred land. As a 
representative of the Zuni Tribe's religious leaders and the 
Zuni Tribal Council, I bequeath on each of you a long and 
valued life trail. ``Don dek'ohanan yanitchiy adehy awonayadu. 
Elahkwa don yadon k'okshi'sunnahk'yanapdu.'' Thank you. May you 
spend the rest of the day in a good way to the evening time.
    [The prepared statement of Mr. Eriacho follows:]

            Statement of Wilfred Eriacho, Sr., Chairperson, 
            Zuni Indian Tribe Water Rights Negotiation Team

Introduction
    Ko' don la:k'yadik'yana:we? (Literally speaking) How are all of you 
to this time of day?
    By appointment from the Governor and Tribal Council, going back two 
terms, I have served on the Water Rights Team since 1994. I am 
especially grateful to have been given the task of presenting to you, 
members of the Committee. I am very humbled to be in your presence. 
With me today to assist me in my presentation and to support the Zuni 
Indian Tribe Water Rights Settlement Agreement are Zuni Governor Arlen 
Quetawki, Sr., Tribal Councilman Edward Wemytewa, and the Zuni tribe's 
attorney, Ms. Jane Marx.
    We appreciate your consideration and ask for your support for H.R. 
495 which is identical to S.222, which has passed the Senate.
Overview
    On behalf of past, present and future generations of A:shiwi, the 
Zuni people, we present our tribe's water needs for a most important 
and sacred ancient site. This most important and sacred place was 
created in very ancient times, as the final resting place, for all Zuni 
people who had transitioned into their spirit form to watch over and 
protect their Zuni children for as long as Ko'uwala:wa, the Zuni Heaven 
shall exist. This settlement will satisfy our water needs and put 
finality on our tribe's many centuries of endeavors to restore its role 
as owners and stewards of our most sacred ancestral final resting 
place.
    Honorable Congressmen, in our quest to re-establish our ownership 
and stewards of this most sacred place, we are all following in the 
footsteps of many great elected and traditional Zuni leaders. We are 
following in their footsteps to acquire lands and to continue to use 
Ko'uwala:wa, or referred to as Zuni Heaven, to practice our religion 
which was created for us in time immemorial. Today, we are here to ask 
for your support and advocacy to approve this settlement so that our 
Zuni people can achieve the peace of mind and emotional security so 
necessary to maintain a positive style and so that we can begin the 
important tasks of restoring the sacred land to its formal wetlands 
conditions.
Significance of the Zuni Heaven and the Importance of Water
    The name Ko'uwala:wa is made from the words for Kokko (kachina ) 
and ``uwalanne (village). Therefore, the true translation of that 
sacred place name is Kachina Village. It is the ancient and sacred 
village occupied by the Kachinas who are the ancestor spirit beings of 
departed Zuni people. This is the village where the spirit beings of 
departed ancestors of the living Zuni people reside. These spirit 
beings have lived here from time immemorial and will live here to 
perpetuity. Countless generations of Zuni people have, with their 
individual and collective prayers, made sacred corn meal and food 
offerings to these spirit beings asking for good and long life trails, 
moisture for Earth Mother, plentiful crops, courage, strength and other 
good things in life.
    In very ancient times when Zuni Heaven was created and established 
for the Zuni people, oral tradition describes the land area as being 
very wet with a waist high deep and swift flowing river running through 
it. In these oral tradition stories, this river is called K'yawa:na 
Ahonna or Reddish Brown River referring to a deep and swift flowing 
silt laden river. Since that very ancient beginning, past and present 
generations of Zuni people believe that the spirit beings, residing at 
Zuni Heaven, are responsible for the origin of clouds for rain, snow, 
hail and sleet that will bless Earth Mother with their moisture. The 
Zuni people believe that in order for the spirit beings to perform 
their responsibility of originating clouds that will deliver moisture 
to Earth Mother, they must reside in a land that is blessed with an 
abundant supply of both underground and surface water. That is, the 
land must be in the same wetlands conditions that existed when Zuni 
Heaven was first created and established. For this reason, the Zuni 
people have been very adamant about acquiring stable sources of and 
adequate quantities of water to be used to re-establish the wetland 
conditions that are needed by the spirit beings to bless Earth Mother 
with all forms of moisture.
    The traditional Zuni religion has three major components. The first 
component is the Ancient Rain Priesthood. The second is the Kachinas 
and the third is the Medicine Orders. All of these different religious 
components cooperate and collaborate to pray for the continued 
physical, mental and emotional welfare of the Zuni people. In the 
overall scheme of the Zuni religion, the Kachinas component has a very 
direct relationship to Zuni Heaven as that is where the Kachina spirit 
beings reside in perpetuity. The Kachinas component of the Zuni 
religion is supported, promoted, practiced and maintained by members of 
the six kivas in the tribe. The Kachinas component of the Zuni religion 
is the most active and visible throughout the calendar year. Through 
and with this religion component, all Zuni people, young and old, have 
continual connection with their departed ancestors and children through 
prayers, sacred prayer meal and food offerings, dances and other 
activities.
    During the many years of pre-history and history of the Zuni 
people, the practice of making a pilgrimage to Zuni Heaven has been 
maintained. Leaders of the six kivas and other appointees make this 
pilgrimage every four years, during early summer and normal non-drought 
years. During drought condition years, these pilgrimages were made on 
second or third years. A major purpose for the pilgrimage is to beseech 
the spirit being residents for all forms of moisture so that Earth 
Mother can support all plant and animal life necessary to maintain the 
lives of her Zuni children. Other important purposes include the 
validation of the Zuni people's deep belief in the religion associated 
with the Zuni Heaven and the Kachina component of the Zuni religion. 
This pilgrimage is a very important and major religious event that 
involves practically all members of the tribe and many non-tribal 
friends. The pilgrimage to Zuni Heaven is made on the Sacred Moisture 
Trail of the Kachina Beings. This Sacred Moisture Trail is the entire 
length of the Zuni River which starts at the headwaters of the Zuni 
Mountains, to the east, and ends where it empties into the Little 
Colorado River. Along this Sacred Moisture Trail, many sacred springs 
and seeps are visited where prayers, sacred corn meal and food 
offerings are made. When at Zuni Heaven, the pilgrims harvest water, 
water plants and animals, and minerals to take back to Zuni to be used 
during the years' cycles of religious activities.
    All forms and sources of water are most important and sacred to our 
Zuni people because from the dawn of their traditions and culture, 
farming has been a major life and culture sustaining occupation. Using 
the moisture absorbed by Earth Mother during the winter snows and the 
spring and summer rains, ancient Zuni farmers cultivated every 
available land to grow their precious corn along with other crops such 
as squash and beans. Traditional oral stories tell of ancient farmers 
cultivating fields irrigated by spreader dikes that controlled flood 
flows. To further validate the Zuni people as being skilled farmers, 
historical records show that during the early years of the American 
occupation of the current Zuni and Navajo land areas, Zuni farmers 
provided Fort Wingate and Fort Defiance Army Depots with enough corn 
and other crops to sustain their work efforts.
    Because of the importance and sacredness of all forms and sources 
of water, all prayers and songs of the three major components of the 
Zuni religion contain language asking for rain and snow to ensure that 
all crops have enough water to finish their life paths to provide 
sustenance for their Zuni children. According to Zuni beliefs Zuni 
Heaven is the sacred place where all forms of moisture originate. 
Therefore in order for the Zuni people and their lands to be blessed 
with rain, snow, sleet and hail forever, we have worked very diligently 
with all non-Zuni parties, entities, townships and the State of Arizona 
to obtain what we hope will be a permanent and adequate source of water 
to restore our most sacred land. We will use this water to restore the 
land area to as close to original wetland conditions as is possible. 
Today, we are here to ask for your support and advocacy to approve this 
settlement so that our Zuni people can achieve peace of mind and 
emotional security that is so necessary to maintain our Zuni traditions 
and culture.
    It is clear, therefore, why settlement rather than litigation is 
the preferable path for my people. As you know, in 1984 Congress set 
aside the Zuni Heaven Reservation for the express purpose of protecting 
the Tribe's long-standing religious and sustenance activities on those 
lands. As just described to you and testimony leading to passage of 
Pub. L. No. 98-498, 98 Stat. 1533 (August 28, 1984) revealed, water for 
riparian habitat and the Sacred Lake is essential to those activities, 
the very purpose for which Congress set aside the Reservation. That 
legislation, as amended by Pub. L. No. 101-486, 104 Stat. 1174 (October 
31, 1990), addressed the lands to be protected but did not cover the 
Tribe's water needs. The United States on behalf of the Tribe, 
therefore, filed water rights claims in the Little Colorado River basin 
general adjudication which has been pending since 1979. The LCR 
adjudication involves thousands of parties, including five Indian 
tribes.
    Despite the strength of Zuni's litigation claims relating to its 
use and occupation of the area encompassing Zuni Heaven and its waters 
since time immemorial, the Tribe was motivated by the desire to secure 
``wet'' water and not just a ``paper'' water right. The settlement 
provides for real water to be acquired by the Tribe, in an area of the 
Little Colorado River basin where the surface water is already over 
appropriated and where there also exists significant groundwater 
demand. Equally important, the settlement also provides the resources 
to be able to restore the wetlands and riparian areas on our sacred 
lands, an outcome we would not obtain through litigation. This 
settlement, thus, restores the ecosystem necessary for our sacred 
practices and provides the parties, and Zuni in particular, the benefit 
of certainty and finality without spending numerous years and extensive 
resources in litigation. Moreover, this settlement resolves the Zuni 
Tribe's water rights claims with no adverse impacts on the water rights 
of any party in the LCR litigation.
Overview of The Settlement
    This settlement is the culmination of the Tribe's attempts to 
protect and restore the sacred lands of Zuni Heaven. The Tribe's 
litigation claims are satisfied by providing water and resources to 
rehabilitate and restore to the Reservation a riparian habitat for the 
Tribe's religious and sustenance activities.
Description of the Restoration Project and Water Needs
    Our restoration project will take a number of years to accomplish. 
Simply described, it involves acquisition of water rights, use of 
groundwater, aggradation of the LCR stream channel, removal of exotic 
plants that impede restoration of the wetlands, and planting and 
maintenance of native plant species. Although our goal is to restore 
the area to as close to natural, predevelopment conditions as possible, 
certain hydrologic conditions may have been permanently altered by 
upstream dams and surface water diversions as well as extensive 
groundwater pumping; significant engineering planning and design is 
needed, as well as the ``artificial'' maintenance of certain wetland 
and riparian areas. We will endeavor to create as natural an 
environment as is reasonably possible.
    With regard to the water requirements, the settlement provides Zuni 
a minimum of 5,500 acre-feet per year (afy) of water to develop and 
maintain its wetland restoration project. The Tribe will use both 
groundwater and surface water. Importantly, the parties set out to 
provide water to the Tribe without disrupting, to the greatest extent 
possible, the existing uses and expectations of the parties. The 
mechanism to accomplish this goal includes the voluntary acquisition of 
surface water rights from willing sellers in an area where water uses 
are changing and irrigation is declining. In the long run, the Tribe 
needs to acquire a total of at least 3,600 afy of surface water. The 
remainder of the minimum 5,500 afy of water needs will be met through 
appropriation of floodtype flows, development and ``harvesting'' of 
water from Zuni lands upstream of the Reservation, and groundwater 
pumping. The settlement recognizes the right of the Tribe to withdraw 
1,500 of groundwater free from objection by the parties. Notably, Zuni 
will need to acquire 2,350 afy of surface water rights over the next 
few years in order to effectuate the settlement and waive its claims.
    The Tribe's project includes two phases: a core, initial wetland 
development area that includes restoration of Hadin K'yaya, the Tribe's 
Sacred Lake. This area will be developed immediately using groundwater, 
and will be maintained in perpetuity even in periods of drought. The 
secondary wetland area will be developed using surface water, after the 
Little Colorado River channel has been aggraded, or raised up, on the 
Reservation, through removal of sediment upstream and relocation of 
that sediment to Zuni Heaven. The extent of the secondary wetland area 
is expected to fluctuate depending on surface water availability in 
wetter or dryer years.
    As noted above, the surface water rights will be acquired pursuant 
to state law. As such they will carry the associated state law priority 
dates. However, of great significance to the Tribe, once those rights 
have been acquired and severed and transferred to the reservation, the 
water takes on key attributes of a Federal right: the water rights 
shall be held in trust by the United States in perpetuity, the water 
rights cannot be lost by abandonment or forfeiture, state law does not 
apply to water uses on the Reservation, and the state has no authority 
to regulate or tax the use of the water. The settlement provides 
similar protection for the Tribe's use of 1,500 afy of groundwater on 
the Reservation.
Contributions; Development Fund
    The settlement provides for a unique partnership among the Tribe, 
the United States, the State of Arizona, and certain individual parties 
to accomplish the goals of this settlement. First, in addition to the 
financial contribution of $19.25 million requested of the United 
States, the state parties, including the State of Arizona and other 
major groundwater pumpers, are contributing roughly $8 to $9 million 
dollars toward this settlement, and the Zuni Tribe itself has spent 
close to $5 million dollars to acquire certain key lands and water 
essential to the success of the project. The extent of shared funding 
is unprecedented in water rights settlements. Equally important, 
however, is the creative use of state programs to support the 
restoration and environmental goals of this settlement. In addition to 
contributions from its general funds, the State of Arizona is using two 
state programs aimed at endangered species protection and habitat 
conservation to fund its contribution to this settlement. Through use 
of these state funds, the Tribe will receive water rights to be used 
for its wetland restoration project as well as dollars that will be 
spent for wetland restoration and maintenance purposes. Ultimately, 
these efforts along the Little Colorado River stream will create more 
habitats for threatened and endangered species. Through this 
partnership, Zuni restores its sacred lands, and environmental 
protection goals are met.
    This agreement will establish the Zuni Indian Tribe Water Rights 
Development Fund managed by the Department of Interior into which the 
contributions from the State of Arizona and the United States will be 
deposited. From the Federal contribution of $19.25 million, $3.5 
million dollars will be made available immediately to secure water 
rights so that the settlement agreement can become enforceable. The 
remaining funds will be made available after the enforcement date. The 
Zuni Indian Tribe has extensive working knowledge of trust funds 
management and investment by the U.S. Treasury Department and 
Department of Interior's Office of Trust Funds Management. Our tribe 
has prudently used funds from prior settlement of land claims. We have 
used the prescribed regulatory process for drawing down funds under 
Secretarial control. We have also exercised the option of withdrawing 
monies under the American Indian Trust Fund Management Reform Act of 
1994. The Congressional route for withdrawing of funds has also been 
successfully used by our Tribe.
    The Zuni Indian Tribe will use the settlement Development Fund in 
the manner prescribed by this proposed legislation and by the terms 
embodied in the agreement. Our trustees at the Southwest Regional 
office and the Office of Trust Funds Management are extremely aware of 
our adherence to Federal fiduciary standards, but more importantly, to 
the fiduciary standards of my people. We have met these standards in 
the past, and we will meet the standards contemplated in this 
legislation in furtherance of our restoration goals.
Rationale for Certain Waivers and Compromise
    This settlement represents many hours of working with my people to 
develop a workable vision and concept for restoring our sacred Zuni 
Heaven given the present conditions at the Reservation. In addition, 
the settlement is the result of more than four years of extensive 
negotiations involving my water rights team and our water rights 
attorneys. As such, it contains negotiated compromises, some of which 
were arrived at only after a great deal of discussion and deliberation. 
Several provisions, described below, required a great deal of ``soul-
searching'' and discussion by Zuni's water rights team and Council. We 
firmly believe, however, that this settlement, even with some difficult 
compromises, provides the best possible approach to securing an 
adequate amount of water of sufficient quality for our religious 
practices.
    The first of the significant compromises relates to taking lands 
into trust. As mentioned above, the Tribe has acquired certain lands 
near the Reservation that are critical to our ability to gather and 
send water down the Little Colorado River channel to the Reservation. 
Other lands along the LCR are also important to the project. To further 
this settlement and the needs of some parties to have certainty about 
the status of these lands now and in the future, the Tribe identified a 
key corridor along the LCR that contains lands we now own or may 
acquire in the future that will be taken into trust as part of this 
settlement. One section of land adjacent to the Reservation will also 
be made part of the Reservation; it is the expected location of much of 
the Tribe's groundwater pumping. The legislation provides that only 
these lands in Arizona will be taken into trust, absent a subsequent 
act of Congress authorizing additional lands into trust for Zuni.
    Before any lands may be taken into trust, the Tribe, the State of 
Arizona, and Apache County will enter into an intergovernmental 
agreement covering a number of water and land use issues that are 
identified in the settlement agreement. These issues include, for 
example, adoption of a tribal water code, jurisdiction by the Tribe 
over wildlife management, payments by the Tribe in lieu of state taxes, 
rights-of-way or easements for adjoining landowners, and protection of 
land remaining in fee status for the Tribe's religious practices. We 
support the intergovernmental agreement approach as a useful mechanism 
for sovereign governments to use to facilitate their relationship. 
After considering the nature of our land and water use in Arizona for 
sustaining our religion and culture, lands which are not the site of my 
people's homes or economic livelihood, we are also comfortable with the 
substantive agreements within the provisions to be covered by the 
intergovernmental agreement and believe they strike a reasonable 
balance of interests.
    The next area of significant compromise relates to waiver of future 
water quality claims. We know that this waiver covers new ground in a 
water rights settlement. Again, after a great deal of deliberation and 
consideration of the specific circumstances of this settlement, we are 
comfortable with the compromises contained in the approach to waiver of 
these future claims. Circumstances may differ in another case where, 
for example, a reservation is a homeland and is located in an area with 
more industrial or other development. Moreover, in our negotiations, we 
agreed to try to reach a settlement that would, as much as possible, 
maintain the status quo and the parties' existing water use 
expectations. This may not be a goal in another context. From the 
Tribe's perspective here, the location of the Reservation in a 
relatively undeveloped area of Arizona, combined with the state 
parties' agreement to provide water quality monitoring and data on an 
ongoing basis, along with the broad retention of regulatory authority 
by the United States to address water quality or environmental problems 
that may arise, provide us adequate assurance that a serious problem 
will not go unremedied, even if the Tribe is limited in the type of 
claims it can assert. On balance, Zuni believes that the overall 
benefits to us of this settlement outweigh the risks associated with 
the limited waiver of future water quality claims.
    Finally, I want to discuss briefly the issue of the timing of the 
Tribe's waiver of litigation claims and the acquisition of water rights 
as a condition precedent to such a waiver. As I mentioned earlier, the 
Tribe needs to acquire 3,600 afy of surface water rights in order to 
develop its project. The Tribe will waive its claims, however, when 
2,350 afy of the necessary 3,600 afy of surface water is acquired. This 
must be accomplished by the end of December 2006. Clearly, there is a 
risk to the Tribe of waiving its claims before it has acquired all of 
the necessary water rights. However, after significant thought, we felt 
it the wisest use of time and resources to structure the settlement in 
this fashion, for several reasons. First, under the settlement 
agreement and legislation, the Tribe has early access to $3.5 million 
dollars in order to secure the necessary 2,350 afy of water. Given the 
voluntary nature of the water acquisitions, we have attempted to strike 
an appropriate balance between a reasonably short time frame to 
determine whether the settlement will become finally enforceable, and a 
reasonable guess as to the amount of water at a reasonable price we 
expect could be acquired within the limited time frame. We did not want 
to be in a situation where we are forced to pay too much for any 
particular water right in order to satisfy the time deadlines, yet we 
need to know that we can reasonably expect to secure sufficient surface 
water to develop the project. The 2,350 afy amount is the parties' best 
estimate as to the amount of water at a reasonable price that we can 
anticipate acquiring with the initial funds by December 2006. We will 
then acquire the remainder of the water rights over time, with the 
State of Arizona expecting to contribute approximately 1,000 afy of 
water over the next fifteen years. We believe that this approach is 
fiscally sound and, in conjunction with our ability to use groundwater, 
provides us enough certainty about the ability to develop the entire 
wetland restoration project over time.
Conclusion
    This water rights settlement agreement will enable the Zuni people 
to restore their most sacred land area to the way it was as described 
in ancient traditional historical accounts. It will enable them to 
develop wetlands for water plants, birds and other animals so important 
and necessary in carrying on the Zuni Kachina religion. Furthermore, it 
will ease the minds and hearts of the people knowing that the spirits 
of their ancestors will once again, be living in the wetland conditions 
as were the land conditions at the very beginning. Past and present 
Zuni Tribal Councils, it's Water Rights Team members, and tribal 
religious leaders have worked closely and reasonably with all non-Zuni 
parties to keep whole their water rights and land interests and at the 
same time, secure our interest to water and land for our sacred lands. 
The leaders of the tribal civil government, the religious leaders and 
the Zuni people are satisfied with the terms of this settlement and 
respectfully ask that you approve it. Initial work has already begun to 
re-establish the wetland conditions of the Sacred Lake area and 
adjacent Little Colorado River channel. The several sources of funds 
for wetland restoration work efforts will be sufficient to continue the 
work already started. We all know that it will take many years of 
sustained work efforts and funds to restore our sacred lands to the way 
that they were in the beginning. However, with this settlement, we have 
all made a good start and will continue the work efforts for as long as 
it will take.
    We firmly believe that with this settlement, the Zuni people and 
our non-Zuni neighbors, townships, entities and the State of Arizona 
have gained benefits that are so much better than a lengthy and 
expensive litigation. Expensive and protracted litigations may still 
remain for the northern reaches of the Little Colorado River, however, 
at least one portion will be forever resolved with the approval of this 
settlement. We further believe that the United States, on behalf of the 
Zuni tribe, will have fulfilled it's trust obligations with the 
approval of this settlement.
    Esteemed members of the House of Representatives, on behalf of our 
Zuni people, I humbly ask and urge you to support the ratification of 
this proposed legislation for the water rights of the Zuni people at 
their most sacred land. As a representative of the Zuni tribe's 
religious leaders and the Zuni Tribal Council, I bequeath on each of 
you a long and valued life trail. Don dek'ohanan yanitchiy a:dehy 
a:wona:ya:du. Elahkwa, don yadon k'okshi'' sunnahk'yanapdu. Thank you, 
may you spend a good day to the evening time.
                                 ______
                                 
    Mr. Calvert. Thank you for your testimony.
    Next, Mr. Michael Whitehead, San Gabriel Basin Water 
Quality Authority.

           STATEMENT OF MICHAEL WHITEHEAD, DIRECTOR, 
           SAN GABRIEL BASIN WATER QUALITY AUTHORITY

    Mr. Whitehead. Thank you, Mr. Chairman, Committee members. 
My name is Michael Whitehead. I am president of San Gabriel 
Valley Water Company, the utility that serves much of the San 
Gabriel Valley, but I come to you today as a member of the 
board of directors of the San Gabriel Basin Water Quality 
Authority.
    First of all, Mr. Chairman, I would like to say that I have 
submitted written comments to the Committee, and I would, if it 
please the Committee, have those comments entered into the 
record and I would like to summarize that.
    Mr. Calvert. Without objection, so ordered.
    Mr. Whitehead. Also, Mr. Chairman, please also allow me to 
express my deepest appreciation to Congresswoman Grace 
Napolitano for introducing H.R. 1284, and to Congressman David 
Drier and Congresswoman Hilda Solis, who we heard from earlier 
this afternoon, for their support in cosponsoring this very 
important legislation.
    Title XVI, the program that has been quite beneficial to 
the San Gabriel Valley and the San Gabriel Basin, has enabled 
groundwater producers in the San Gabriel Valley to provide much 
needed wellhead treatment and to stem the flow of contamination 
that is flowing underground, to stabilize water rates and, 
above all else, to assure a reliable and safe supply of water 
to over 1.5 million inhabitants in the San Gabriel Valley. The 
program under title XVI has been one of the fundamental 
cornerstones of allowing us to advance that progress in the San 
Gabriel Valley. For that, we are immensely grateful.
    H.R. 1284 would extend that and lift that cap in an 
important way that would allow us to provide funding to 
additional programs. I mentioned earlier that it is one of the 
cornerstones. Others Commissioner Keys has mentioned, the other 
funding sources that the Bureau of Reclamation is also 
administering, all of those fit together and become very 
important funding sources. We have, in fact, through the Water 
Quality Authority, brought about agreements throughout the 
Valley, most notably recently in the Azusa Baldwin Park area, 
which has been plagued with a profound amount of groundwater 
contamination from volatile organic compounds, perchlorate 
and--I'm afraid to say a list too long to mention here today--
of other contamination in the groundwater.
    As Congresswoman Napolitano observed earlier, we have 
similar problems emerging in the South El Monte, El Monte and 
the Puente Valley operable units, which are Superfund cleanup 
sites in the San Gabriel Valley. This legislation, as well as 
other funding we're seeking at the local, State and Federal 
level, will allow us to advance those projects.
    Just for the Committee's information, I will tell you that 
under the auspices of title XVI already through the Bureau of 
Reclamation, the Water Quality Authority has allocated funding 
to 10 groundwater cleanup projects, to clean up the groundwater 
and restore drinking water in the San Gabriel Valley. Seven of 
those projects have been completed and have been built and are 
in operation. Three additional projects are under design and 
will be built in the near future, thanks again to title XVI.
    I know the hour is late, and I know that others wish to 
speak, so I won't elaborate further. But I do, once again, want 
to thank Congresswoman Napolitano for your support. We could 
not have achieved the kind of success so far that we have in 
the San Gabriel Valley without that kind of support, and we 
certainly welcome it. For that reason, we urge this Committee 
and the Congress to approve H.R. 1284.
    Thank you.
    [The prepared statement of Mr. Whitehead follows:]

   Statement of Michael Whitehead, Member of the Board of Directors, 
               San Gabriel Basin Water Quality Authority

    Good afternoon, Mr. Chairman, Committee members and staff. My name 
is Michael Whitehead and I am a member of the Board of Directors of the 
San Gabriel Basin Water Quality Authority. Let me express my 
appreciation to Congresswoman Grace Napolitano for introducing H.R. 
1284 and Congressman David Dreier and Congresswoman Hilda Solis for co-
sponsoring the legislation.
    The Title XVI program has provided the San Gabriel Basin with the 
ability to provide much needed wellhead treatment, stem the flow of 
contaminants, stabilize water rates and most importantly deliver safe 
and reliable drinking water to the residents of the San Gabriel Basin.
    By increasing the authorization for the San Gabriel Basin 
Demonstration Project, H.R. 1284 will allow us to continue the 
incredible progress that has been made over the last few years in 
cleaning up and utilizing the groundwater in the San Gabriel Basin. 
Title XVI has allowed us to maximize local dollars as we attempt to 
remediate groundwater contamination that threatens the drinking water 
supply of over 1 million residents of the San Gabriel Basin.
    In the time period since the Title XVI program was made available 
to the San Gabriel Basin Water Quality Authority, 10 projects have been 
allocated funding. Seven projects have been built and another three 
will begin construction in the near future.
    Without the funding for the treatment facilities local water 
producers would have been forced to shut down water wells due to 
migrating contamination. The closures would have forced local water 
purveyors to become reliant on Colorado River water at a time that the 
state's allotment is being cutback. This would have severely impaired 
our ability to provide water for users in the basin and forced us to 
rely on imported water.
    It is vital that we restore the basin's aquifer. Once we are able 
to remediate the contamination it is our belief that the Valley will be 
able to use the aquifer to meet all of the basin's water needs. 
Removing harmful contaminants from our communities groundwater supply 
will allow local water producers to better meet the needs of local 
residents at affordable rates. Lifting the ceiling on Title XVI makes 
certain that the basin is able to meet the water supply needs of future 
generations.
    We urge the Committee and their fellow members of Congress to lift 
the ceiling on the Title XVI program to allow us to carry out our 
mission of facilitating groundwater cleanup and providing a clean, 
reliable drinking water supply for the 1 million residents of the San 
Gabriel Basin.
    Thank you for allowing me to testify for the Subcommittee today.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman.
    Mr. George Lujan.

             STATEMENT OF GEORGE LUJAN, RESIDENT, 
                      EL MONTE, CALIFORNIA

    Mr. Lujan. Thank you. I have also submitted written 
testimony. I am going to summarize the last part of it. I would 
like to have this testimony submitted, and I am also going to 
submit a modified copy to take into account the additional 
remarks that I'm going to cover.
    Mr. Calvert. Without objection, your full testimony will be 
entered into the record.
    Mr. Lujan. Thank you.
    Once again, I do want to thank all of you for having me 
here. With my appearance today, you will have heard from an all 
too frequently neglected stakeholder in this proceeding: the 
residents. I, as a disinterested party--interested in the 
resolution of this problem but disinterested in that I'm not a 
PRP, I'm no longer a city official, and I'm just concerned with 
the well-being of the people of El Monte, South El Monte, and 
the entire San Gabriel Basin.
    There were three areas that I thought were important to 
emphasize. These points have not been made in previous 
testimony, which I find surprising. I'm going to make those 
three now and then I'm going to add a fourth. It is important 
to be able to see why it is essential that this bill pass, or 
if this bill doesn't pass, I'm going to argue for something 
related in just a moment.
    First, let me point out that the cities of El Monte, 
Industry and South El Monte, have sought to have the 1996 
funding cap of $38 million lifted from the moneys provided by 
the 1992 Reclamations Act, to include an additional $12.5 
million. Because of the 1996 cap, these three cities were not 
able to benefit from the moneys provided.
    We have heard testimony from Mr. Keys earlier, and I do 
want to make sure that my comments will also conform to the 
issues that he raised earlier.
    The cities of El Monte and South El Monte are among the 
poorest of the various operable groups. Yet, for the sake of 
basic fairness, I would urge you to consider that the El Monte 
and South El Monte operables, the stakeholders, the PRPs, and 
now, I guess, the RPs, the responsible parties, almost alone 
among the people in the San Gabriel Basin stood up and tried to 
avoid the transaction costs which drive up cleanup efforts by 
not looking to attorneys but by trying to work with the EPA, 
the Federal Government, the local State agencies, the regional 
areas, in order to seek resolution.
    While I know it's an anecdotal point that ``no good deed 
goes unpunished'', I think it violates a point of basic 
fairness that these people should not be able to achieve the 25 
percent matching funds in order to get their projects funded, 
since they alone have stood up in order to work as closely as 
possible. Yes, the sword of Damocles was hanging over them, but 
these people stood up for what they felt they ought to do, and 
to the extent we want to make sure the polluter pays, we also 
want to make sure that there is some basic fairness in the 
process.
    As a matter of public policy, it is not appropriate to have 
those people who are the most cooperative to suffer the most in 
this effort. Hence, H.R. 1284 ought to be passed in order to 
make sure that, as a principle of basic fairness, this is done.
    Secondly, there is another consideration which has not been 
raised. Many of the PRPs in these operable units may not 
survive the remediation process without the sort of assistance 
provided by the bill.
    Now, the reason I mentioned Mr. Keys' testimony is because 
he said he was talking to several people, and I understand 
there was some pressuring to find out who were these people. I 
could say that I contacted South El Monte in order to secure 
their support for my testimony here. Of course, if I only 
talked to a secretary, I nonetheless spoke to someone at city 
hall.
    In point of fact, I spoke to Patricia Wallach, a 
councilmember of El Monte, yesterday. I talked to Larry Felix 
Friday and yesterday, and he provided a letter, which I would 
like to have entered into the record.
    Mr. Calvert. Without objection.
    [The letter follows:]
    [GRAPHIC] [TIFF OMITTED] T6198.009
    
    [GRAPHIC] [TIFF OMITTED] T6198.010
    
    [GRAPHIC] [TIFF OMITTED] T6198.011
    

    Mr. Lujan. Thank you.
    In which at the bottom of the second page and top of the 
third page he indicates no knowledge of any type of 
availability of Reclamation moneys for his effort.
    Now, just as we have no rights unless we can defend them, 
similarly, we have no remedies unless we can take advantage of 
them. If this information is not made available to the PRPs and 
to the RPs, then it cannot be applied in order to defray some 
of the costs.
    The second point I want to mention is this. The economic 
viability of the region is in question because some of these 
PRPs are not able to survive this process and stay in business. 
Why is this a matter of public policy as well as a matter of 
basic fairness? It's because we may end up having a large 
orphan's share, assumed entirely be the Federal Government, if 
these people cannot have the economic sustainability in order 
to make sure that they own up to their obligation and continue 
paying for the water remediation. It is better to partially 
supply the moneys to these people in terms of a 25-75 match, in 
order to make sure that they're still around to continue 
meeting their obligation, so that the taxpayers at large do not 
meet this.
    Thirdly, it is in the public interest for this body to 
ensure every means to remediate this problem as soon as 
possible because the plumes are leaching into the Central 
Basin, and it is not simply a problem for the San Gabriel Basin 
PRPs but also for the residents and water users of the Central 
Basin.
    It is important also--and this is my fourth and last 
point--to remember, the city of South El Monte and the city of 
El Monte are not among the PRPs. In order to make sure the 
Bureau of Reclamation money is available if Mr. Keys does have 
it available, it is to make sure that these people, the 
stakeholders, the PRPs and the RPs, are told about this money.
    I'm certainly going to take this testimony back and share 
it with the PRPs of El Monte and South El Monte. But the city 
managers of El Monte and South El Monte have nothing to do with 
this because they are not responsible parties and they have no 
say in the allocation of the moneys or in the contribution of 
moneys to the water treatment.
    As I said, the city of South El Monte has once provided a 
great amount of money in order to allow for cleanup and to do 
various experimental projects. I would hope, and surely expect, 
this body to achieve such greatness of spirit, as you all are 
surely capable.
    If you don't pass this bill, H.R. 1284, then simply direct 
Mr. Keys to make sure that the $8 million that he says is left 
over from the cap, as well as $4.5 million to make the entire 
$12.5 million whole, is directed to Industry, South El Monte, 
and El Monte. Because remember, without the direct force of 
law, there is no reason that he has to do this. It really isn't 
a remedy. It's simply something on paper.
    [The prepared statement of Mr. Lujan follows:]

               Statement of George J. Lujan, Resident of 
                       South El Monte, California

    Honorable representatives, members of the Committee:
    I want to thank you for the opportunity to appear before you today. 
So far you have heard from various local and Federal elected 
representatives and from potentially responsible parties from the 
business community. With my appearance today, you will have heard from 
an all too frequently neglected stakeholder: the residents. I have 
spoken about this problem with Representatives Dreier, Napolitano and 
Solis, as well as members of their staff, in the past, and I want to 
thank them for their efforts in bringing some promise of relief to the 
heavily minority, economically distressed cities of El Monte and South 
El Monte.
    Recognizing the long-term threat facing the various communities 
across the San Gabriel and Central basins, I have long sought to do 
what I could to apply what resources could be brought to bear on 
remediating the proximate source of that threat: the various plumes of 
contaminated groundwater drifting across the San Gabriel Basin aquifer 
toward the Central Basin. With plumes containing volatile organic 
compounds, perchlorate, trichloroethene and other ``emerging'' 
contaminants, there is a potentially serious health threat to everybody 
who lives and works in the various operable units in the San Gabriel 
Basin; with the health threat potentially affecting residents and 
workers, it is extremely difficult to attract and retain businesses in 
El Monte and South El Monte, especially with an unemployment rate of 
9.3 percent and in which 26 percent of the residents live below the 
poverty level.
    As a private resident, I studied CERCLA, the 1979 Superfund Act, 
it's 1986 reauthorization, the Torrez bill, the Smith bill, the Oxley 
bill and other relevant state and local legislation. I attended 
meetings of the Regional Water Quality Control Board and San Gabriel 
Basin Water Quality Authority, as well as local meetings held by 
business groups in the various operable units. I educated myself in 
issues relevant to my home and my city, and spoke with stakeholders 
affected by the problems and the attempts to remedy them.
    When I was elected to the South El Monte City Council, I did my 
best to look for ways to build bridges of cooperation among the various 
stakeholders. Our city was instrumental in various efforts to test the 
groundwater, to develop and implement ways of treating the groundwater, 
to work with the various state water quality control entities and the 
USEPA, and to safeguard the public's health and well-being. Even though 
the Citry of South El Monte was not a potentially responsible party, we 
contributed $40,000 to a WQA project that blocked one plume so that the 
South El Monte PRPs could qualify for $400,000 in contributions and 
matching funds to complete the project that they would not have 
otherwise gotten.
    The cities of El Monte, Industry and South El Monte, have sought to 
have the 1996 funding cap of $38 million dollars lifted from the monies 
provided by a 1993 reclamations act to include an additional 12.5 
million dollars.. Because of the 1996 cap, these three cities were not 
able to benefit from the monies provided. The cities of El Monte and 
South El Monte are among the poorest of the various operable groups. 
For the sake of basic fairness, I would urge you to consider the merits 
of passing H.R. 1284, but there is more. Consider this: In the first 
place, the cities of El Monte and South El Monte have been among the 
most open and cooperative of any of the operable units. To allow the 
other operable units to benefit from the already allocated monies from 
the 1993 funding while ignoring the publicly minded efforts of the PRPs 
of the El Monte and South El Monte operable units is simply unsound as 
a matter of public policy. Secondly, there is another consideration: 
many of the PRPs of these operable units may not survive the 
remediation process without the sort of assistance provided by this 
bill. The economic viability of the region is in question. Also, in 
terms of cost-benefit analysis, it is surely better to allow PRPs to 
stay in business so as to defray the cost of what would otherwise be 
orphan share assumed by the government. In the third place, it is in 
the public interest for this body to ensure every means to remediate 
this problem as soon as possible, not only for the health of the 
residents of El Monte and South El Monte, but for the sake.: of those 
living in the Central Basin. The plume is a menace that must be 
stopped.
    As I said, the City of South El Monte provided monies to facilitate 
actions contributing to the health and economic viability of our 
residential and business communities. I would hope and surely expect 
this body to achieve such greatness of spirit as it is capable of 
achieving.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman, and I thank all of you 
for your testimony on the various legislative bills. It's been 
a busy day today. We have discussed four pieces of legislation 
that we intend to have a markup on Thursday, but we have a few 
other questions we need to ask.
    Mr. Calvert. Mr. Gleick, I listened to your testimony with 
interest. You made a comment that the per capita water use is 
down and that the issue of supply is not the problem.
    You know, I've been Chairman of this Subcommittee for 3 
years now, have been a member of the Committee for 10 years, 
and I can't remember anyone telling me that we don't have a 
supply problem in the United States. On the contrary, it seems 
that everywhere I go in the United States and have a water 
hearing, there is a problem with supply. There may be a dispute 
of where that supply should go, whether to the urban 
communities or the farming communities or the environmental 
community, whoever. But certainly there is a dispute. Certainly 
in California, in my experience with Cal-Fed and the 
Quantification Settlement Agreement, et cetera, et cetera, 
there is plenty of disputes. If we could make disputes water 
and water policy, we would have a flood. But, unfortunately we 
don't. So here we are today, I believe with a good bill that 
Mr. Linder has put forward, H.R. 135. As Mr. Lynch pointed out, 
I think there are very few people who object to the fact that 
we need to take another look at water in this country and what 
we're doing.
    Now, on global warming, I used to chair the Energy and 
Environment Committee, too, so I've been to every global 
warming conference in the world, I think, and have always with 
great interest listened to the folks. I suspect that if, in 
fact, we do have climate change issues, we can argue whether 
it's because of human participation or just natural elements in 
the world. I know there's a controversy around that, too, 
another dispute. Nevertheless, if, in fact, we do have a 
climate change, there are some who would argue that we may need 
more supply and more ability to collect water because the ice 
pack or the snowfall, which has been, in effect, a reservoir 
for us throughout the West, would be less, and there would be 
more rainfall.
    Do you have any comment about that?
    Mr. Gleick. Yes, Mr. Chairman. Those are all wonderful 
questions, and very astute.
    Let me clarify my comments. In this bill, the findings 
emphasize ``the need to increase water supplies in every region 
of the country.'' That is not the problem facing the United 
States. There are some regions and there are some times when 
supplies are short, absolutely. But even in these regions, 
increasing supplies is not the best solution. The best solution 
is rethinking the way we use water, reallocating water from one 
user to another, as you've heard some of the discussion here 
today. In fact, demand for water in the United States is going 
down, the total demand for water.
    I'm sorry that nobody else has told you that in the last 10 
or 15 years, but the reality is that the demand for water is 
going down. On a per capita basis, it's going down even more 
than that.
    That's good news. It's not bad news, it's good news. It 
means we have the ability to rethink the way we're using what 
we have and to use it more effectively and more efficiently.
    I am not disputing the need for such a commission. Such a 
commission can help us rethink the broad suite of water 
problems, and we certainly have very many water problems. But 
the focus of the findings and the focus of the duties I think 
are slightly misdirected, and that was the point of that set of 
comments.
    Mr. Calvert. Thank you.
    Mr. Lynch, any comment about that?
    Mr. Lynch. Well, obviously I don't agree with Dr. Gleick. 
If per capita water use is going down, we're being overrun by 
capitas, because California is growing, Arizona is growing, the 
West is growing, and the very place where water supply is the 
biggest problem is the place where people are all moving. We 
can just stop them at the border and say ``I'm sorry, we're out 
of water.'' Well, we're not out of water. But we can't just go 
up to people and say, ``I'm sorry, you don't have any water 
rights any more.'' I mean, we do that under the guise of some 
processes now too much as it is. But this is a serious problem.
    As I outlined in my testimony, the problem is right in 
front of us. We need to get after it and we need to focus on 
the problems that face us immediately. There may be problems in 
other countries, but we need to concentrate on the ones we've 
got right in front of us.
    Mr. Calvert. Speaking of water rights, I think the Federal 
Government tried to do that in Imperial County the other day, 
didn't they? It didn't work out too well.
    Mr. Lynch. Yeah, but it worked out better than the Central 
Valley Project, and they're suffering with 50 percent 
allocation.
    Mr. Calvert. That's right.
    Mrs. Napolitano.
    Mrs. Napolitano. Dr. Gleick, the survey in your testimony 
indicates there is a reduction, although not quite as much as I 
would have liked to see. But there is a reduction of water 
usage.
    I also know Metropolitan Water in Los Angeles has data that 
indicates California has remained constant for the last 10 
years because of conservation, storage, et cetera, et cetera. 
So they're not using as much water. The fact that the 
Department of Interior is forcing California to go to 4.4 
million acre-feet itself indicates that we may be able to get 
there, but we need all the help we can get to be able to get 
there. That means utilizing every available type of 
conservation, storage, recycling, desal, the whole bit.
    Can you comment on that?
    Mr. Gleick. Yes. Metropolitan has done a wonderful job, as 
has much of Southern California, in reducing its per capita 
demand--that is, doing what we want to do with less water. And 
per capitas are growing, absolutely. Mr. Lynch is right. 
Population in the West especially, and in California, is 
growing.
    Mrs. Napolitano. Thirty percent.
    Mr. Gleick. But we use no more water in California today 
than we used 20 years ago, with a very much higher population. 
And that's to our credit. It shows that we are doing better.
    If we focus this commission only on efforts to increase 
supplies, this commission will do nothing useful. I'm not 
saying in places we shouldn't discuss increasing supplies. I 
am, indeed, suggesting that we broaden the responsibilities of 
this commission to look at the entire suite of water management 
options that really face us, those that are most economically 
achievable, environmentally achievable, socially achievable. In 
some places, that's going to mean smart groundwater management 
and conjunctive use, and increases in groundwater supplies.
    I'm certainly not opposed to that, but I am opposed to this 
bill if it limits our options of such a commission to look at 
what really is the broad suite of problems facing us.
    Mrs. Napolitano. Thank you, sir. I appreciate that.
    Mr. Lynch, I know that Phoenix is facing a lot of hardships 
because of the cyclical, if you will, drought problem. Have 
there been many efforts in conservation? I know they've done it 
in California and Texas, and I'm sure they have done something 
in Arizona. Can you comment on what kind of conservation 
efforts have gone before you or that you're aware of in 
Arizona?
    Mr. Lynch. Mr. Chairman, Mrs. Napolitano, yes, there are a 
number of them. For instance, in order for agriculture to take 
Central Arizona Project water, all of their facilities had to 
become lined. They had to reduce their groundwater pumping. In 
fact, our Central Desert Basins are all in balance today 
because of that.
    The municipalities have instituted a number of conservation 
efforts. The zoning laws have changed in terms of facilities, 
and we are doing a relatively new program that we should have 
started when California did, of groundwater banking, which has 
been very successful.
    Our problem in the Central Deserts, where the Central 
Arizona Project is, is the problem of the Colorado River, the 
continued supply and the 5-year drought that has stymied things 
in the Colorado River Basin. Our rural areas are really 
hurting. In fact, this afternoon as we speak, our Senate is 
amending a bill to allow some emergency groundwater transfers 
in our rural areas that aren't normally allowed under our 1980 
Groundwater Act because of that. So yes, we're working as hard 
as we can at this. It's a major program, but this is a killer 
drought.
    Mrs. Napolitano. But wouldn't it then make sense to be able 
to address all the issues concerning water and its use 
throughout the United States, looking at every conceivable 
method of being able to address whether it's a drought, floods, 
et cetera?
    Mr. Lynch. Mr. Chairman, Miss Napolitano, yes. I think 
we're dealing with semantics here. Water reuse is increasing 
water supply. Vegetation management is increasing water supply. 
It can also help with flood control and flood management, and 
conserving flood flows to reduce damage as well as to increase 
water supply.
    I am not sure that Dr. Gleick and I are on a different page 
here, so much as the words sound differently. But I think the 
focus is on increasing our ability to have the resource, and 
that includes conservation as well as other things that can 
increase the usability.
    There is no more water. I mean, the water goes up in the 
sky, it floats around, it comes down again. It's all the same 
water, it's all the same molecules. It's where it's located at 
the time and the fact that it's not located where you need it 
at the time that is our problem. Helping with that management 
will be, I hope, the focus of this commission.
    Mrs. Napolitano. Thank you, sir.
    Mr. Calvert. I thank the gentlelady.
    Mr. Hayworth.
    Mr. Hayworth. Thank you, Mr. Chairman. Again, I would like 
to thank all the witnesses for their patience and diligence and 
the testimony here.
    I would be remiss if I didn't offer a special word of 
welcome to my friends from the Zuni Tribe. Mr. Chairman and 
Governor, we thank you. I was honored to introduce the 
legislation in the 107th Congress that now bears the name of my 
good friend from Arizona's new 1st District, and I am pleased 
to be a cosponsor. I am pleased, also, to be a cosponsor of 
H.R. 135, and again to my friend, Bob Lynch, we thank you for 
your testimony as well on that.
    One question. I can recall in the 107th Congress you 
offered some cautionary notes on John Linder's bill. I suppose 
working with Congressman Linder, those concerns you had have 
been minimized now and we can move forward on this policy. 
Obviously, as you reflected in your testimony, we need it.
    I just wondered, from then until now, what has encouraged 
you along the lines of this bill?
    Mr. Lynch. Mr. Chairman, Mr. Hayworth, Mr. Linder has just 
done yeoman's service in working with the water community, with 
me and others. I have been privileged to work with him on this, 
and I think the redesign of this bill gives it a manageable 
focus.
    I remember in the Federal Water Rights Task Force how 
difficult it was for us just to coordinate schedules of seven 
people, just to be able to have the hearings and be around 
different parts of the country. So I think this bill is a 
focused attempt to address a major issue and I think it has a 
great chance of success. I support it 100 percent.
    Mr. Hayworth. Thank you, Bob. Again, my thanks to all the 
witnesses for their testimony, and to you, Mr. Chairman, for 
the hearing.
    Mr. Calvert. I thank the gentleman.
    Mr. Renzi.
    Mr. Renzi. Thank you, Mr. Chairman. I also want to thank 
Congressman Hayworth and everyone who has taken the time to 
hang in with us today, particularly at this late hour.
    I would be remiss if I didn't thank the original author of 
this, Congressman Hayworth, for a specific portion of this 
legislation that I want to talk about real quick, more of a 
statement than a question.
    The idea that as more of our ranchers are moved off the 
public lands in Arizona, these ranchers have less and less 
income. Within this settlement agreement is a very insightful 
agreement that allows the ranchers to sell a part of their 
water to the Tribe. The Federal Government will participate and 
provide a percentage of that water that will go to Zuni Heaven. 
I think it's going to flow out of our apportionment that we 
have in Lyman Lake. But what's interesting is the concept that 
Congressman Hayworth developed, along with the Tribe, the idea 
that local water users, local ranchers, will now be able to 
sell their right rights.
    I am hopeful, in the spirit of cooperation and working 
together as a community, that you're still finding that 
friendship and you're finding that opportunity to be available 
to you, if you would like to comment on that.
    Thank you.
    Mr. Eriacho. Thank you, Mr. Renzi.
    That is correct. We went into these negotiations with the 
idea that we wanted the share of water that rightfully belonged 
to the Zuni lands, but at the same time not take anything away 
from the residents in St. Jones and Springerville and up along 
that river. Like I said in the statement a while ago, any water 
that we purchase is going to be on a voluntary basis. Anybody 
that wants to sell water to the Zuni, we're ready to buy, using 
the money the United States is going to give to us, and also 
lands, if it's attached to lands. So I think this is a good 
settlement and I think we have the backing of all of the 
participants.
    Mr. Renzi. Thank you.
    It's unique, in a time when we're in such a litigious 
society, at a time when everyone is suing each other over water 
and land, it's wonderful to see from the original author and 
from the Tribe the idea that we're going to be able to settle, 
and with the idea we're also going to be able to share in the 
benefits of this. Again, thank you so very much.
    Mr. Eriacho. Thank you.
    Mr. Calvert. Thank you.
    I have a few comments to make, and Mrs. Napolitano may have 
some additional question. But while waiting for her, I wanted 
to make a comment to Dr. Gleick.
    I don't think you have anything really to worry about. I 
suspect that your views will be expressed and listened to and 
be a part of any future commission. In my experience with 
water, every element of water must be explored in order to have 
a balanced approach to this. Certainly conveyance, the issues 
of groundwater, reclamation, desalinization, the environment in 
general and how that water is shared within those various 
stakeholders is going to be necessary because NEPA is not going 
to go away. Maybe a few people would like to reform it a little 
bit, but I suspect it probably is not going to go away. So 
those various elements must be dealt with in a reasonable way 
in order to have a meaningful policy in the end, that is 
workable and we can deal with for the 21st century.
    As I mentioned earlier--and I'm sure Mrs. Napolitano has 
some comments--I think you've got some great assistants, Mr. 
Whitehead and Mr. Lujan, on H.R. 1284. Mrs. Napolitano is very 
tough minded about getting this bill done, and she's got some 
great supporters, not excluding myself, and also the Chairman 
of the Rules Committee here. So I suspect you have a very great 
opportunity ahead of you to pass this legislation. We will work 
to do that.
    As a matter of fact, Mr. Renzi is doing a great job in 
moving H.R. 495 and, in fact, we intend to mark up all three of 
these bills, along with another bill we heard earlier regarding 
the Folsom Dam, on Thursday, so we'll be moving those to the 
full Committee for final consideration, and with all haste.
    With that, do you have any final comments, Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chair. I, too, want to 
thank all the witnesses for coming, especially my California 
friends, who are coming here during such cold weather and 
coming from the warm weather in California. I would like to 
thank you all for bringing us more information on how to deal 
with water.
    I would like to comment that sometimes people don't think 
about water. They just turn the faucet on or flush the toilet 
and it comes and goes. We have no concept about the issues of 
water delivery and the quality and quantity of water.
    I agree with Mr. Lynch, and I'm sure my tribal folks 
understand, that Mother Earth gave us the water to use and take 
care of and we need to be cognizant that we have a 
responsibility to take care of that water, and clean it, 
because it was given to us clean and we have polluted it. How 
we deliver it is going to be a challenge for all of us in the 
United States, to take a look at and understand and be 
cognizant of our own role in the solutions, not always 
government. I think the fact that we can work together, that we 
can bring it before this Committee, which has been very, very 
good about listening and acting upon those issues as they come 
before us, I think is very laudable.
    Mr. Chairman, I thank you and the Committee members. We 
must move forward, and I certainly look forward to coming back 
for the markup, which is on Thursday. I thank you all for your 
testimony and we look forward to more work ahead.
    Thank you.
    Mr. Calvert. I thank the gentlelady, and I thank this 
panel. I thank everyone for attending this hearing, and thank 
the members for sticking in there.
    With that, we are adjourned.
    [Whereupon, at 5:47 p.m., the Subcommittee adjourned.]

    [The prepared statement of Mr. Hayworth submitted for the 
record follows:]

Statement of The Honorable J.D. Hayworth, a Representative in Congress 
                 from the State of Arizona, on H.R. 495

    Mr. Chairman, Thank you for holding this hearing today. I am 
particularly grateful to see that H.R. 495, the Zuni Indian Tribe Water 
Rights Settlement Act of 2003 is on today's agenda. I introduced this 
legislation in the 107th Congress, and am proud to be a cosponsor of 
this bill in the 108th Congress, now introduced by my colleague from 
Arizona, Mr. Renzi.
    This legislation ratifies the settlement agreement concerning the 
Zuni Indian Tribe's water rights on the Little Colorado River in 
Eastern Arizona. The bill will provide for a wetlands restoration at 
``Zuni Heaven,'' an area of land along the Little Colorado River that 
is sacred to the Zuni Tribe of New Mexico. Consistent with the 
principles of tribal sovereignty, Indian self-determination and 
religious freedom, this legislation will settle ancient water rights 
and ensure that those rights are preserved for all future generations 
of the Zuni people.
    The Zuni tribe's water claim is no new development. In fact, 
litigation of the water rights on the Little Colorado River basin has 
been ongoing for nearly a quarter of a century. This legislation 
represents a culmination of this process in a way that will reduce 
expenses for all parties involved. Indeed, we should look at the 
settlement process demonstrated in this water settlement as a model for 
other settlements. The affected parties have recognized that final 
resolution of these water claims through litigation is counter-
productive and hurtful to the Tribe, neighboring non-Indian water 
users, local towns, utility and irrigation companies, the State of 
Arizona, and to the United States. Therefore, negotiations have brought 
forward a settlement agreed to by all parties, and we now have the 
opportunity to codify this settlement by passing this legislation.
    I commend my colleague, Mr. Renzi, for bringing this bill forward 
in such a quick manner and making it one of his top priorities. Again, 
thank you Chairman Calvert for scheduling this legislation for today's 
hearing and working with us to get this bill through the Resources 
Committee.
                                 ______
                                 
    [A statement submitted for the record on H.R. 135 by the 
Association of California Water Agencies follows:]

  Statement of the Association of California Water Agencies (ACWA) on 
                                H.R. 135

    The Association of California Water Agencies (ACWA) appreciates the 
opportunity to submit comments to the Subcommittee on Representative 
John Linder's H.R. 135. ACWA represents 440 public water agencies in 
California, and our members supply over 90 percent of the water 
delivered in the state for residential, agricultural and industrial 
uses.
    ACWA is pleased to support H.R. 135, legislation creating a 
``Twenty First Century Water Strategy Commission.'' This legislation 
represents an opportunity to come to grips with the complexity of 
modern water problems and assess the means to their resolution. These 
comments will spell out areas where California's water community 
believes the commission should devote special emphasis, and offer 
constructive input on its implementation.
    Given the variety of climates and uses that make up the national 
water supply picture, a twenty-first century water policy commission 
must confront the fact that new strategies and investments are needed 
to avert a water crisis in the western United States. For arid states 
like California, the uneven distribution of precipitation over the 
state's geography is a central fact of its existence. The American 
population continues move toward and grow in the west, in areas faced 
with resource constraints and increasing environmental demands. 
Capturing the water available for human uses in an environmentally 
sound manner in these areas is essential. Without significant 
reinvestment in aging agricultural and residential water 
infrastructure, the capacity currently available to do this will be 
overwhelmed. Among the first places this will happen is California.
    ACWA and its members devote a significant amount of time promoting 
the federal partnership in new and proven technologies to meet the 
water needs of the west. Conservation, recycling, desalination, off-
stream storage, conjunctive use and groundwater management are just a 
few of the areas where local, state and federal programs working 
together have created spectacular success. Water conservation and 
recycling today allow California's largest city to live on nearly the 
same amount of water it used in 1976. The state Department of Water 
Resources estimates that California water recycling has expanded by 
about 100,000 acre-feet per year since 1990. And today, a half-dozen 
seawater desalination projects are under consideration that together 
could produce more than 120,000 acre-feet of water each year in 
California, enough for nearly a million people.
    Each of these examples illustrates the multi-faceted approach 
necessary to meet water needs in the west. ACWA is encouraged by 
specific language in the bill directing the commission's focus toward 
``assessments...necessary to project future water supply and demand.'' 
The commission's work will be most useful if it results first in a 
comprehensive assessment of needs, and not an immediate change in 
policy. The information presented to and by the commission can then 
effectively direct the federal investment that we already know is 
necessary toward the areas that will generate the greatest water yield 
for the money spent.
    The commission's work should also focus on the economic activity 
generated by water facilities. A variety of statistics are used to 
illustrate the business activity and economic stimulus made possible 
through public works. Some have claimed that as many as 40,000 
construction jobs are generated for every $1 billion allocated to new 
public water infrastructure. The commission's report should provide a 
clearer understanding of the economic contribution of water projects, 
both at the construction phase and in the long-term activity produced 
when the facilities come on line.
    But new infrastructure alone is not the only avenue to resolve 
national water challenges. The regulatory constraints put in place by 
wildlife agencies can and should be dealt with in a more efficient way. 
Existing water infrastructure, designed and built before the enactment 
of most environmental laws, is frequently ill-suited to complying with 
new goals of environmental restoration. It is not easy to smoothly 
overlay a wildlife agency's objectives onto a facility designed to 
export water or keep a floodplain dry. For this reason, new regulatory 
approaches that seek out opportunities to merge environmental goals 
with reliably operated water systems are extremely important to 
optimizing our existing and planned water infrastructure into the 
twenty-first century. ACWA believes that California's CALFED Bay-Delta 
Program is a successful example of this type of coordination between 
regulatory agencies, environmental demands and the water needs of 
people.
    A final area of concern for our members is in membership of the 
commission. ACWA appreciates the language calling for a broad cross 
section of government and geographic representatives, as well as the 
stipulation that these members bring ``recognized standing and 
distinction in water policy issues'' to the group. ACWA believes these 
members should acknowledge that increased water supplies, as well as 
the conservative use of existing water resources, will be essential to 
creating a meaningful and effective water policy for the United States.
    In the years since California's construction of the Central Valley 
Project and the State Water Project, no equally large water projects 
have been completed in California. The few regional facilities built 
have often required years of public review and inevitable political 
controversy. In the last 30 years, only two regional reservoirs have 
been built in California, even though eight million people have come to 
the state during that time. Other western states have not fared much 
better. Meanwhile, new commitments to environmental goals and programs 
to protect salmon have further directed away several million acre-feet 
of water to meet new environmental mandates. This rededication of 
resources, coupled with rapid population growth, has vastly 
destabilized western states'' water picture.
    H.R. 135 will enable policymakers to fully ascertain these facts 
and plan a long-term means of addressing them. California's experience 
has shown that it is not a scarcity of fresh water that confronts us, 
but rather the inadequate reclamation and reuse of water available to 
us that threatens western communities with shortage. ACWA looks forward 
to assisting in the passage of H.R. 135 and in promoting a sound and 
well-informed twenty-first century water policy.

                                   - 

</pre></body></html>
